<html>
<title> - THE NEW AFGHANISTAN STRATEGY: THE VIEW FROM THE GROUND</title>
<body><pre>[Senate Hearing 111-400]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-400
 
         THE NEW AFGHANISTAN STRATEGY: THE VIEW FROM THE GROUND

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 9, 2009

                               __________

       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                  U.S. GOVERNMENT PRINTING OFFICE
56-263                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7c1b0c133c1f090f081419100c521f131152">[email&#160;protected]</a>  
?

                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
RUSSELL D. FEINGOLD, Wisconsin       BOB CORKER, Tennessee
BARBARA BOXER, California            JOHNNY ISAKSON, Georgia
ROBERT MENENDEZ, New Jersey          JAMES E. RISCH, Idaho
BENJAMIN L. CARDIN, Maryland         JIM DeMINT, South Carolina
ROBERT P. CASEY, Jr., Pennsylvania   JOHN BARRASSO, Wyoming
JIM WEBB, Virginia                   ROGER F. WICKER, Mississippi
JEANNE SHAHEEN, New Hampshire        JAMES M. INHOFE, Oklahoma
EDWARD E. KAUFMAN, Delaware
KIRSTEN E. GILLIBRAND, New York
                  David McKean, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                              (ii)        

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Eikenberry, Hon. Karl, U.S. Ambassador to Afghanistan, Department 
  of State, Kabul, Afghanistan...................................    21
    Prepared statement...........................................    24
    Responses to questions submitted for the record by Senators:
        John F. Kerry............................................    62
        Richard G. Lugar.........................................    67
        Barbara Boxer............................................    77
        Kirsten Gillibrand.......................................    80
Kerry, Hon. John F., U.S. Senator from Massachusetts, opening 
  statement......................................................     1
Lew, Hon. Jacob J., Deputy Secretary of State for Management and 
  Resources, Department of State, Washington, DC.................     6
    Prepared statement...........................................    11
    Responses to questions submitted for the record by Senators:
        John F. Kerry............................................    63
        Kirsten Gillibrand.......................................    80
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     4
Petraeus, GEN David H., Commander, U.S. Central Command, Tampa, 
  FL.............................................................    14
    Prepared statement...........................................    18
    Responses to questions submitted for the record by Senators:
        John F. Kerry............................................    60
        Richard G. Lugar.........................................    66
        Barbara Boxer............................................    75
        Roger F. Wicker..........................................    78
        Kirsten E. Gillibrand....................................    79

              Additional Material Submitted for the Record

Dodd, Hon. Christopher J., U.S. Senator from Connecticut, 
  prepared statement.............................................    36
Response of Deputy Secretary James Lew and Ambassador Karl 
  Eikenberry to question submitted by Senator John F. Kerry......    65

                                 (iii)

  


                     THE NEW AFGHANISTAN STRATEGY:
                        THE VIEW FROM THE GROUND

                              ----------                              


                      WEDNESDAY, DECEMBER 9, 2009

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:06 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Dodd, Feingold, Boxer, Menendez, 
Cardin, Casey, Webb, Shaheen, Kaufman, Gillibrand, Lugar, 
Corker, Isakson, Risch, Barrasso, and Wicker.

            OPENING STATEMENT OF HON. JOHN F. KERRY,
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. The hearing will come to order.
    We're delighted to welcome today Under Secretary Jack Lew, 
GEN David Petraeus, and Ambassador Karl Eikenberry from 
Afghanistan. We're very, very pleased that you could take time 
to be with us today.
    As we all know, 8 days ago the President announced his 
decision regarding a new phase in our Afghan mission, including 
the important decision to send an additional 30,000 troops. And 
for all of the answers that the President offered--and there 
were many, certainly explanations of his strategy and reasons 
for his decision--a lot of questions remain and are 
appropriately being asked by various committees on the Hill, 
and we appreciate, obviously, the administration's cooperation 
in making themselves available so those questions can be 
answered. It is important, needless to say, for the American 
people to understand the strategy and the stakes, the details 
of our civilian strategy, particularly how Afghan governance at 
all levels will improve and, above all, how we will strengthen 
our partnership with Pakistan.
    As I've said a number of times, I believe that there are 
just some commonsense conditions, based on the judgments that 
we have been hearing from commanders in the field and from our 
ambassadors, that ought to narrow and guide the deployment--ask 
the, sort of, mission tasking, if you will, of our additional 
troops. And I think those are, are there reliable Afghan 
partners--are there reliable Afghan forces to partner with? 
Because the object of this exercise is to transfer the 
responsibility to them. Second, are there local Afghan leaders 
to work with on the ground? Because we want them to be invested 
and to come in quickly underneath the ``clear'' and ``hold.'' 
And third, is the civilian capacity in place to make the 
military gains sustainable?
    I was very pleased to hear General McCrystal say, 
yesterday, that as we plan new operations, we're going to take 
great care to ensure that the civilian and development elements 
are in place to immediately follow our troops. I think that is 
critical, and it is very reassuring to hear that that judgment 
will be made.
    Ultimately, our success depends on having a robust civilian 
effort to build on our military gains. And General Petraeus has 
consistently argued when he was General Eikenberry, now 
Ambassador Eikenberry, consistently argued that there is no 
military solution, ultimately. And so, that needs to remain 
front and center.
    Importantly, each of the challenges that I've mentioned 
demand not only that America improve our past performance, but 
also our partners, all of them, must improve theirs. And this 
challenge is especially crucial when it comes to Pakistan. I am 
convinced that what happens in Pakistan, particularly near the 
Afghan border, will do more to determine the outcome in 
Afghanistan than any increase in troops or shift in strategy. 
Pakistan is, in many ways, the core of our challenge.
    From the Haqqani network to the Quetta shura, the 
interconnected extremist groups that we face don't stop at the 
Afghan border. And so, our strategy cannot stop there, either. 
It must extend to Pakistan.
    Al-Qaeda's leaders are there, most likely including Osama 
bin Laden; homegrown militants like Lashkar-e-Tayyiba are 
there; and so are the individuals directing the Taliban 
insurgency in Afghanistan.
    Pakistan is a sovereign nation, and obviously we need to 
respect that; but, we must convince its government to tackle 
all of the extremist groups threatening regional and 
international security, for Pakistan's sake as well as the 
region's and for all of those who have a stake in this effort.
    The Pakistani military should be congratulated. It has 
demonstrated firm resolve with its offensive against the 
Pakistan Taliban in the Malakand Division of the North West 
Frontier Province in South Waziristan, and its commanders and 
its soldiers deserve great credit. They have sacrificed.
    Now we are looking to Pakistan to also take on the Afghan 
Taliban, the Haqqani network, and al-Qaeda strongholds, and 
this will be crucial to our success in Afghanistan.
    Today, we are prepared to provide Pakistan with additional 
equipment and other military assistance to help its people and 
its government to prevail against these extremists, but we have 
to know that we are building a new and a lasting partnership.
    Many Pakistanis believe that America will once again 
abandon the region, as we did after the fall of the Soviet 
Union, one reason why Pakistan has often hedged its bets and 
used the Taliban for strategic depth. So, let me be clear, and 
I think I speak for the committee in this, and for the 
Congress, because it would be a mistake for anyone in Pakistan 
or elsewhere to believe that the President's words about 
drawing down troops from Afghanistan somehow mean an end to our 
involvement or engagement in the region. It does not. Our 
challenge today is to persuade Pakistan that it cannot, and 
does not need to, hedge its bets. Our troop deployments will 
eventually decrease, but the conditions that will permit them 
to decrease will be beneficial to Pakistan, and America remains 
committed to the people of the region for the long haul, as our 
$7.5 billion civilian commitment demonstrates.
    This also reflects our recognition that Pakistan's 
civilian, military, and intelligence leaders face serious 
challenges. All of us are engaged in a difficult balancing act 
between the tougher measures we believe must be taken and the 
anti-American blowback that such measures can bring to 
Pakistan's fragile democratic institutions. It should help our 
efforts that no country has suffered more than Pakistan at the 
hands of al-Qaeda, the Taliban, and affiliated terrorist 
groups. Some 2,600 people have been killed in terrorist attacks 
in Pakistan in the last 2\1/2\ years. And yet, when so many 
Pakistanis view the United States as a problem, we have to 
admit that we have simply not fought for our reputation enough.
    We must do more to make the case that, fundamentally, 
America and Pakistan are fighting for the same things. We need 
to make clear to the people of Pakistan that we will be full 
partners in their fight against extremist elements, which is 
why, in 2009 alone, the United States has given about $300 
million for conflict-affected populations in Pakistan. As we 
know all nations are threatened by extremism, whether it takes 
place in New York City or in Mumbai or in Peshawar. We must 
work together in stopping people throwing bombs and killing 
innocent people. That is the world's challenge, and it means 
that Afghanistan, Pakistan, and India must cooperate to reduce 
the violence and eliminate the tensions.
    Our troops are defending the right of Afghanistan to 
develop its own government. They are risking their lives to 
chase down international criminals who threaten not just the 
United States, but Afghanistan, Pakistan, and beyond.
    There will come an inevitable moment in this fight where 
our partners in Pakistan must take up the fight with an equal 
vigor so that we don't have to take matters into our own hands. 
I believe we can build a significantly stronger relationship 
with Pakistan. And I also believe that, in the long run, 
Pakistan will strengthen its own democracy, institutions, and 
security by engaging in a comprehensive and unfettered fight 
against the extremists within its own borders.
    Here in Washington, our domestic debate has focused a great 
deal of energy on the question of how many troops we will send 
to Afghanistan. I believe that other strategic questions--
civilian capacity, improved governance, standing up Afghan 
security forces, and especially greater cooperation with 
Pakistan, greater partnership, if you will--that those are the 
crucial determinants of success, not the numbers of troops.
    As CENTCOM commander, Ambassador to Afghanistan, and the 
State Department official responsible for the management, the 
members of this panel are, all of them, well equipped to talk 
the details of these vital efforts today, and I look forward to 
their testimony.
    Senator Lugar.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Mr. Chairman, I join you in welcoming 
Secretary Lew, Ambassador Eikenberry, and General Petraeus. We 
appreciate very much that you have come to the Foreign 
Relations Committee today.
    This hearing provides an opportunity to build on the 
hearing we held last week with Secretaries Clinton and Gates 
and Admiral Mullen. We explored with them, not only the 
prospects for success of the civil-military campaign in 
Afghanistan, but also how the President's plan fits into our 
broader strategic objectives of preventing terrorist attacks 
and stabilizing the Middle East and South Asia.
    Much of the debate in Congress has focused on the 
President's stated intention to begin withdrawing some U.S. 
troops by July 2011. Some members have voiced the concern that 
such a date undercuts impressions of U.S. resolve, gives the 
Taliban and al-Qaeda a target beyond which they can wait us 
out. Other members, with a very different view of the war, 
worry that July 2011 date is so flexible it offers no assurance 
that troops will be withdrawn. This is a legitimate item for 
debate, but I'm doubtful that success or failure hinges on this 
point nearly as much as it does on the counterinsurgency 
strategy employed by allied troops, the viability of the Afghan 
security forces, and, most importantly, how the United States 
engages with Pakistan.
    I have confidence that the addition of tens of thousands of 
United States and allied troops under the direction of Generals 
Petraeus and McChrystal will improve the security situation on 
the ground in Afghanistan. More uncertain is whether the 
training mission will succeed sufficiently to allow U.S. forces 
to disengage from combat duties in a reasonable time period. 
The most salient question, however, is whether improvements on 
the ground in Afghanistan will mean much if Taliban and al-
Qaeda sanctuaries in Pakistan remain or if instability within 
Pakistan intensifies.
    As hearings in our committee have underscored, the 
potential global impact of instability in a nuclear-armed 
Pakistan dwarfs anything that is likely to happen in 
Afghanistan. The future direction of governance in Pakistan 
will have consequences for nonproliferation efforts, global 
economic stability, our relationships with India and China, and 
security in both the Middle East and South Asia regions, among 
other major issues.
    Last week, Secretaries Clinton and Gates and Admiral Mullen 
acknowledged the importance of Pakistan in the President's 
calculation. They underscored that the administration is 
executing a regional strategy. And I'm encouraged by press 
reports that have described the intense diplomatic efforts with 
the Pakistani Government aimed at securing much greater 
cooperation.
    But we should remain cognizant the focus of policy tends to 
follow resources. By that measure, Afghanistan will still be at 
the core of our regional effort. The President and his team 
must justify their plan not only on the basis of how it will 
affect Afghanistan, but also on how it will impact our efforts 
to promote a much stronger alliance with Pakistan that embraces 
vital common objectives.
    The President has said that the United States did not 
choose this war, and he is correct. But with these troop 
deployments to Afghanistan, we are choosing the battlefield 
where we will concentrate most of our available military 
resources. The Afghanistan battlefield has the inherent 
disadvantage of sitting astride a border with Pakistan that is 
a porous line for the militants, but a strategic obstacle for 
coalition forces. As long as this border provides the enemy 
with an avenue of retreat for resupply and sanctuary, our 
prospects for destroying or incapacitating the insurgency are 
negligible.
    The risk is that we will expend tens of billions of dollars 
fighting in a strategically less important Afghanistan while 
Taliban and
al-Qaeda leaders become increasingly secure in Pakistan. If 
they are able to sit safely across the border, directing a hit-
and-run war against us in Afghanistan, plotting catastrophic 
terrorist attacks abroad, and working to destabilize Pakistan 
from within, our strategic goals in the region will be 
threatened, despite progress on the ground in Afghanistan.
    Some reports indicate that Taliban leaders, aware of the 
threat from U.S.-operated predator drones, are moving out of 
remote areas into the crowded cities, including Karachi. If 
such reports are true, the United States will have even fewer 
options of pursuing Taliban and al-Qaeda leaders in Pakistan, 
absent the active help of Pakistani authorities. Specifically, 
will Pakistan work with us to eliminate the leadership of Osama 
bin Laden and other major
al-Qaeda officials?
    In addition to improving the cooperation of the Pakistani 
authorities, the United States and our allies will have to 
become more creative in how we engage with the Afghan and 
Pakistani people. We should understand that, as a matter of 
survival, people in dangerous areas on both sides of the border 
will tend to side with whoever is seen as having the best 
chance of winning. We should also recognize that tribal 
loyalties--most notably, Pashtun loyalties--are at odds with a 
strong central government and with acquiescence to external 
military power.
    As Seth Jones of the RAND Corporation has observed: ``The 
objective should be to do what Afghanistan's most effective 
historical governments have done: help Pashtun tribes, 
subtribes, and clans provide security and justice in their 
areas, and manage the process.'' Meaningful progress in 
Afghanistan is likely to require tolerance or even 
encouragement of tribal administration in many areas, as well 
as convincing tribal leaders that opposing the Taliban is in 
their interest.
    In these circumstances, we should explore how cell phones 
and other communication technologies can be used more 
effectively, both as an avenue for public diplomacy to the 
Afghan people and as a means for gathering intelligence from 
them. Already, 7 million cell phones are in Afghanistan, one 
for every four inhabitants. The Taliban's reported priority on 
destroying communications towers underscores their 
understanding of the threat posed by these technologies. For 
example, cell phones could be used by sympathetic Afghans to 
produce real-time intelligence, including photographs of IEDs 
being prepared or calls alerting coalition troops to movements 
of the Taliban. Phones eliminate the need for informants to 
take the risks of visiting a police station in person or of 
conversing openly with U.S. troops.
    Similarly, expanding the use of credit card transactions 
could prove revolutionary in addressing some vexing problems in 
a country that lacks an effective banking system. They can 
provide a way to reduce corruption, improve accounting within 
the Afghan Government and security forces, and relieve soldiers 
from the need to go AWOL to deliver pay safely to their 
families.
    I appreciate the innovation and dedication that our 
witnesses have displayed in the past, and their willingness to 
take on extremely difficult missions. I noted last week that 
the President deserves credit for accepting the responsibility 
for this difficult problem as we go forward, and that is 
equally true for our distinguished panel.
    I look forward to our discussions and I appreciate their 
service.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Lugar.
    We're going to start with the testimony from Secretary Lew, 
and we're grateful for you taking on the task on the civilian 
side of this, so thank you for coming to share thoughts today.
    General Petraeus will follow. And, General, you've had 
about as interesting a set of challenges as any commanding 
general could have in succession, and we're pleased and 
delighted to have you here, and very respectful of your 
leadership in all of this.
    And finally, Ambassador Eikenberry, let me just thank you. 
I had occasion to spend about 5 days with you, and I saw what 
an outstanding team you have there working with you and what a 
terrific job you, yourself, are doing. I want to thank you for 
that. I wish you would extend to them our gratitude, because 
the competence level was extraordinary. And I know that 
President Karzai and others there have great respect for that 
team and for the work you're doing. So, we're very grateful to 
you. Thank you.
    Secretary Lew.

  STATEMENT OF HON. JACOB LEW, DEPUTY SECRETARY OF STATE FOR 
 MANAGEMENT AND RESOURCES, DEPARTMENT OF STATE, WASHINGTON, DC

    Mr. Lew. Thank you, Mr. Chairman.
    Chairman Kerry, Senator Lugar, members of the committee, 
I'm honored to be here with Ambassador Eikenberry and General 
Petraeus, who have a deep understanding of Afghanistan, an 
appreciation of the challenges we face there, and clear ideas 
on how to move forward. Their leadership has been exemplary, 
their commitment to truly joint civilian-military efforts are 
absolute. Over the past week, Secretaries Clinton and Gates and 
Chairman Mullen have testified on the importance of the 
President's strategy for our national security. Today I'd like 
to discuss some of the key civilian components of that 
strategy, which, as the President and Secretary Clinton have 
emphasized, are central to the success of that mission.
    Our troop increase must be matched by strong civilian 
deployment and foreign assistance that reaches the regions and 
functions targeted by the civilian-military plan. We're working 
with OMB to ensure the civilian programs are fully resourced, 
and look forward to working with the Congress on funding levels 
that meet these requirements.
    The State Department, USAID, USDA, and other civilian 
agencies are working with our Afghan partners to bolster 
institutions at the national and subnational levels so they'll 
be ready to ramp up their own responsibility when our combat 
troops begin to depart.
    The President's timeframe gives the Afghan Government and 
President Karzai a sense of urgency to make the reforms needed 
for better governance and stronger institutions. The civilian 
effort will continue long after our combat troops begin to 
drawdown, and they're key to our enduring commitment to 
Afghanistan, Pakistan, and the region. But, it's critical that 
Afghans take increasing responsibility for their own long-term 
welfare and security when our combat troops begin to depart.
    On my visits to Afghanistan and Pakistan, I've seen the 
challenging working conditions at our Embassies, in the field 
at the Provincial Reconstruction Teams in Afghanistan, and in 
our consulate in Peshawar. Each visit leaves me with growing 
appreciation for our brave men and women, both civilian and 
military, who carry out our Nation's policy and make 
extraordinary sacrifices on behalf of our security. As 
Secretary Clinton said last week, and Ambassador Eikenberry 
will elaborate, we really do have the best people in these 
jobs.
    The civilian effort is a reason to be hopeful, despite the 
serious situation in Afghanistan. Civilian experts are helping 
to build Afghan Government capacity in the national ministries 
and at the provincial and district levels. They're providing 
development assistance in the field and working on scores of 
other roles.
    As I will discuss in a few minutes, our civilians in 
Pakistan are making similar contributions. In the revised 
strategy, we will focus our resources at the provincial and 
district levels, partnering with local officials and Afghan 
citizens to deliver high-impact economic assistance. We'll 
expand programs that bolster Afghans' agricultural sector, the 
traditional core of the Afghan economy. We'll focus on 
increasing farmer productivity and helping farmers enter higher 
value markets, rehabilitating degraded watersheds and 
irrigation infrastructure, and expanding the Ministry of 
Agriculture's capacity to deliver critical services, like 
extension programs. This will create jobs, reduce the flow of 
funding to the Taliban from poppy cultivation, and draw 
insurgents off the battlefield.
    Alongside our efforts to help the Afghan National Police 
recruit and train capable police, we are concentrating on rule-
of-law programs to help the Afghan Government and local 
communities develop responsive and predictable dispute 
resolution mechanisms as an alternative to brutal Taliban 
justice. And we're launching a comprehensive communications 
effort to empower Afghans to challenge the threatening 
narrative that extremists use to assert control.
    We will support an Afghan-led effort to open the door to 
former Taliban who abandon violence and want to reintegrate 
into society. We understand that some who fight with the 
insurgency do not do so out of conviction, but because of 
economic pressure, which is a powerful form of coercion. Our 
efforts will help Afghans have a chance to pursue a better 
future if they do so peacefully, respect the basic human rights 
of their fellow citizens, and renounce
al-Qaeda.
    It is also critically important that the Afghan Government 
make progress on controlling corruption. In his inaugural 
speech last month, President Karzai pledged to combat 
corruption, improve governance, and deliver for the people of 
his country. The Afghan people, the United States, and the 
international community will hold the Afghan Government 
accountable for continuing to make good on these commitments.
    We have seen some promising first steps. The attorney 
general's office is investing several Cabinet-level officials, 
which, for legal reasons, the names are not disclosed until 
there's a conviction. A major crimes task force is expected to 
be fully operational by the first of the year. And the Afghan 
Government announced that it will establish a National 
Anticorruption Court. Even today, the Afghan High Office of 
Oversight is scheduled to hold a press conference to discuss 
efforts to combat corruption and share more details of actions 
that are underway.
    I'd like to say a few words on our staffing and training. 
We're on track to triple the number of civilians in 
Afghanistan, to 974, by early next year. We anticipate that we 
will further increase our civilian staffing in 2010 by another 
20 to 30 percent, concentrating on positions in the field and 
key ministries that deliver vital services to the Afghan 
people.
    It's very important to remember the multiplier effect that 
civilian personnel provide. On average, each civilian leverages 
10 partners, ranging from locally employed Afghan staff to 
experts who work with United States-funded NGOs. Since it is 
essential to recruit civilians with the right skills, we have 
enhanced both our recruiting and our training to make sure that 
we get the right people to the right place at the right time. 
For example, we conduct a weeklong civilian-military training 
exercise at Camp Atterbury, in Indiana, for civilians who are 
about to deploy to field positions from State, USAID, USDA, and 
other civilian agencies. I visited, a few weeks ago, and saw 
firsthand how this training immerses civilians and military in 
real-life exercises. They train side by side with Afghan-
Americans who quite convincingly play the role of 
interlocutors. They plan projects, hold meetings with local 
officials, and practice safety and security with their military 
partners. Civilian experts who recently returned from the PRTs 
are contributing to the training as subject-matter experts, and 
they share their real-life experiences to civilians who are 
about to go abroad to take their place so that they can be more 
prepared and do their jobs more safely.
    I want to assure this committee that we will do everything 
we can to make sure that our men and women are well prepared 
and well supported, both from Kabul and Washington, so that 
they can succeed in their efforts and make our Nation more 
secure.
    We're building a core of Afghan and Pakistan experts who 
continue to contribute to the mission even after they return. 
Foreign Service officers with Pakistan and Afghanistan 
experience now serve in key positions at the desks here in 
Washington, at the Foreign Service Institute, on training, in 
Ambassador Holbrooke's office at NATO, and in other posts.
    When Secretary Clinton was in Kabul in November, she heard 
from a U.S. Army colonel, that, while he had thousands of 
outstanding soldiers under his command, none had 40 years of 
agricultural, rule-of-law, or governance expertise like the 
USDA, USAID, State Department civilian experts serving 
alongside his battalion. He told her that he was happy to 
supply whatever support these valuable civilians need, and he 
said, ``We need more of them.'' The President's strategy, with 
congressional support, will make that possible.
    Now, I'd like to take a few moments to address how the 
recently completed strategic review impacts United States-
Pakistan relations. As the President made clear in his speech 
last week, our partnership with Pakistan is inextricably linked 
to our efforts in Afghanistan. We're committed to a partnership 
with Pakistan that is built on a foundation of mutual interest, 
mutual respect, and mutual trust.
    We're not only strengthening Pakistan's capacity to target 
those groups that threaten our countries, we're also providing 
substantial resources to support democracy and development in 
Pakistan. As the President said, ``Going forward, the Pakistani 
people must know America will remain a strong supporter of 
Pakistan's security and prosperity long after the guns have 
fallen silent so the great potential of its people can be 
unleashed.''
    The United States is committed to security assistance 
programs that strengthen Pakistan's capacity to target violent 
extremists that threaten both of our countries. To that end, 
the State Department working closely with our military 
partners, manages two complementary programs: Foreign Military 
Financing and the Pakistan Counterinsurgency Capability Fund. 
FMF assists Pakistan in the sustainable development of 
Pakistan's military services, building a long-term security 
relationship, and reinforcing the United States commitment to a 
strategic partnership. PCCF provides Pakistan with the military 
equipment and training necessary for Pakistan to wage the 
immediate battle against insurgents in its border regions. 
We're committed to deepening our relationship with Pakistan to 
foster a stable civilian-led, democratic government. Such a 
government can be a partner in regional stability and support 
the United States efforts in Afghanistan.
    This committee, under the leadership of Chairman Kerry and 
Senator Lugar, has taken the lead in passing legislation to 
dramatically increase civilian assistance to Pakistan through 
the Kerry-Lugar-Berman legislation, which authorizes $7\1/2\ 
billion, over 5 years, of assistance. These funds will make it 
possible for us to support economic development in Pakistan and 
provide assistance in the critical areas of energy, education, 
water, agriculture, and governance. We're developing a civilian 
assistance strategy to reduce poverty and the vulnerability to 
terrorist recruitment that poverty breeds. We will help 
Pakistan address profound infrastructure needs with significant 
and highly visible projects in energy and agriculture.
    We hear repeatedly from Pakistanis who want to be more 
involved in the design and implementation of these projects. 
Under the leadership of Ambassador Anne Patterson, our Embassy 
is working closely with Pakistani partners to develop a program 
that reflects their needs. We will work through Pakistani 
institutions to develop programs, wherever possible, with the 
goal of enabling and expanding Pakistani capacity at both the 
national and provincial levels and through nongovernmental 
organizations.
    Just as we need strong local partners for our assistance 
programs to succeed, we need our international partners to join 
in supporting Pakistan's development and democracy, helping 
Pakistan build on its success against militants. We're working 
closely with the Government of Pakistan and the international 
community to meet the relief and reconstruction needs in the 
Malakand Division, where military operations early in the year 
were effective, but left considerable need for reconstruction.
    We're supporting the U.N. Special Envoy for Assistance to 
Pakistan's efforts to coordinate assistance in vulnerable 
areas. We're also encouraging other countries to follow through 
on their Tokyo Donor Conference pledges.
    As we strengthen our partnership with Pakistan, we're 
forging trust and cooperation on a broad government-to-
government basis that emphasizes institutions, not individuals. 
In addition to the President, Prime Minister, and other ruling 
party officials, we're reaching out to provincial and local 
officials and have developed strong working relationships with 
parties and civil society leaders across the political 
spectrum.
    Building on the Secretary's personal direct engagement with 
the people of Pakistan during her October trip, our efforts in 
Pakistan are being supported by new public diplomacy efforts to 
redefine the United States-Pakistan relationship as one that 
goes beyond our shared security objectives. This communications 
effort will expand people-to-people contacts and provide an 
alternative to the narrative of fear and hate that extremists 
rely on.
    We're also pursuing high-level policy dialogues to 
encourage the Government of Pakistan to undertake essential 
policy reforms that will lead to long-term economic growth and 
development. Sustained diplomacy on energy issues, for example, 
backed by our commitment to invest in significant energy 
infrastructure projects that will improve the lives of the 
Pakistani people, has reinforced Pakistan's resolve to 
implement critical electricity pricing reforms. These measures 
are essential for Pakistan to meet the electric utility demand 
necessary to support economic growth.
    Our discussions with the President, Prime Minister, Finance 
Minister, and many others in the Pakistani Government, have 
stressed the importance of moving forward with reforms that 
will put Pakistan on a path to economic prosperity.
    Creating new economic opportunities in Pakistan and 
Afghanistan is a core component of combating violent extremism. 
That's why we're continuing to work with Congress to create 
economic opportunities in the region, including initiatives 
such as the proposed Reconstruction Opportunity Zones, a trade 
preference program that is essential to our national security 
objectives in the region. ROZs would provide duty-free 
treatment to certain goods produced in all of Afghanistan and 
parts of Pakistan, to help create much needed employment 
opportunities.
    We're also supporting Pakistani and Afghan negotiations to 
finalize a transit trade agreement that will allow goods 
produced in either country to move quickly between markets 
through Pakistan's ports or across Afghanistan's Ring Road to 
Central Asia.
    Our efforts to build a more stable Pakistan are in our 
national interest and in the interest of Pakistan. The most 
recent series of violent attacks, killing hundreds, including 
woman and children, underscores the importance of countering 
the insurgency on the security and stability of Pakistan. There 
will be ongoing humanitarian needs in Pakistan as the 
government continues to take military action against extremist 
groups. We're proud of our successful contributions to this 
humanitarian effort.
    The responsibilities and interests I've described are 
shared by governments around the world. Our NATO allies and 
other international community partners have already made 
significant contributions of their own in both Afghanistan and 
Pakistan. Most recently, at the NATO ministerial last week in 
Brussels, allies and ISAF partners pledged to contribute 
approximately 7,000 additional troops for Afghanistan. In all, 
25 countries pledged to do more, in terms of troops, trainers, 
and trust fund moneys.
    The task we face is as complex as any national security 
challenge in our lifetimes. We will not succeed if this effort 
is viewed as the responsibility of a single party, a single 
agency, or a single country. We owe it to our troops and the 
civilians who face these dangers to come together as Americans 
and with our allies and partners to help them accomplish this 
critical mission.
    I thank you for the opportunity to testify today.
    Thank you.
    [The prepared statement of Mr. Lew follows:]

Prepared Statement of Hon. Jacob J. Lew, Deputy Secretary of State for 
     Management and Resources, Department of State, Washington, DC

    Chairman Kerry, Senator Lugar, and members of the committee, thank 
you for the opportunity to testify today. I am honored to be here with 
Ambassador Eikenberry and General Petraeus.
    Over the past week, Secretaries Clinton and Gates, Chairman Mullen, 
and National Security Advisor Jones have testified on the importance of 
the President's strategy to our national security. Today, I want to 
focus on the civilian components of that strategy--which, as President 
Obama and Secretary Clinton have emphasized, will be essential to long-
term security in Afghanistan. For truly sustainable progress, our troop 
increase must be matched by a stronger civilian effort and additional 
foreign assistance. We are working with OMB to ensure that our civilian 
programs are fully resourced, and we will work with the Congress to 
ensure that our funding levels match the requirements identified in the 
President's strategy.
    The State Department, USAID, USDA, and other civilian agencies are 
working with our Afghan partners to bolster institutions at every level 
so that they are ready to take more responsibility when our combat 
troops begin to depart. The President's timeframe for transition to 
Afghan responsibility gives the Afghan Government and President Karzai 
a sense of urgency in making necessary reforms. Better governance and 
stronger institutions will enable the Afghans to guarantee their own 
long-term welfare and security when our combat troops begin to depart. 
Our civilian effort will continue long after our combat forces have 
begun to drawdown, as a key part of our enduring commitment to 
Afghanistan, Pakistan, and the region.
    In the past 8 months, I have made two trips to Afghanistan and 
Pakistan, and I am planning a third in January. I have seen the 
challenging work situations at our Embassies, out in the field at the 
Provincial Reconstruction Teams (PRTs) in Afghanistan, and at our 
consulate in Peshawar in Pakistan. My appreciation for our men and 
women, both civilian and military, who are carrying out our Nation's 
policy and making extraordinary sacrifices on behalf of our security, 
has grown with each visit. As Secretary Clinton said last week, and 
Karl just reiterated, we really do have our best people in these jobs.
    Our civilian effort is one important reason why we can be hopeful, 
despite the serious situation in Afghanistan. The same is true with 
reference to Pakistan, about which I will speak more in a moment. 
Civilian experts are helping build Afghan Government capacity, in the 
ministries as well as at the provincial and district levels. They are 
also providing development assistance in the field and working in 
scores of other roles.
    In the revised strategy, we will increasingly focus our resources 
at the provincial and district levels, partnering with local officials 
and Afghan citizens to deliver high-impact economic assistance. We will 
continue to expand our programs to bolster Afghanistan's agricultural 
sector--the traditional core of the Afghan economy--focusing on 
increasing farmers' productivity and ability to enter higher value 
markets, rehabilitating degraded watersheds and irrigation 
infrastructure, and greatly building the Ministry of Agriculture's 
capacity to deliver extension and other services. This will create 
jobs, reduce funding that the Taliban receives from poppy cultivation, 
and draw insurgents off of the battlefield.
    Alongside our efforts to train more capable police, we are also 
focusing our rule-of-law programs on helping the Afghan Government and 
local communities develop responsive and predictable dispute resolution 
mechanisms that offer an alternative to the brutal Taliban justice. And 
we are launching a comprehensive communications effort to empower 
Afghans to challenge the extremists' narrative and offer their own 
vision for Afghanistan's future.
    We will support an Afghan-led effort to open the door to Taliban 
who abandon violence and want to reintegrate into society. We 
understand that some who fight with the insurgency do so not out of 
conviction, but due to coercion or money. All Afghans should have the 
choice to pursue a better future if they do so peacefully, respect 
basic human rights of their fellow citizens, and renounce al-Qaeda.
    It is, of course, also critically important that the Afghan 
Government makes progress on addressing corruption. In his inauguration 
speech last month, President Karzai pledged to combat corruption, 
improve governance, and deliver for the people of his country. The 
Afghan people, the United States, and the international community will 
hold the Afghan Government accountable for continuing to make good on 
these commitments. We have seen some promising first steps. We have 
also been told that that Attorney General's office is currently 
investigating several Cabinet-level officials--for legal reasons 
neither the names nor the charges can be disclosed until there is a 
conviction. In addition, a Major Crimes Task Force is expected to be 
fully operational by the first of the year and the Afghan Government 
announced that it will establish a national anticorruption court. We 
will know more on December 9 when the Afghan High Office of Oversight 
will hold a press conference to announce past and future efforts to 
combat corruption.
    I would like to say a few words now on our staffing and training. 
As Karl described, we are on track to triple the number of civilians in 
Afghanistan to 974 by early next year. We anticipate that we will need 
to further increase our civilian staffing in 2010 by another 20 to 30 
percent, again concentrating on positions in the field and at key 
ministries that deliver vital services to the Afghan people. It is 
important to remember the multiplier effect that civilian personnel 
have. On average, each civilian leverages 10 partners, ranging from 
locally employed Afghan staff to experts with United States-funded 
NGOs.
    To ensure we get the right personnel with the right skills, we have 
expanded and improved our recruiting and training efforts, from 
language skills to civ-mil integration. We are now conducting a 1-week, 
joint civ-mil training exercise every month at Camp Atterbury in 
Indiana. All civilians, from across the interagency, who are deploying 
to field positions or who regularly travel to the field as part of 
their duties must attend the course. I visited it a few weeks back and 
saw firsthand how this training immerses civilians and military in 
real-life exercises. They train side by side--with Afghan Americans 
playing the roles of local interlocutors--to plan projects, hold 
meetings with local officials, and, importantly, practice safety and 
security. State, USAID, and USDA experts who recently returned from 
serving at PRTs contribute to the training as subject matter experts 
and bring their real-life experiences.
    We are building a cadre of Afghanistan and Pakistan experts who 
will continue to contribute to the mission even after they have 
returned. Besides the PRTers who help train at Atterbury, we have also 
recruited numerous State Foreign Service officers with Afghanistan and 
Pakistan experience to positions in the Department on the desks, at the 
Foreign Service Institute, and in Ambassador Holbrooke's office, as 
well as at USNATO and other posts. I want to assure you, Mr. Chairman, 
that we will do everything we can to make sure that our men and women 
are well prepared and supported--both from Kabul and Washington--so 
that they can succeed in their efforts to make our Nation safer.
    When the Secretary was in Kabul in November, she heard from an 
American colonel that while he had thousands of outstanding soldiers 
under his command, none had 40 years of agricultural experience or rule 
of law and governance expertise like the USDA and State Department 
civilian experts serving alongside his battalion. He told her that he 
was happy to supply whatever support these valuable civilians need. 
And, he said we need more of them. The President's strategy--with 
congressional support--will make that possible.
    I would also like to take a few moments to address how the recently 
completed strategy review impacts United States-Pakistani relations. As 
the President made clear in his December 1 speech, our partnership with 
Pakistan is inextricably linked to our efforts in Afghanistan. We are 
committed to a partnership with Pakistan that is built on a foundation 
of mutual interest, mutual respect, and mutual trust. We are not only 
strengthening Pakistan's capacity to target those groups that threaten 
our countries, we are also providing substantial resources to support 
Pakistan's democracy and development. As the President said, ``. . . 
going forward, the Pakistani people must know America will remain a 
strong supporter of Pakistan's security and prosperity long after the 
guns have fallen silent, so that the great potential of its people can 
be unleashed.''
    The United States is committed to security assistance programs that 
strengthen Pakistan's capacity to target violent extremists that 
threaten both of our countries. To that end, the State Department 
manages two complementary programs: Foreign Military Financing (FMF) 
and the Pakistan Counterinsurgency Capability Fund (PCCF). FMF assists 
Pakistan with long-range strategic development of Pakistan's military 
services, building a long-term security relationship and reinforcing 
the U.S. commitment to a strategic partnership; PCCF provides Pakistan 
with the military equipment and training necessary now for Pakistani 
forces to win the current fight against insurgency in its border 
regions.
    We are also committed to deepening our relationship with Pakistan 
to foster a stable, civilian-led democratic government that is 
supportive of the U.S. effort in Afghanistan and is a partner in 
regional stability. We have affirmed this commitment through the Kerry-
Lugar-Berman authorization of $7.5 billion ($1.5 billion annually over 
5 years) in civilian assistance to Pakistan--funds that will support 
Pakistan's economic development, energy, education, water, agriculture, 
and governance. We have developed a civilian assistance strategy to 
reduce poverty and the susceptibility to terrorist recruitment that 
poverty breeds. We will assist Pakistan to address the country's 
profound infrastructure needs with highly visible projects in energy 
and agriculture.
    On my trips, I heard repeatedly from Pakistanis their desire to be 
more involved in the design and implementation of projects. I spoke 
with our personnel at the Embassy about how this would be feasible. We 
will work through Pakistani institutions to implement programs wherever 
possible, with the goal of enabling and expanding Pakistani capacity. I 
was also impressed by the drive and capacity of Pakistani 
organizations; I am confident that there are skilled and eager local 
NGOs with whom we can productively partner.
    Just as we need strong local partners for our assistance programs 
to succeed, so too we need our international partners to join us in 
supporting Pakistan's development and democracy, and helping Pakistan 
build on its success against militants. We are working closely with the 
Government of Pakistan and the international community to meet the 
relief and reconstruction needs in Malakand, impacted by military 
operations earlier in the year, and we are supporting the U.N. Special 
Envoy for Assistance to Pakistan's efforts to coordinate assistance in 
vulnerable areas. We are also encouraging other countries to follow 
through on their Tokyo Donor Conference pledges.
    As we strengthen our partnership with Pakistan, we are forging 
trust and cooperation on a broad, government-to-government basis that 
emphasizes institutions, not individuals. In addition to the President, 
Prime Minister, and other ruling party federal officials, we are 
reaching out to provincial and local officials and have developed 
strong working relationship with parties and civil society leaders 
across the political spectrum.
    Building on the Secretary's personal and direct engagement with the 
people of Pakistan during her October trip, our efforts in Pakistan 
will be supported by a new public diplomacy effort to redefine the 
United States-Pakistan relationship as one that goes beyond our shared 
security objectives. This communications effort will expand people-to-
people contacts and challenge the extremists' narrative. It will 
involve greater engagement with Pakistani media, academic and business 
exchanges, and reaching out to the Pakistani-American community.
    We are also pursuing high-level policy dialogues to encourage the 
Government of Pakistan to undertake the necessary policy reforms that 
will lead to long-term economic growth and development. For instance, 
our consistent diplomacy on energy issues, backed by our commitment to 
invest in energy infrastructure projects that will improve the lives of 
the Pakistani people, will reinforce Pakistan's resolve to implement 
critical electricity pricing reforms. I have also had multiple meetings 
with Finance Minister Shaukat Tarin, and we have talked about the 
importance of moving forward with government reforms that will put 
Pakistan on a path to economic prosperity.
    Creating new economic opportunities in Pakistan and Afghanistan is 
a core component of combating violent extremism there. That is why we 
continue to work with Congress to pass legislation to create economic 
opportunities in this region, including through initiatives such as the 
proposed Reconstruction Opportunity Zones (ROZs), a trade preference 
program that is essential to our national security objectives in the 
region. ROZs would provide duty free treatment to certain goods 
produced in all of Afghanistan and parts of Pakistan. Such initiatives 
can create much-needed employment opportunities. We are also supporting 
Pakistani and Afghan negotiations to finalize a transit trade agreement 
that will allow goods produced in either country to more quickly reach 
markets through Pakistan's ports or via Afghanistan's ring road to 
Central Asia.
    As we consider how to best support Pakistan, we should remember the 
enormous costs that the Pakistani people are bearing as they 
courageously confront the threat of violent extremism. In response to 
the government taking military action against extremist groups, these 
groups have launched a string of violent attacks against women and 
children in markets, and families worshipping in mosques. In recent 
months, hundreds have been killed and many more injured.
    We recognize that there will be ongoing humanitarian needs in 
Pakistan. As the government takes military action against extremist 
groups that threaten not only Pakistan but also the region and the 
world, it is in the U.S. interest to support Pakistan's efforts on the 
basis of the long-term partnership that the President described.
    In closing, I would only add that we share these responsibilities 
with governments around the world. Our NATO allies and other 
international community partners have already made significant 
contributions of their own in Afghanistan and Pakistan. At the NATO 
Ministerial last week in Brussels, allies and ISAF partners pledged to 
contribute approximately 7,000 additional troops for Afghanistan. In 
all, 25 countries pledged to do more in terms of troops, trainers, and 
trust fund moneys.
    The task we face is as complex as any national security challenge 
in our lifetimes. We will not succeed if this effort is viewed as the 
responsibility of a single party, a single agency, or a single country. 
We owe it to the troops and civilians who face these dangers to come 
together as Americans--and with our allies and partners--to help them 
accomplish this mission.

    The Chairman. Thank you very much, Secretary Lew.
    General.

          STATEMENT OF GEN DAVID PETRAEUS, COMMANDER,
                U.S. CENTRAL COMMAND, TAMPA, FL

    General Petraeus. Mr. Chairman, Senator Lugar, members of 
the committee, thank you for the opportunity to discuss the 
situation in Afghanistan together with Deputy Secretary Lew and 
Ambassador Eikenberry, two great partners in this effort.
    As you know, I had the honor of coming before this 
committee to provide my assessment of the situation in Iraq 
when I was the Commander of the Multinational Force in Iraq, 
and I appreciate this opportunity to discuss the way ahead in 
Afghanistan.
    Let me state up front that I fully support the policy 
President Obama announced at West Point last week. Success in 
Afghanistan is necessary and attainable, but the challenges are 
great. The United States and its ISAF and Afghan partners can 
disrupt, dismantle, and defeat al-Qaeda and set conditions in 
Afghanistan to prevent reestablishment of the sanctuaries it 
enjoyed there prior to 9/11, and we can degrade the 
capabilities of the Afghan Taliban and other extremist elements 
while building Afghan security forces that can increasingly 
lead the fight against the Taliban, allowing international 
forces to redeploy over time. But, none of this will be easy.
    Improving the capacity of the Afghan Government will also 
be difficult, as Ambassador Eikenberry forthrightly observed 
during the deliberations of the President's national security 
team. Nonetheless, while certainly difficult or different and, 
in some ways tougher than Iraq, Afghanistan is no more hopeless 
than Iraq was when I took command there in February 2007. 
Indeed, the level of violence and number of violent civilian 
deaths in Iraq were vastly higher than we have seen in 
Afghanistan. But, achieving progress in Afghanistan will be 
hard, and the progress there likely will be slower in 
developing than was the progress achieved in Iraq.
    As President Obama has observed, success in Afghanistan is 
vital for America's security. Reversing the Taliban's momentum 
is essential to the effort to degrade and defeat al-Qaeda. The 
Taliban we are fighting in Afghanistan today is the same 
organization that sheltered and supported Osama bin Laden and 
al-Qaeda as they planned the 9/11 attacks. The relationship 
between these groups remains strong. As Secretary Gates 
observed last week, the Taliban and al-Qaeda have become 
symbiotic, each benefiting from the success and mythology of 
the other.
    The Afghan Taliban are, to be sure, distinct from the 
Pakistani Taliban and their partner groups, which also have 
close relationships with al-Qaeda. The Pakistani Taliban are 
part of a syndicate of extremist groups that includes, as the 
chairman noted earlier, Lashkar-e-Tayyiba, the group that 
carried out the Mumbai attacks, and the Haqqani network, among 
others. That syndicate threatens the stability of Pakistan and 
Afghanistan and, indeed, the entire subcontinent.
    Although most Taliban fighters confronting our forces are 
local Afghans motivated by local circumstances, the Afghan 
Taliban leadership is organized, ideologically motivated, and a 
beacon and symbol for other dangerous extremist elements. As 
Secretary Gates noted, defeating al-Qaeda and enhancing Afghan 
security are mutually reinforcing missions; they cannot be 
untethered from one another, as much as we might wish that to 
be the case.
    Achieving our objectives in Afghanistan, thus, will not be 
easy. The Taliban has in recent years been gaining strength and 
expanding the extent of its control of parts of Afghanistan. It 
is important to remember, nevertheless, that the Taliban 
commands significantly less support among Pashtuns than either 
Sunni or Shia extremist groups in Iraq had in their communities 
in 2007, and it commands virtually no support among 
Afghanistan's other ethnic groups.
    Beyond the insurgent challenge, corruption within the 
Afghan Government, particularly the serious abuse of power by 
some individual leaders and their associates, has eroded the 
government's legitimacy. Flaws in the recent Presidential 
election further undermined confidence in the government.
    And, of course, Taliban sanctuaries in the Afghan-Pakistan 
border area remain a major challenge to security in 
Afghanistan, although we have been making progress in 
coordinating with our Pakistani partners in addressing this 
issue.
    Meanwhile, Iran has played a mixed role in Afghanistan, 
helping with the country's development, but also providing some 
lethal support to the insurgents, albeit on a more limited 
scale than it provided to militants in Iraq.
    Our Armed Forces and civilians, and those of our NATO 
allies and ISAF partners, will therefore face tremendous 
challenges in the months ahead. As in Iraq, our troopers and 
their partners in Afghanistan will have to fight their way into 
enemy strongholds and clear enemy-controlled population 
centers. As in Iraq, the situation is likely to get harder 
before it gets easier. Violence likely will increase initially, 
particularly in the spring, as the weather improves. Moreover, 
as the Afghan Government, with international encouragement and 
assistance, moves to combat corruption and abuses of power, the 
result likely will be increased reporting on those problems, 
and greater turmoil within the government, as malign actors are 
identified and replaced.
    These factors and the seasonal nature of violence in 
Afghanistan will undoubtedly result in an increase in security 
incidents in the summer of 2010. It will be important, 
therefore, to withhold judgment on the success or failure of 
the strategy in Afghanistan until next December, as the 
President has counseled. That will be the right time to 
evaluate progress, consider the way forward, and begin 
discussing the nature and pace of the transition of security 
tasks to Afghan forces and initial reductions of United States 
forces in Afghanistan that will begin in July 2011, transitions 
and reductions that will, as the President explained, be based 
upon conditions on the ground.
    To address the challenges in Afghanistan, we have already 
implemented important changes that have improved our prospects 
for progress as General McChrystal works with the 43 ISAF 
member nations and our Afghan partners in waging a joint 
campaign. We have fundamentally restructured ISAF to create 
increased unity of effort. General McChrystal is dual-hatted as 
ISAF commander and commander of U.S. Forces-Afghanistan, giving 
him control over the operations of all United States and ISAF 
forces in that country. LTG Dave Rodriguez is commanding the 
first-ever three-star operational command in Afghanistan, which 
frees up General McChrystal to focus on strategic and coalition 
aspects of the war.
    The critically important training command has moved from 
being a United States-led coalition effort to one augmented by 
the new NATO Training Mission in Afghanistan. And its new 
commander, LTG Bill Caldwell, is setting conditions to 
accelerate the critically important expansion and improvement 
of Afghan security forces.
    United States combat forces will actively assist in the 
development of Afghan security forces by training and 
partnering directly with Afghan units at all levels, a concept 
that has been effective in Iraq, but that was only recently 
implemented in Afghanistan.
    Furthermore, we're now working, not just to secure the 
Afghan population, but also to mobilize and enable local 
citizens, engaging them in community defense initiatives so 
that they can help defend themselves against the extremist 
elements trying to establish control in various areas.
    We have also worked to improve coordination between the 
military and all other agencies of government. Wearing his U.S. 
hat, General McChrystal has worked with Ambassador Eikenberry 
and the U.S. Embassy in developing a U.S. civil-military 
campaign plan.
    Further, we have established a Joint Task Force for 
Detainee Operations, an Afghan Threat Finance Cell, an 
Information Operations Task Force, a Counternarcotics Task 
Force, and a coordination cell to oversee reconciliation and 
reintegration efforts, and each will partner with Embassy, 
USAID, and other interagency officials, as did similar elements 
in Iraq.
    U.S. forces have also established partnerships between 
battlespace owners and senior civilian representatives at 
several echelons in Regional Commands East and South, and 
launched other initiatives to improve unity of effort in the 
North and West, as well.
    General McChrystal has also transformed the way our forces 
operate. He has developed a coherent and focused campaign plan 
for the entire theater, assisted in this effort by General 
Rodriguez and by General Rodriguez's two-star French deputy.
    General McChrystal has issued new counterinsurgency 
guidance to ensure appropriate focus on the critical task of 
securing the population in order to help facilitate Afghan-led 
reintegration of reconcilables, a core objective of any 
counterinsurgency effort. And he has updated the ISAF Tactical 
Directive and taken a number of other steps to reduce civilian 
casualties without compromising the ability of our forces to 
operate.
    As we focus on the U.S. civil-military effort, we also 
recognize that we are not fighting this war alone. In addition 
to our Afghan partners, United States forces are part of an 
international coalition that includes elements from 43 
countries. Our ISAF partners have recently committed some 7,000 
additional soldiers, and more are likely to be pledged in 
advance of the international conference planned for January in 
London.
    Allied forces have been fighting skillfully and bravely, 
and taking casualties from Herat to Kabul and Mazar-e-Sharif to 
the Pakistani border. And while there are concerns that some 
partners have declared end dates for their combat 
participation, there is hope they will be able to continue to 
contribute in other roles.
    One of the most important developments over the past year 
has been the impressive determination of Pakistan's efforts 
against extremists that threaten the stability of the Pakistani 
state. And the chairman noted this earlier. Pakistani 
operations in Bajaur, Mohmand, Khyber, Swat, Buner, Lower Dir, 
and now South Waziristan have significantly degraded Pakistani 
Taliban groups. These are the largest and most successful 
operations Pakistan has conducted against internal extremists, 
and we should acknowledge the losses the Pakistani military, 
Frontier Corps, and police have sustained in the course of 
these operations.
    To be sure, these operations have not directly engaged the 
sanctuaries of the Afghan Taliban groups in Pakistan, nor those 
of some of the extremist syndicate I described earlier. 
However, the determination of Pakistan's civilian and military 
leaders to fight elements of the extremist nexus is an 
important step forward and does facilitate our efforts to 
degrade the extremist groups in the border region and to defeat 
al-Qaeda.
    In short, success in Afghanistan is, again, of enormous 
importance, and it is attainable, but achieving our objectives 
will not be easy. To paraphrase what the great Ambassador 
Crocker used to say about Iraq, everything in Afghanistan is 
hard, and it's hard all the time. Nonetheless, I do believe 
that the policy the President announced last week, and the 
additional resources being committed, will, over the next 18 
months, enable us to make important progress in several 
critical tasks: to reverse the Taliban momentum; to improve the 
security of the Afghan people; to increase the capabilities of 
Afghan security forces; to help improve Afghan governance; and 
to set conditions for the start of the reduction in United 
States combat forces in a way that does not jeopardize the 
progress that has been achieved.
    The American military has been at war or had forces 
deployed on robust contingency operations continuously since 
Saddam Hussein invaded Kuwait in August 1990. And for the past 
8 years, we have fought terrorists and insurgents in 
Afghanistan and Iraq. The All-Volunteer Force has been tested 
during this period as never before, but it has also performed 
as never before. It is, without question, the finest fighting 
force, and, in particular, the finest counterinsurgency force, 
our Nation has ever fielded. The determination, skill, 
initiative, and courage of our Soldiers, Sailors, Airmen, 
Marines, and Coast Guardsmen are awe-inspiring. So are the 
sacrifices they and their families make every day. It continues 
to be the greatest of privileges to serve with them, and with 
our civilian and coalition partners, in such important missions 
as those we are undertaking in the Central Command Area of 
Responsibility. And I want to thank you and your colleagues for 
the continued great support that you provide to our wonderful 
men and women in uniform and their civilian partners.
    Thank you very much.
    [The prepared statement of General Petraeus follows:]

        Prepared Statement of GEN David H. Petraeus, Commander,
                    U.S. Central Command, Tampa, FL

    Mr. Chairman, Senator Lugar, members of the committee, thank you 
for the opportunity to discuss the situation in Afghanistan and our 
strategy and prospects going forward in that critical theater. As you 
know, I had the honor of coming before this committee to provide my 
assessment of the situation in Iraq when I was the Commander of the 
Multi-National Force in Iraq and I appreciate this opportunity to 
discuss the way ahead in Afghanistan.
    Let me state upfront that I fully support the policy President 
Obama announced at West Point last week. Success in Afghanistan is 
necessary and attainable, but the challenges are great. The United 
States and its ISAF and Afghan partners can disrupt, dismantle, and 
defeat al-Qaeda and set conditions in Afghanistan to prevent 
reestablishment of the sanctuaries it enjoyed there prior to 9/11. And 
we can degrade the capabilities of the Afghan Taliban and other 
extremist elements while building Afghan security forces that can 
increasingly lead the fight against the Taliban, allowing international 
forces to redeploy over time. But none of this will be easy.
    Improving the capacity of the Afghan Government will also be 
difficult, as Ambassador Eikenberry forthrightly observed during the 
deliberations of the President's national security team.
    Nonetheless, while certainly different and, in some ways tougher 
than Iraq, Afghanistan is no more hopeless than Iraq was when I took 
command there in February 2007. Indeed, the level of violence and 
number of violent civilian deaths in Iraq were vastly higher than we 
have seen in Afghanistan. But, achieving progress in Afghanistan will 
be hard and the progress there likely will be slower in developing than 
was the progress achieved in Iraq. Nonetheless, as with Iraq, in 
Afghanistan, hard is not hopeless.
    As President Obama has observed, success in Afghanistan is vital 
for America's security. Reversing the Taliban's momentum is essential 
to the effort to degrade and defeat al-Qaeda. The Taliban we are 
fighting in Afghanistan today is the same organization that sheltered 
and supported Osama bin Laden and al-Qaeda as they planned the 9/11 
attacks. The relationship between these groups remains strong. As 
Secretary Gates observed last week, ``the Taliban and al-Qaeda have 
become symbiotic, each benefiting from the success and mythology of the 
other.''
    The Afghan Taliban are, to be sure, distinct from the Pakistani 
Taliban and their partner groups, which also have close relations with 
al-Qaeda. The Pakistani Taliban are part of a syndicate of extremist 
groups that includes Lashkar-e-Tayyiba--the group that carried out the 
Mumbai attacks--and the Haqqani network, among others. That syndicate 
threatens the stability of Pakistan and, indeed, the entire 
subcontinent. Although most Taliban fighters confronting our forces are 
local Afghans motivated by local circumstances, the Afghan Taliban 
leadership is organized, is ideologically motivated, and has become a 
beacon and symbol for other dangerous extremist elements. As Secretary 
Gates noted, ``Defeating al-Qaeda and enhancing Afghan security are 
mutually reinforcing missions. They cannot be untethered from one 
another, as much as we might wish that to be the case.''
    Achieving our objectives in Afghanistan thus will not be easy. The 
Taliban has, in recent years, been gaining strength and expanding the 
extent of its control of parts of Afghanistan. It is important to 
remember nevertheless that the Taliban commands significantly less 
support among Pashtuns than either Sunni or Shiite extremists groups in 
Iraq had in 2007, and it commands virtually no support among 
Afghanistan's other ethnic groups.
    Beyond that, corruption within the Afghan Government--particularly 
the serious abuse of power by some individual leaders and their 
associates--has eroded the government's legitimacy. Flaws in the recent 
Presidential election further undermined confidence in the government. 
Taliban sanctuaries in the Afghan-Pakistan border area remain a major 
challenge to security in Afghanistan, although we have been making 
progress in coordinating with our Pakistani partners in addressing this 
issue.
    Meanwhile, Iran has played a mixed role in Afghanistan, helping 
with the country's development but also providing some lethal support 
to the insurgents, albeit on a more limited scale than it provided to 
militants in Iraq.
    Our Armed Forces and civilians--and those of our NATO allies and 
ISAF partners--will therefore face tremendous challenges in the months 
ahead. As in Iraq, our troopers and their partners in Afghanistan will 
have to fight their way into enemy strongholds and clear enemy-
controlled population centers. As in Iraq, the situation is likely to 
get harder before it gets easier. Violence likely will increase 
initially, particularly in the spring as the weather improves. 
Moreover, as the Afghan Government, with international encouragement 
and assistance, moves to combat corruption and abuses of power, the 
result likely will be increased reporting on those problems and greater 
turmoil within the government as malign actors are identified and 
replaced. These factors and the seasonal nature of violence in 
Afghanistan, will undoubtedly result in an increase in security 
incidents in the summer of 2010. It will be important, therefore, to 
withhold judgment on the success or failure of the strategy in 
Afghanistan until next December, as the President has counseled. That 
will be the right time to evaluate progress, consider the way forward, 
and begin discussing the nature and pace of the transition of security 
tasks to Afghan forces and initial reductions of U.S. forces in 
Afghanistan that will begin in July 2011--transitions and reductions 
that will, as the President explained, be based upon the conditions on 
the ground.
    To address the challenges in Afghanistan, we have already 
implemented important changes that have improved our prospects for 
progress as General McChrystal works with the 43 ISAF member nations 
and our Afghan partners in waging our joint campaign. We have 
fundamentally restructured ISAF to create increased unity-of-effort.
    General McChrystal is dual-hatted as ISAF commander and commander 
of U.S. Forces-Afghanistan, giving him control over the operations of 
all U.S. and ISAF forces in Afghanistan. LTG Dave Rodriguez is 
commanding the first-ever 3-star operational command in Afghanistan, 
which frees up General McChrystal to focus on strategic and coalition 
aspects of the war. The critically important training command has moved 
from being a U.S.-led coalition effort to one augmented by the new NATO 
Training Mission in Afghanistan. And its new commander, LTG Bill 
Caldwell, is setting conditions to accelerate the critically important 
expansion and improvement of Afghan security forces. U.S. combat forces 
will actively assist in the development of Afghan security forces by 
training and partnering directly with Afghan units at all levels, a 
concept that has been effective in Iraq but was only recently 
implemented in Afghanistan. Furthermore, we're working not just to 
secure the Afghan population but also to mobilize and enable local 
citizens--engaging them in community defense initiatives so that they 
can help defend themselves against the extremist elements trying to 
establish control in various areas.
    We have also worked to improve coordination between the military 
and all other agencies of government. Wearing his U.S. hat, General 
McChrystal has worked with Ambassador Eikenberry and the U.S. Embassy 
in developing a U.S. civil-military campaign plan. Further, we have 
established a Joint Task Force for Detainee operations, an Afghan 
Threat Finance Cell, an Information Operations Task Force, and a 
coordination cell to oversee reconciliation and reintegration efforts--
and each will partner with Embassy, USAID, and other interagency 
officials, as did similar elements in Iraq. U.S. forces have also 
established partnerships between battlespace owners and senior civilian 
representatives at several echelons in Regional Commands East and 
South, and launched other initiatives to improve unity of effort in the 
north and west, as well.
    General McChrystal has also transformed the way our forces operate. 
He has developed a coherent and focused campaign plan for the entire 
theater, assisted in this effort by LTG Rodriguez and General 
Rodriguez's two-star French deputy. General McChrystal has issued new 
counterinsurgency guidance to ensure appropriate focus on the critical 
task of securing the population in order to help facilitate Afghan-led 
reintegration of reconcilables--a core objective of any 
counterinsurgency effort. And he has updated the ISAF Tactical 
Directive and taken a number of other steps to reduce civilian 
casualties without compromising the ability of our forces to operate.
    As we focus on the U.S. civil-military effort, we must also 
remember that we are not fighting this war alone. In addition to our 
Afghan partners, U.S. forces are part of an international coalition 
that includes elements from 43 countries. Our ISAF partners have 
recently committed some 7,000 additional soldiers and more are likely 
to be pledged in advance of the international conference planned for 
January 28 in London. Allied forces have been fighting skillfully and 
bravely--and taking casualties--from Herat to Kabul and Mazar-e Sharif 
to the Pakistan border. And while there are concerns that some partners 
have declared end-dates for their combat participation, there is hope 
they will be able to continue to contribute in other roles.
    One of the most important developments over the past year has been 
the impressive determination of Pakistan's efforts against extremists 
that threaten the stability of the Pakistani state. Pakistani 
operations in Bajaur, Mohmand, Khyber, Swat, Buner, Lower Dir, and now 
South Waziristan have significantly degraded Pakistani Taliban groups. 
These are the largest and most successful operations Pakistan has 
conducted against internal extremists--and we should recognize the 
losses the Pakistani military, Frontier Corps, and police have 
sustained in the course of these operations.
    To be sure, these operations have not directly engaged the 
sanctuaries of the Afghan Taliban groups in Pakistan, nor those of some 
of the extremist syndicate I described earlier; however, the 
determination of Pakistan's civilian and military leaders to fight 
elements of the extremist nexus is an important step forward, and does 
facilitate our efforts to degrade the extremist groups in the border 
region and to defeat al-Qaeda.
    In short, success in Afghanistan is, again, of enormous importance 
and it is attainable, but achieving our objectives will not be easy. To 
paraphrase what the great Ambassador Crocker used to say about Iraq, 
everything in Afghanistan is hard, and it's hard all the time. 
Nonetheless, I do believe that the policy the President announced last 
week and the additional resources being committed will, over the next 
18 months, enable us to make important progress in several critical 
areas: To reverse the Taliban momentum; to improve the security of the 
Afghan people; to increase the capabilities of the Afghan security 
forces; to help improve Afghan governance; and to set conditions for 
the start of the reduction in U.S. combat forces in a way that does not 
jeopardize the progress that has been achieved.
    The American military has been at war or had forces deployed on 
robust contingency operations continuously since Saddam Hussein invaded 
Kuwait in August 1990. And for the past 8 years, we have fought 
terrorists and insurgents in Afghanistan and Iraq. The All-Volunteer 
Force has been tested during this period as never before. But, it has 
also performed as never before. It is, without question, the finest 
fighting force and, in particular, the finest counterinsurgency force, 
our Nation has ever fielded. The determination, skill, initiative, and 
courage of our Soldiers, Sailors, Airmen, Marines, and Coast Guardsmen 
are awe-inspiring. So are the sacrifices they and their families make 
every day. It continues to be the greatest of privileges to serve with 
them--and with our civilian and coalition partners--in such important 
missions as those we are undertaking in the Central Command Area of 
Responsibility. And I want to thank you and your colleagues for the 
continued great support that you provide to our wonderful men and women 
in uniform and their civilian partners.

    The Chairman. Thank you very much, General.
    Mr. Ambassador.

 STATEMENT OF HON. KARL EIKENBERRY, AMBASSADOR TO AFGHANISTAN, 
            DEPARTMENT OF STATE, KABUL, AFGHANISTAN

    Ambassador Eikenberry. Chairman Kerry, Senator Lugar, 
distinguished members of the committee, thank you for the 
opportunity to present my views on Afghanistan today.
    I'd like to ask that my full statement be submitted for the 
record.
    The Chairman. Without objection, it will be.
    Ambassador Eikenberry. Last week, in his speech at the 
United States Military Academy at West Point, President Obama 
presented the administration's strategy for Afghanistan and 
Pakistan. His decision came after an intensive, deliberative, 
and a far-reaching review. I'm honored to have been part of 
that process.
    I believe the course the President outlined offers the best 
path to stabilize Afghanistan and to ensure al-Qaeda cannot 
regain a foothold to plan new attacks against us. I can say, 
without equivocation, that I fully support this approach.
    I consider myself privileged to serve as a United States 
Ambassador and to represent an amazing team of diplomats, 
development specialists, and civilian experts who form the most 
capable and dedicated United States Embassy anywhere in the 
world today. I'm extraordinarily proud of them.
    I'm also honored to testify alongside my very close 
professional colleague, Deputy Secretary of State Jack Lew, as 
well as my old friend, GEN David Petraeus. Yesterday, I also 
had the honor of testifying with GEN Stan McChrystal, my 
professional colleague and friend of many years. And I want to 
say from the outset that General McChrystal and I are united in 
a joint effort, where civilian and military personnel work 
together every day side by side with our Afghan partners and 
our allies. And we could not accomplish our objectives without 
this kind of cooperation.
    As you know, Mr. Chairman, the United States is at a 
critical juncture in our involvement in Afghanistan. On 
December the 1st, the President ordered 30,000 additional 
troops to deploy to Afghanistan on an accelerated timetable, 
with the goal of breaking the insurgency's momentum, hastening 
and improving the training of the Afghan National Security 
Forces, and establishing security in key parts of the country.
    On the civilian side, we aim to increase employment and 
provide essential services in areas of greatest insecurity 
while improving critical ministries and the economy at the 
national level. These steps, taken together, we believe will 
help remove the insurgents from the battlefield and build 
support for the Afghan Government.
    As the President said, we will be clear about what we 
expect from those who receive our assistance. After a difficult 
election, the Afghan Government does show signs of recognizing 
the need to deliver better service, governance, and security. 
We await urgent, concrete steps, though, in a number of areas.
    We'd like to briefly discuss the three main pillars of our 
effort in Afghanistan: security, governance, and development.
    In his testimony yesterday, General McChrystal addressed 
our plans for improving security and building the Afghan 
National Security Forces. And since assuming my post, I've made 
a special point of getting outside of Kabul to see conditions 
firsthand, and I fully concur with General McChrystal's 
assessment that the security situation remains serious. Sending 
additional United States and NATO/ISAF forces to Afghanistan is 
critical to regaining the initiative, and I'm confident that, 
as these troops arrive, the situation will stabilize and will 
turn in our favor. Additional troops will also permit us to 
expand our work with the Afghan army and the police so that 
they can take a larger role in providing for the security of 
their own people. As President Obama said, the transition to 
Afghan responsibility will begin in the summer of 2011, when we 
expect Afghan security forces to assume lead responsibility for 
defending their country.
    Moving on from security, the second pillar of our 
comprehensive strategy focuses on governance at the national 
and the subnational levels. Our overarching goal is to 
encourage improved governance so Afghans see the benefit of 
supporting the legitimate government and the insurgency loses 
support.
    As General McChrystal has pointed out, one of the major 
impediments our strategy faces is the Afghan Government's lack 
of credibility with its own people. To strengthen its 
legitimacy, our approach at the national level is on improving 
key ministries by increasing the number of civilian technical 
advisers and providing more development assistance directly 
through these ministries' budgets. By focusing on ministries 
that deliver essential services and security, we can accelerate 
the building of the Afghan Government so that it is 
sufficiently visible, effective, and accountable.
    At the provincial and in the district level, we're working 
jointly with the military through our Provincial Reconstruction 
Teams, District Development Working Groups, and District 
Support Teams, which help build Afghan capacity, particularly 
in the areas of greatest insecurity, in southern and in eastern 
Afghanistan.
    Underpinning all efforts is the need to combat corruption 
and promote the rule of law. With our assistance, the Afghan 
Government is steadily building law enforcement institutions to 
fight corruption, organized crime, and drug trafficking. In his 
inaugural address, President Karzai stated his intention to 
make merit-based appointments in his new Cabinet and to 
implement an anticorruption strategy, and we're encouraged by 
his statements.
    The cultivation of poppy and trafficking in opium also 
continue to have a very debilitating effect on Afghan society. 
Our strategy is multipronged, involving demand reduction, 
efforts by law enforcement agencies and the military to detain 
traffickers and interdict drug shipments, and support for licit 
agricultural development.
    The narcotics problem, of course, will never have a 
solution without economic development. And this leads to the 
third pillar of our effort, which is development. In recent 
months, we've adjusted our approach to focus on building key 
elements of Afghanistan's private sector economy, increasing 
our emphasis on agriculture, enhancing government revenue 
collection, and improving the coordination of assistance within 
the United States Government and the international community. 
And these steps were taken to produce improvements in the lives 
of ordinary Afghans and to contribute directly to more 
effective government and lessened support for the insurgency.
    Rebuilding the farm sector, in particular, is essential for 
the Afghan Government to reduce the pool of unemployed men, who 
form the recruiting base for extremist groups. We estimate that 
some 80 percent of the Afghan population derives their income 
either directly or indirectly from agriculture.
    And, Mr. Chairman, I want to emphasize, we're concentrating 
on what is essential and attainable. The President's strategy 
is based upon a pragmatic assessment of the security interests 
of the United States of America and our belief that 
sustainable, representative governance and a sustainable 
economy are essential to success. We do need a viable Afghan 
Government so our forces can drawdown and the investment of 
United States taxpayer dollars can be reduced.
    In closing, I'd like to mention two important risks that we 
face in carrying out our strategy. The first is that, in spite 
of everything we do, Afghanistan may struggle to take over the 
essential task of governance and security on a timely basis. 
The second is our partnership with Pakistan.
    The effort we're undertaking in Afghanistan is likely to 
fall short of our strategic goals unless there is more progress 
at eliminating sanctuaries used by the Afghan Taliban and their 
associates inside of Pakistan.
    If the main elements of the President's plan are executed, 
and if our Afghan partners and our allies do their part, I'm 
confident we can achieve our strategic objectives. I say this 
with conviction, because, for the first time in my three tours 
of duty in Afghanistan, all elements of our national power are 
employed with the full support of the President, and, 
increasingly, of our allies.
    Achieving our goals in Afghanistan will not be easy, but 
I'm optimistic that we can succeed, with the support of 
Congress. Our mission was underresourced for many years, but it 
is now one of our government's highest priorities, with 
substantial development funds and hundreds more civilian 
personnel available. We will soon have increased our civilian 
presence in Kabul threefold, and in the field, sixfold, just 
over this past year. We will, of course, need more.
    U.S. foreign assistance is also comparatively small, but an 
essential fraction of the total spent in Afghanistan over the 
past 8 years. Additional resources will be necessary, and we 
look forward to sharing more details on our anticipated need, 
with Congress in the coming days and weeks.
    Mr. Chairman, Afghanistan represents a daunting challenge. 
Success is not guaranteed, but it is possible. With the 
additional troops and the other resources provided by the 
President and with the help of the United States Congress, we 
will work tirelessly to ensure al-Qaeda never again finds 
refuge in Afghanistan and threatens our country.
    Mr. Chairman, thank you. We look forward to your questions.
    [The prepared statement of Ambassador Eikenberry follows:]

Prepared Statement of Hon. Karl Eikenberry, Ambassador to Afghanistan, 
                Department of State, Kabul, Afghanistan

                              introduction
     Chairman Kerry, Senator Lugar, and distinguished members of the 
committee, thank you for the opportunity to present my views on 
Afghanistan today. Last week, in his speech at West Point, President 
Obama presented the administration's strategy for Afghanistan and 
Pakistan. His decision came after an intensive, deliberate and far-
reaching review of conditions, risks and options available. The course 
he outlined offers the best path to stabilize Afghanistan and to ensure 
al-Qaeda and other terrorist groups cannot regain a foothold to plan 
new attacks against our country or our allies. I fully support this 
approach. It has been welcomed by the Afghan Government, which said it 
will spare no effort to achieve the strategy's key objectives. I hope 
it will be welcomed here in Congress.
    I consider myself privileged to serve in Kabul and to represent an 
extraordinary team of diplomats, development specialists and civilian 
experts from many fields and multiple agencies who form the most 
capable and dedicated U.S. mission anywhere. Our civilian presence will 
have tripled by early 2010 and, with the support of the Congress, we 
anticipate it will expand further next year. More important than the 
numbers of people are the skills that these men and women possess, and 
their willingness to work tirelessly under the most difficult 
conditions. Many of them are out in the field with our military at the 
forefront of our Nation's effort to stabilize Afghanistan and the 
region. I am extraordinarily proud of them.
    I am honored to testify today alongside my close professional 
colleague, Deputy Secretary of State Jack Lew, and my old friend, GEN 
David Petraeus. Yesterday, I also had the honor of testifying with GEN 
Stan McChrystal, my professional colleague and friend of many years, to 
describe how we will carry out the President's strategy for 
Afghanistan. My testimony today will focus on the civilian role in that 
strategy, but I want to underscore at the outset that General 
McChrystal and I are united in a joint effort in which civilian and 
military personnel work together every day, often literally side by 
side with our Afghan partners and allies. We could not accomplish our 
objectives without such a combined effort, and I am proud that we have 
forged a close working relationship at the top and throughout our 
organizations, one that will deepen in coming months as additional 
troops and civilians arrive.
    Our Nation is at a critical juncture in our involvement in 
Afghanistan, and my testimony today represents my assessment of the 
situation and prospects for achieving our goals.
    A mission that in past years was poorly defined and underresourced 
is now clear and, thanks to the Congress, better resourced. As you 
know, the President on December 1 authorized 30,000 additional troops 
to deploy to Afghanistan on an accelerated timetable, with the goal of 
breaking the insurgency's momentum, hastening and improving the 
training of Afghan National Security Forces (ANSF), and restoring 
security in key areas of the country. I joined Secretary Clinton and 
General McChrystal in Brussels last week to present the 
administration's decisions to the allies, and we anticipate our troops 
will be joined by a substantial increase of other NATO/ISAF forces. Our 
military effort and civilian assistance will be closely coordinated. On 
the civilian side, we aim to increase employment and provide essential 
services in areas of greatest insecurity, and to improve critical 
ministries and the economy at the national level. These steps will, I 
believe, help to remove insurgents from the battlefield and build 
support for the Afghan Government.
    As the President said, ``we will be clear about what we expect from 
those who receive our assistance.'' We expect the Afghan Government to 
take specific actions in the key areas of security, governance, and 
economic development on an urgent basis. In the eighth year of our 
involvement, Afghans must progressively take greater responsibility for 
their own affairs. As we reduce our combat role, we will be 
transforming our diplomatic, security, and economic relations to 
reflect a more fully sovereign Afghanistan.
    I firmly believe these adjustments to our course provide the best 
possible chance of achieving success on a reasonable timetable, but I 
will also give you my honest appraisal of the challenges as I see them.
    No way forward is without risk. Eight years after the terrorist 
attacks of September 11 and the removal of the Taliban from power, 
Afghanistan remains a disconnected society, divided by factionalism, 
plagued by corruption and illegal narcotics, and challenged by 
insecurity. These problems are in large measure the product of nearly 
three decades of war, which broke down the fabric of Afghanistan's 
centuries-old society and contributed to deep poverty, illiteracy, drug 
addiction, and unemployment. This has been compounded in recent years 
by a growing disillusionment among Afghans, both with their own 
government and with the uneven results of the assistance delivered by 
the international community. The United States must approach the 
daunting complexities of Afghanistan with an awareness of our 
limitations. Our forces and our civilians are trying to help a society 
that simultaneously wants and rejects outside intervention. Afghans 
yearn for the peace and stability that has been denied them for too 
long. We will not fully heal their society's deep-seated problems, but 
we can help them along a path to normalcy and stability that is key to 
protecting our own vital interests. We are, simply put, helping 
Afghanistan build security forces and other basic institutions of 
government to prevent a return to the conditions that it endured before 
September 11, 2001.
    Let me mention two challenges we face. The first is that, in spite 
of everything we do, Afghanistan may struggle to take over the 
essential tasks of governance; the second is our partnership with 
Pakistan, which the President has stated is inextricably linked to our 
success in Afghanistan. Though these risks cannot be discounted, if the 
main elements of the President's plan are executed, and if our Afghan 
partners and our allies do their part, I am confident we can achieve 
our strategic objectives.
    I say this with conviction, because for the first time in my three 
tours in Afghanistan--two while in uniform and now as Ambassador--all 
the elements of our national power are employed with the full support 
of the President and, increasingly, of our allies. We have made great 
strides over the last 6 months in improving interagency coordination 
and civil-military collaboration. Our military and civilian teams on 
the ground are the best ever fielded. More important, after a difficult 
election, the Afghan Government shows signs of recognizing the need to 
deliver better governance and security, though we await concrete steps 
in many areas.
    Achieving our objectives on an accelerated timetable will almost 
certainly take additional resources--more troops, but also more 
development aid and additional civilian personnel to assist the Afghan 
Government and people, so they can assume control of their own affairs. 
The administration will be working with Congress in coming days and 
weeks to define our request.
    I would like to now discuss the three main pillars of our effort in 
Afghanistan--security, governance, and development--and then say a few 
words about the organization of our mission and about the wider region.

                                SECURITY

    In his testimony yesterday, General McChrystal addressed our plans 
for improving security and building the Afghan National Security 
Forces. The civilian role in this effort at the local level is to 
partner with the military and with the Afghan Government in restoring 
basic services and economic opportunity in cleared areas. I will return 
to this partnership and our role in it shortly. First, though, let me 
give you my perspective as Ambassador on the security situation.
    Since assuming my post in May, I have made a special point of 
getting outside Kabul as frequently as possible to see conditions 
around the country firsthand and to consult with Afghans, allies, and 
our own civilian and military personnel. I fully concur with General 
McChrystal's assessment that the security situation, which worsened 
dramatically this past year, remains serious. The Taliban and other 
extremists groups exercise increasing influence in many areas of the 
south and east, and attacks and instability are rising in parts of the 
north and west as well, which long have been relatively stable. The 
insurgents are loosely organized, yet resilient and effective in many 
areas.
    Augmenting U.S. and NATO/ISAF forces is critical to regain the 
initiative. I am confident that, as the additional U.S. troops arrive 
in coming months, the situation will stabilize and turn in our favor. 
Most Afghans have little interest in a future under the Taliban's 
brutal and arbitrary rule, and the troops now deploying will reassure 
them that they have the opportunity for a secure and better future. Our 
troops will serve as a bridge, improving security in key areas, just as 
the Marine and Army units sent earlier this year are doing with great 
skill in Helmand and Kandahar provinces.
    Additional troops will also permit us to expand our partnering 
with, and training of, the Afghan army and police, so they can take on 
a progressively larger role in providing security. We all recognize the 
extraordinary challenges of building competent security forces. 
Afghanistan has not had a national army recruited from all ethnic 
groups and regions for many years, and low literacy, high attrition, 
and the lack of resources and expertise pose continuing problems. 
However, our forces are highly skilled at this training and partnering 
mission, which they have performed ably under the most difficult 
circumstances in Iraq as well as in Afghanistan. I am confident that 
deployment of additional U.S. troops will yield improvements in the 
ANSF.
    On the civilian side, we are supporting our military's efforts. Our 
Drug Enforcement Administration provides specialized training to the 
Afghan Counternarcotics Police. Our Federal Bureau of Investigation 
assists the Afghan Ministry of Interior in improving law enforcement 
capabilities. And, lastly, our Border Management Task Force, which 
includes U.S. Central Command, the Department of Homeland Security, and 
its Customs and Border Protection Agency, assists both the Afghan 
Border Police and the Customs Department.
    As part of assuming the sovereign responsibility of protecting its 
people, the Afghan Government must build the ministerial capacity to 
recruit, train, and sustain the army and police, so that when our 
support begins to diminish Afghan forces are capable of protecting the 
country on their own. Simply put, the Afghan army and police need the 
full commitment of their political leadership. As President Obama said, 
the transition to Afghan responsibility will begin in the summer of 
2011, when we expect Afghan security forces and the entire Afghan 
Government can begin assuming lead responsibility for defending their 
country.
    We should recognize that one reason Afghanistan has been slow to 
assume a larger role in providing for its own security is the 
widespread concern among the populace that it will be abandoned by the 
international community, as happened after the withdrawal of the Soviet 
Union in 1989. For more than a decade afterward, Afghanistan endured 
brutal civil war, anarchy and later, the repressive Taliban regime that 
harbored and enabled al-Qaeda. The fear of once again having to fend 
for itself again is deeply felt in the country, which lies in a 
volatile region where many of its neighbors have competed to control 
events inside Afghan borders.
    While the United States does not intend to continue our high level 
of deployed forces indefinitely, we are fully committed to assisting 
Afghanistan. To give Afghans confidence that they will not be abandoned 
again, the United States is committed to engaging in a strategic 
dialogue to define our long-term relationship on the basis of shared 
interests and values, just as we do with other nations. We will 
continue to assist and advise the ANSF to ensure they succeed over the 
long term. Though our relations are today dominated by questions about 
security, we have no territorial ambitions and do not seek permanent 
military bases. Afghans should be confident the United States is a 
trustworthy friend on whom they can rely after our combat forces begin 
to go home. Afghanistan's place in Central and South Asia must be 
secure.

                               GOVERNANCE

    The second pillar of our comprehensive strategy focuses on 
improving Afghan governance. I would like to describe the civilian role 
in this effort, first at the national level and then in the provinces 
and districts. At both levels, our overarching goal is to encourage 
good governance, free from corruption, so Afghans see the benefits of 
supporting the legitimate government, and the insurgency loses support.
    As General McChrystal points out, one of the major impediments our 
strategy faces is the Afghan Government's lack of credibility with its 
own people. To build its legitimacy, our approach at the national level 
is on improving key ministries, both by increasing the number of 
civilian technical advisers and by providing more development 
assistance directly through these ministries' budgets. By focusing on 
key ministries that deliver essential services and security, we can 
accelerate the building of an Afghan Government that is visible, 
effective, and accountable.
    We must support the government's ability to deliver for the Afghan 
people. Afghan ministers say that too much of the development 
assistance provided is spent outside their national budget, often on 
programs that are not their priorities. We agree, and as part of the 
President's new emphasis we are committed to providing more direct 
assistance. We are reviewing the financial management systems of these 
key ministries and, if their financial system can be certified as 
accountable and transparent, we provide direct funding to be used for 
basic services, such as health, education, and agriculture. Similarly, 
to extend the government's reach around the country, Afghanistan needs 
educated, trained, and honest civil servants. To accomplish this, the 
United States and international partners will train current government 
employees in public administration and help build a pool of 
administrators and technical managers.
    Cutting across this entire effort to improve Afghans' confidence in 
their government is the need to combat corruption and promote the rule 
of law. Without institutions that serve the needs of ordinary Afghans 
and government officials who are accountable and honest, Afghanistan 
will always be in danger of returning to the conditions that made it a 
haven for violent extremists.
    With our assistance and that of our allies, the Afghan Government 
is steadily building law enforcement institutions to fight corruption, 
organized crime, and drug trafficking. With the support of the FBI, the 
DEA, and our military, the Ministries of Interior and Counter 
Narcotics, and the Afghan National Directorate of Security recently 
created the Major Crimes Task Force, which is responsible for 
investigating major corruption, kidnapping, and organized crimes cases. 
Similarly, Afghanistan's Attorney General recently established a 
special Anti-Corruption Unit, aimed at prosecuting misconduct by mid- 
and high-level government officials. In addition, a specialized Anti-
Corruption Tribunal is being created to handle significant corruption 
cases, including prosecutions involving provincial officials. Our 
mission's Department of Justice team is also providing support.
    In his inaugural address, President Karzai stated his intention to 
make merit-based appointments in his new Cabinet and to implement an 
anticorruption strategy, including by expanding the powers of the 
existing High Office of Oversight. We are encouraged by his statements, 
but we need to work together to aggressively implement this goal and 
produce results. In addition to his Cabinet, it is important that 
qualified appointments are made at the vice minister, provincial, and 
district levels, which would give the Afghan Government greater 
credibility with its people and permit more rapid reforms. Secretary 
Clinton last month discussed with President Karzai the necessity of 
moving swiftly to develop concrete plans to implement this agenda to 
improve government accountability and performance.
    Beyond the national level, I would like to address our efforts to 
promote governance at the provincial and district levels. We are 
working jointly with the military through our Provincial Reconstruction 
Teams, District Development Working Groups, and District Support Teams, 
which help build Afghan capacity in key areas, particularly in areas of 
greatest insecurity in southern and eastern Afghanistan. We are 
improving governance beyond Kabul through rule-of-law programs and 
other mechanisms that have proven effective in giving Afghans a greater 
stake in their government, including through the National Solidarity 
Program. We have expanded our support for the Afghan Social Outreach 
Program to create provincial and district councils and build citizen 
involvement. We are working with the Afghan Government to provide 
incentives for subnational leaders to improve performance. I would like 
to emphasize that we are concentrating on what is essential and 
attainable. In all of these efforts, we must not wait too long to 
create an Afghan autonomous capability, or we risk building a 
dependency that will be that much harder to break.
    Some might argue that we are reaching too high--that Afghanistan 
has rarely in its history had a central government capable of carrying 
out these tasks and that to expect a coherent state to emerge now is 
unrealistic and a waste of resources. I disagree with that argument on 
several levels. First, while the Afghan state has never been 
particularly strong, Afghanistan has had functioning governments in 
Kabul that were widely viewed as legitimate. Second, the government 
structure we are helping to develop is one with the minimum set of 
capabilities that any state must possess to serve its people.
    Our goal is not nation-building, nor are we attempting to impose a 
Western model of governance. Afghanistan is a poor country that will 
remain dependent on international aid for years to come. This strategy 
for improving governance is based on a pragmatic assessment of the 
national security interests of the United States, and our belief that 
sustainable representative government is essential to success. 
Afghanistan needs a viable government so our forces can drawdown and 
the investment of U.S. taxpayer dollars can be reduced. Achieving those 
goals will prevent the need for the United States and its allies to 
intervene to protect ourselves from extremists who, unless we succeed, 
might once again find refuge in Afghanistan.
    The cultivation of poppy and the trafficking in opium without a 
doubt has the most debilitating effect on Afghan society, feeding 
corruption and undermining the legal economy, while generating funds 
for the insurgency. Our strategy for combating the pervasive impact of 
illegal narcotics is multipronged, involving demand reduction, efforts 
by law enforcement and the military to detain major traffickers and 
interdict drug shipments, and support for licit agricultural 
development. The U.S. Drug Enforcement Administration works closely 
with Afghan partners to investigate and prosecute major traffickers. 
With our support, the Counter-Narcotics Justice Task Force has become 
the most effective judicial organization in Afghanistan today, with 
successful investigations, prosecutions, and convictions of hundreds of 
drug traffickers. But the narcotics problem will never have a 
satisfactory solution without economic development in this still 
desperately poor country.

                              DEVELOPMENT

    Along with security and governance, the third pillar of our effort 
is development assistance. In recent months, we have adjusted our 
approach to focus on building key elements of Afghanistan's private-
sector economy, increasing our emphasis on agriculture, enhancing 
government revenue collection, and improving the coordination of 
assistance delivery within the U.S. Government and across the 
international community. These refinements are designed to produce 
measurable improvements in the lives of ordinary Afghans--and thus to 
contribute directly to more effective government and to lessened 
support for the insurgency.
    We are targeting much of our assistance where violence is worst and 
shifting to more flexible and faster contract and grant mechanisms, to 
ensure our dollars are effectively supporting our efforts in the 
provinces. Development specialists at USAID, joined by experts from 
multiple departments and agencies of our government, are focusing on 
key sectors, such as agriculture. Rebuilding the farm sector is 
essential for the Afghan Government to reduce the pool of unemployed 
men who form the recruiting base for extremist groups. We estimate that 
at least 80 percent of the Afghan population derives their income, 
either directly or indirectly, from agriculture. Our agriculture 
efforts also seek to reinforce our governance strategy, so that the 
Agriculture Ministry will increasingly be--and be seen as--a tangible 
example of a more effective government.
    At the same time, we are encouraging long-term investment, 
specifically by funding water management and electrification projects 
that deliver power and large-scale irrigation, and we promote mining 
and light industry that leverage Afghanistan's agricultural products 
and natural resources.
    We are also helping Afghanistan's Government increase revenue 
collection. Without improvements in its ability to collect taxes and 
customs receipts, Afghanistan will always remain overly dependent on 
the international community and will struggle to meet the needs of its 
people. The Afghan Government has made progress in recent years in 
increasing domestic revenue collection, which has risen from 3.3 
percent of gross domestic product to 7.7 percent. That is still too 
low. Most low-income countries collect 11 to 12 percent of their GDP on 
average, and we and our other partners are working with the Ministry of 
Finance on reforms that will further increase revenue. The biggest 
problem remains corruption, however. The current rough estimate is that 
only half of the revenue collected actually makes it into the treasury. 
Low domestic revenue undermines the Afghan Government's ability to 
provide services, while graft and bribery diminishes confidence in, and 
support for, the government. Representatives from the U.S. Treasury 
Department are working with the Afghan Finance Ministry and other 
essential ministries to build fiduciary systems that will permit us to 
provide them more direct funding.
    Additionally, our Department of State and Commerce experts are 
assisting the Afghans to promote regional trade to help their economy. 
We expect that Afghanistan and Pakistan will shortly conclude a Transit 
Trade Agreement that will open new opportunities for commerce between 
the two countries. Finally, we also seek congressional support to soon 
pass Reconstruction Opportunity Zone (ROZ) legislation to create long-
term and sustainable employment opportunities. Improving official 
commercial and trade relations will also contribute to an improved 
Afghanistan-Pakistan security relationship.

                          OUR CIVILIAN EFFORT

    Achieving our goals for Afghanistan will not be easy, but I am 
optimistic that we can succeed with the support of the Congress. 
Underresourced for years, our mission is now one of our government's 
highest priorities, with substantial additional development funds and 
hundreds of additional personnel. By early 2010, we will have almost 
1,000 civilians from numerous government departments and agencies on 
the ground in Afghanistan, tripling the total from the beginning of 
2009. Of these, nearly 400 will serve out in the field with the 
military at Provincial Reconstruction Teams or at the brigade-level and 
on forward operating bases. By comparison, one year ago there were only 
67 U.S. civilians serving outside Kabul. The hundreds of dedicated 
Americans who have taken on this assignment voluntarily accept hardship 
and risk and deserve our recognition and appreciation for the exemplary 
work they are performing under very difficult conditions. They are an 
extraordinarily skilled group, chosen because they have the proper 
skills and experience to achieve the results we seek.
    In coming months, as our troops conduct operations to stabilize new 
areas, they will be joined by additional civilian personnel to work 
with our Afghan partners to strengthen governance and provide basic 
services as rapidly as possible. The integration of civilian and 
military effort has greatly improved over the last year, a process that 
will deepen as additional troops arrive and our civilian effort 
expands. We have designated Senior Civilian Representatives (SCRs) as 
counterparts to NATO/ISAF commanders in each of the Regional Commands. 
These SCRs are senior professionals, experienced in conflict 
environments. They direct the work of U.S. Government civilians within 
their regions, subject to my overall guidance. This organizational 
structure has two important features: First, it ensures that our 
civilian efforts are fully integrated with the military's in the field. 
Second, it is decentralized, enabling quick response to local needs, 
which is essential to deal with the varying conditions in Afghanistan. 
To maximize our impact in priority areas, we have created District 
Support Teams, which allow civilians in the field to collaborate with 
the military to build Afghan capacity in assigned districts.
    U.S. foreign assistance is a comparatively small but essential 
fraction of the total dollars spent in Afghanistan over the last 8 
years. Our increased civilian presence has enabled us to more 
effectively and more rapidly invest our assistance in the areas of 
agriculture, job creation, education, health care, and infrastructure 
projects. Additional resources will be necessary for our effort to keep 
pace with the military's expansion, to carry out the President's 
strategy on a rapid timetable. We look forward to sharing additional 
details on our anticipated needs with Congress in the coming days and 
weeks.
    We have also improved our contracting to enhance performance and 
increase the effectiveness of our development aid programs. In a 
conflict zone, a degree of program risk is unavoidable, but U.S. 
Government agencies in the mission remain accountable to Congress for 
every dollar they spend. Given the great amount of resources and 
emphasis devoted to Afghanistan, our programs receive extraordinary 
oversight, including by a Kabul-based Special Inspector General for 
Afghan Reconstruction, multiple audits of USAID and International 
Narcotics and Law Enforcement programs, and a hotline to report fraud, 
waste, and abuse.

                                PAKISTAN

    Finally, let me say a few words about Pakistan and the critical 
impact that developments in that country will have on our efforts over 
the next year. The expanded military and civilian effort we are 
undertaking in Afghanistan is likely to produce measurable improvements 
in security and in Afghanistan's governance capacity, but we will 
likely fall short of our strategic goals unless there is more progress 
at eliminating the sanctuaries used by Afghan Taliban and their allied 
militant extremists in Pakistan. The vast majority of enemy fighters 
our troops face on the battlefield are local Afghans, fighting in their 
home provinces or regions. But the Afghan Taliban and other insurgents 
receive significant aid and direction from senior leaders operating 
outside Afghanistan's borders. The Afghan Taliban's leadership may 
employ those sanctuaries, as they have in the past, to simply wait us 
out and renew their attacks once our troops begin to go home. 
Recognizing this, the administration has emphasized the need for a 
regional approach that deals with the interrelated problems of 
Afghanistan and Pakistan and seeks to improve relations between the two 
governments.

                               CONCLUSION

    Mr. Chairman, Afghanistan is a daunting challenge. I have tried to 
describe how our mission, as part of an integrated civil-military team, 
will pursue the President's goals and our country's interests. I have 
also given you my best assessment of the risks we face. Let me, in 
closing, once again thank the men and women of the U.S. mission in 
Afghanistan and our Armed Forces. Together with the members of other 
NATO/ISAF Armed Forces, the international community, and our Afghan 
allies, they do exemplary work on a daily basis that helps to protect 
the American people. They are prepared to work even harder to help the 
Afghan Government to stand on its own and handle the threats it faces. 
They believe firmly that our mission is necessary and achievable, and 
so do I. Success is not guaranteed, but it is possible. With the 
additional troops and other resources provided by the President--and 
with the help of Congress--we can ensure al-Qaeda never again finds 
refuge in Afghanistan and threatens our country.

    The Chairman. Thank you very much, Mr. Ambassador.
    Let me just say, to my colleagues on the committee, there's 
a balance, as everybody knows, and I've always tried to give 
everybody, the longer period of time to question, because then 
you can develop sort of a train of thought. But, we have a lot 
of members, and everybody wants to have a chance, here, and I 
think we have limited time, so I'm just going to cut it down. 
And I hate to do that. I hope everybody is agreeable to that. 
And we'll go with a 6-minute round, under the circumstances.
    General, let me thank you for your comments about the 
troops. Every one of us here, every time we go over there, we 
are struck by how extraordinary they are, the contributions 
they're making. And this time of the year, it's a tough time to 
be away from home, and our thoughts are very, very much with 
them. And we are very grateful to you and to all of the 
leadership and to all of them.
    General Petraeus. Thank you, Mr. Chairman.
    The Chairman. I mentioned Pakistan in the opening comments, 
and it seems as if, for the moment at least, this question of 
hedging the bet is very much on the table with respect to 
Pakistan's leadership. And I wonder if you could, General, and 
perhaps Jack Lew, very quickly share with us--the recent 
Pakistani military offensives have gone after the Baitullah 
Mehsud in South Waziristan, and yet we have yet to see their 
operations directed at the Afghan Taliban, the Haqqani network, 
or some of the al-Qaeda strongholds. And during that time, the 
military has continued to work with rival Taliban factions, 
including those led by Gul Bahadur and Maulvi Nazir, who are 
believed to be involved in the Afghan insurgency and linked to 
al-Qaeda and Haqqani. So, could you share with us your 
strategy, General, and what the administration's strategy is, 
Mr. Secretary, vis-a-vis the Pakistan military, how to convince 
them that we have a long-term commitment to the region, we're 
not about to leave that, and we need them to focus on these 
other networks and groups?
    General Petraeus. Well, Mr. Chairman, first of all, as we 
were discussing before the session, the developments of the 
last 10 months really are quite significant, because the 
Pakistani leadership, all the political leaders, the civilian 
populists, the clerics, and the military have all united in 
recognizing that the internal extremists represent the most 
pressing existential threat to their country, more pressing 
than the traditional threat to the east. And they have taken 
action in response to that recognition, as you noted, in the 
Malakand Division, Swat, North West Frontier Province--did 
quite good work there, I might add, as well. They did not just 
clear and leave, they have cleared, they have held onto it, 
they are working the rebuilding piece, and they're already 
looking forward to ultimate transition.
    They then have shifted; they've conducted operations in 
Mohmand, Bajaur, and Khyber against extremist elements there 
related to those in Swat, and, as you noted, gone after the 
group that was held by the late Baitullah Mehsud. That 
operation is now drawing to a close, both because of having 
achieved their objectives and winner, but they have moved 
further north and begun operations in other agencies--Kurram 
and Orakzai to go after some of those that got away.
    Now, in these operations, they are encountering, and 
actually conducting, some fighting against those that are part 
of that extremist syndicate that I described, that does do 
fighting in eastern Afghanistan, certainly not the Afghan 
Taliban, which, of course, is based down--its sanctuary is down 
in Baluchistan.
    With respect to, How do they eventually take those on? I 
think, frankly, that the effort to demonstrate a sustained 
substantial commitment to Pakistan--frankly, the Kerry-Lugar 
bill is a hugely important manifestation of the level of 
security assistance, foreign military financing, Pakistani 
Counterinsurgency Capability Fund, and so forth--also very 
important, given the history that we have with that country, 
and having left it, as you well know, a couple of times before.
    So, this is a process of building trust, building mutual 
confidence, and building a relationship in which the mutual 
threats that we face are addressed by those who are on the 
ground. And again, as I mentioned and as you mentioned, we have 
to recognize the enormous sacrifices that the Pakistani 
military, Frontier Corps, and police have made in these 
operations recently, and also the losses that their civilians 
have sustained.
    But, it's about building a partnership that can transcend 
these issues that we have had before, where we have left after 
supporting one operation or the other.
    The Chairman. Secretary Lew, as you answer it, because 
otherwise we'll run out of time, could you also tie into it the 
question of the political reforms with respect to the FATA? 
Because, as you know, in order to sustain stability out there, 
you've got to have some political reform. And fundamentally, 
the Pakistani military has been averse to changing that, 
because they've always, historically, used the region to 
promote the perceived interests in Afghanistan. And those 
relate to the perceived interests of India. So, if you could 
perhaps share with us, as you talk about how we establish the 
long-term relationship--I think there are some linkages to the 
other issue.
    Mr. Lew. Senator, I think--just to pick up where General 
Petraeus ended, the relationship between the multiyear 
commitment and Kerry-Lugar-Berman, the relationship between 
our--maintaining long-term security assistance through the FMF 
program while we ramp up counterinsurgency training, is 
critical. It's clear, this year, that we have a common interest 
in an immediate threat. The actions the Pakistani military is 
taking are in the interests of Pakistan and the United States. 
Where there is the question, Are we there for the long-term 
relationship? Our ongoing long-term security assistance speaks 
to the long-term in a way that counterinsurgency does not. So, 
it's critical that we maintain a balance there.
    In terms of the activities in the FATA and the NWFP, it's 
not just what they do in the military maneuvers that's 
important, it's, Are we with them there in the post-military 
periods to help with the reconstruction, not just the 
humanitarian assistance, but with the rebuilding? I think that 
gets to the question you're asking about the local provincial 
leadership in the territories.
    There is the capacity to work with local leaders on 
projects, for us to use the funding that we bring in, to 
rebuild, to do economic development, to support local 
decisionmaking, local institutions. And we've been having 
conversations, with the Government of Pakistan, where it's 
clear that we're going to work with the national ministries and 
with the local leadership. I think it's important that we not 
make it either/or. You know, there is a tendency to hear it in 
a--that we're ``turning off'' assistance. We're very much 
working with the national government of--the ministries--of 
Pakistan. But, what we haven't done in the past is develop 
those relationships at a deep level, at a provincial level. I 
think that it's critical that we do both as we work in the 
coming months and years.
    General Petraeus. Senator, I just wanted to directly 
address the issue of the political participation, because, as 
you know, I think, in recent months there have been some 
unprecedented steps taken to extend certain political rights 
and other rights to those who live in the Federally 
Administered Tribal Areas, rights that they've never had 
before. And I think that's an important step forward, as well.
    The Chairman. Well, I appreciate your saying that. I agree 
with that.
    Senator Lugar.
    Senator Lugar. Thank you, Mr. Chairman.
    Ambassador Eikenberry, I just have a couple of comments, 
and I'm aware the time will not permit an extensive response at 
this point. But, as you're organizing the Embassy in Kabul, 
staff of the Senate Foreign Relations Committee has observed 
that deputy ambassadors working in Afghanistan are faced with 
considerable bureaucratic obstacles, which may stem from 
Afghans, or even from ourselves. I'm hopeful that you're 
cognizant of their work and that there's a free flow of 
information to you as well as to them. Likewise, the regional 
command senior civilian representatives need to be a responsive 
partner with the regional military commanders. Our impression, 
at least of staff, is that there are currently some problems 
with this. They're not beyond working out, but these are our 
problems, and ones that we need to be aware of; as I'm sure you 
are.
    I want to take my time, though, by asking a more monumental 
question. We've had all sorts of estimates of how many members 
of the army and police force of Afghanistan, are going to be 
trained by United States personnel. What are our goals, in 
terms of the number we wish to train? And I ask this because 
press accounts of the estimated numer of those in the army who 
will be trained have ranged from 200,000 to 400,000, which 
illustrates quite a disparity.
    Second, and, General Petraeus, maybe you can give us some 
insight on this, keeping in mind an answer to my first question 
regarding an attainable goal for the number of forces we need 
to train. There are press accounts from President Karzai's 
visit with Secretary Gates this morning that President Karzai 
has said, ``We're going to need financial support in 
Afghanistan until 2024.'' I'm not certain how the President 
arrives at that time, which is 15 years away, but I am 
interested in the amount of money such a commitment would 
require from us. In other words, we appropriate money from year 
to year, and part of our goal in doing so is to have a very 
stable army and police force under the command of the Afghan 
central government. Maybe a part of the response is that the 
entire police force will not always be under the direct 
administration of the central government, but in any case, at 
some point there have to be resources in Afghanistan, either at 
the central or regional level, to pay for the wages and upkeep 
of these forces, regardless of whether a significant number of 
our troops begin to leave in 2011. It will be essential that 
the Afghans we have trained and will be paying, in large 
measure, be there to maintain these forces and uphold order.
    This isn't an area I have seen staked out in testimony or 
in the press. That being said, will you help us a little bit 
with the arithmetic, this morning, of the numbers and finance 
and longevity of that obligation?
    General Petraeus. Senators, I think, in previous testimony 
in the past week or so, what has been identified is that we 
have established goals by year, right now, for the Afghan 
National Army and the Afghan National Police. To give you a 
sense of that, the ANA, right now, is roughly 96,000 or so, and 
the goal by the end of October next year is 134,000. The ANP is 
94,000; goal by the end of October next year is 109,000.
    Now, along with that, you have heard these aspirational 
goals. I think General McChrystal, yesterday--others--have 
stated that we could envision Afghan security forces numbering 
as many as 400,000, that an army of 240,000 and a police--now, 
police includes border police and a variety of other different 
police elements, beyond just local police, but could ultimately 
be in the 160,000. Now, again, right now what we want to do is 
reach our annual goals. Certainly, there have to be some 
programmatics that run beyond that, without question. But, we 
want to, first, confirm that we can, in fact, meet those goals; 
and to do that, by the way, we have to make significant 
improvements, not just in recruiting, but also in retention, 
because the losses, in some of these cases, not just to battle 
loss--killed, wounded, AWOL and so forth--but all just--also 
just elapsed----
    Senator Lugar. And apparently also in pay----
    General Petraeus [continuing]. Time in service.
    Senator Lugar [continuing]. Pay to these people.
    General Petraeus. Well, the--and the pay has just been 
increased. And again, there is, essentially, a benefits package 
to work out how to, in fact, recruit and to retain more Afghans 
for those security forces.
    Beyond that, by the way, a shift in momentum will end up 
being the best recruiting tool of all, because when you think 
that the good guys are going to win, you want to be a good guy. 
If you have doubts about that, then you will hedge your bets or 
perhaps even tacitly support the bad guys.
    Now, there's no question, as President Karzai was 
highlighting yesterday, that Afghanistan will require 
substantial international funding for years to come, in a whole 
host of different areas, not the least of which is their 
security forces. But, I would submit that it is a lot cheaper 
to maintain a certain number of Afghan forces than it is to 
maintain the number of United States and coalition forces 
required to compensate for their absence.
    Senator Lugar. Roughly, what would 243,000 people, if 
that's what we're having this year----
    General Petraeus. Sir, I----
    Senator Lugar [continuing]. What would that cost?
    General Petraeus. Well, if you get up--if you get up to the 
400,000 range--and again, no guarantee that that's where we're 
going; that's an aspiration--but, if we end up there, that's in 
the 10--over $10 billion range per year. And that highlights 
the importance of helping Afghanistan develop and really 
exploit--Afghanistan exploit--its extraordinary mineral wealth. 
The Ambassador can probably talk to that far better than I 
could, but there is enormous potential in Afghanistan to 
dramatically increase its national revenue, but if and only if 
it can get the security and then the infrastructure that 
enables them to extract that mineral wealth and, of course, get 
it out to a market.
    Senator Lugar. Thank you very much, sir.
    The Chairman. Thank you, Senator Lugar.
    Senator Dodd.
    Senator Dodd. Thank you very much, Mr. Chairman.
    And let me welcome all three of you here this morning. I 
know you've been busy testifying and meeting with Members of 
Congress.
    And let me underscore the comment made by Chairman Kerry, 
General, again. Not only at this time of year, any time of 
year, as you point out, I--sort of set me back on my heels a 
little bit this morning when you mentioned 1990, that it's been 
that long a time that we've been asking our men and women in 
uniform to be on 24-hour watch, so to speak, in that part of 
the world. That's a long time. And all of us are deeply 
grateful to them. Whatever differences are about policy 
questions, I think the unbounded respect we have for the men 
and women in uniform, who represent our country every single 
day all over the world, needs to be conveyed as often as we 
possibly can. So, please continue to do that for us all.
    And as I think Jack Lew pointed out, this is of utmost 
importance to our national security, how we cripple al-Qaeda, 
if we can, obviously, to how we secure the nuclear arsenals in 
Pakistan, that I'd put almost on an equal footing--maybe I 
should have mentioned that first, in terms of priorities, and 
obviously dealing with violent extremism. And so, all of us up 
here have a lot of questions about this. I respect, on one 
hand, the desire to have some sort of an end-date strategy 
here, but almost--there's an inherent problem with that as you 
look at the massive difficulty in confronting the issues in 
Afghanistan, the goal of training and having the Afghan people 
assume the greatest responsibility for their own long-term 
security.
    So, I'll ask, Chairman, for a full statement of my 
comments--opening comments--to be put in the record.
    The Chairman. Absolutely.
    Senator Dodd. Let me, if I can--and I'll raise this with 
all three of you, and you decide which of the three of you is 
best able to respond to this.
    Again, the Pakistan part of this equation is most troubling 
to me in the short term, because obviously if we don't secure 
the nuclear arsenals in Pakistan, and you end up with a 
fundamental change of order, political order in that country, 
all of these efforts, of course, would seem to pale by 
comparison.
    President Zardari has been under increasing pressure from 
both the members of the military in his own country as well as 
those opposed to his close relationship with us. And the threat 
of impeachment continues to loom. I'm told that that was the 
case.
    Give us some sense, if you will here this morning--and 
maybe I ought to start with you, Ambassador--what you think the 
current political tensions of Pakistan--whether or not they 
imperil civilian rule of that country. How serious are those 
threats to President Zardari?
    Ambassador Eikenberry. Senator, if I could, let me turn it 
to Jack Lew, who's the Ambassador to Afghanistan. I'm probably 
not the best to talk on the situation inside of Pakistan.
    Mr. Lew. Let me answer briefly and then, on the, kind of, 
core security question, turn to General Petraeus.
    You know, the difficulties of maintaining a stable civilian 
government in Pakistan are not new. You know, we've been 
working with the current government to try and help build the 
institutions, not just the people, so that there's the ability 
to rely on ongoing relationships, regardless of the leadership. 
Without addressing the kind of day-to-day risks that the 
current administration faces, I think that, you know, we do see 
signs of improvement and strength and governmental capacity in 
a number of areas. There's still a lot of progress that needs 
to be made. You know, the tension--constant tension between the 
civilian concerns and the military concerns is one that is 
publicly debated.
    You know, the support that we've shown over the last year, 
that your leadership in this committee has shown, in terms of 
mapping out a 5-year strategy of support for civilian 
leadership, is really central to what we've been trying to do--
shore up the idea of the need to invest in lasting civilian 
institutions.
    Senator Dodd. Well, let me ask the question. I think you've 
answered this already with some of the stuff that's been said, 
but my understanding, the success of this overall program----
    Mr. Lew. Yes.
    Senator Dodd [continuing]. In no small measure depends upon 
a very willing partner in Pakistan. Is that agree--do you agree 
with that?
    Mr. Lew. I think we do agree with that. And I think, 
because the actions being taken are--under the leadership of 
the civilian government, but carried out by the military--it 
might be helpful to have General Petraeus comment a little bit 
on the relationships we've had--military-military 
relationships--over the last year, as well.
    General Petraeus. Senator, as one who's been in Pakistan, 
in fact, about four or five times in the last 6 months, and had 
a lot of conversations with military leaders as well as the 
civilian leadership, I actually don't think that the current 
challenges imperil civilian rule. There clearly are challenges 
to--potential challenges to President Zardari. But, again, I 
don't see the prospect or the desire for anyone to change 
civilian rule.
    We've worked very hard to establish relationships of trust 
and confidence with the Pakistani military, and especially the 
Pakistani army, and again, against this backdrop of history 
that we discussed earlier, and a realization that there was a 
period of a decade or so during which no Pakistani students 
came to the United States, and all the rest. So, we're making 
up for the lost generation.
    But, I think we have built those relationships, patiently 
and stronger. Chairman Mullen has done a great deal of that, as 
well. We've substantially augmented the number of individuals 
in the Office of Defense Representative Pakistan--by the way, 
he was promoted to three stars yesterday--as a sign, again, of 
the importance of that position.
    And again, I think what we're trying to do, as the 
Secretary mentioned, is to build these relationships to where 
they become a partnership in confronting what clearly are 
shared threats, not just to Pakistan and the region, but also 
to our own country.
    Senator Dodd. Thank you, General.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Dodd follows:]

            Prepared Statement of Hon. Christopher J. Dodd,
                     U.S. Senator From Connecticut

    Mr. Chairman, thank you for holding this hearing.
    General Petraeus, Ambassador Eikenberry, thank you for being here, 
and for your tremendous leadership and service to this country.
    As I said last week, when this committee met to discuss Afghanistan 
with Secretaries Clinton and Gates and Admiral Mullen, the decision 
regarding how to move forward represents an incredibly difficult moment 
for our Nation.
    Our strategic imperatives in Afghanistan and Pakistan--crippling 
al-Qaeda, safeguarding Pakistan's nuclear arsenal, and combating 
violent extremism--are of the utmost importance to our national 
security.
    And today, we continue our consideration of the President's 
proposal for achieving those critical goals.
    President Obama has carefully and conscientiously weighed our 
military and policy options. And he has laid out a serious proposal 
that merits close consideration.
    It is our job, however, to subject the President's proposed 
strategy to tough and pointed scrutiny. And, frankly, as we meet today, 
I remain skeptical about the likelihood that this new mission will meet 
our goals.
    I have great respect for our President and his team of advisers. I 
have great confidence in our military and its leadership.
    But I also have great concern about the prospect of sending more 
young Americans into Afghanistan, because simply escalating our 
presence, in my view, won't achieve our objectives. And we must only 
assign our troops missions that are necessary and sufficient to support 
our interests.
    We need to know more about the President's strategy--not just his 
military strategy, but the economic and diplomatic initiatives that 
will be necessary to make it work.
    We need to know more about what our civilian surge will look like, 
who will run it, and whether our development experts at USAID have a 
meaningful seat at the table to help develop and implement it.
    We need to know more about the President's plans to protect key 
population centers, provide for targeted and limited economic 
development, and crack down on rampant corruption.
    We need to know more about the administration's thoughts on 
governance, a key pillar of counterinsurgency strategy, and its 
proposed efforts to bolster the Afghan Government's ability to meet the 
basic needs of its people.
    We need to know more about whether we have a reliable partner in 
the Karzai government.
    We need to know more about whether we have a reliable partner in 
Pakistan, and whether that government is taking the necessary steps to 
combat violent extremism, including the Taliban and al-Qaeda, and 
extend law and order to the tribal areas.
    We need to know more about how the President views the relationship 
between our efforts in Afghanistan and our national security interests 
in Pakistan
    We need to know more about whether our allies are prepared to share 
the burden of this effort, whether NATO is ready not just to send more 
troops, but to aid in the other parts of our strategy.
    And most of all, we need to know more, much more, about how and 
when our work in Afghanistan will come to an end, so that we can bring 
our troops home.
    We have before us today a wealth of foreign policy and national 
security experience. I hope that we can call upon that experience to 
help us further evaluate the President's proposal.

    The Chairman. Thank you very much.
    Senator Corker.
    Senator Corker. Mr. Chairman, thank you.
    And certainly, thank each of you for your service, and I 
very much appreciate you coming and being with us today. I know 
this is somewhat painful, and we appreciate it.
    General Petraeus, when you came up and talked with us about 
the surge in Iraq, there was a sense of a really strong 
commitment that really encompassed the whole country. And I 
know that, in March, there was an announcement about what we 
were doing in Afghanistan, that, while it was spoken that it 
was narrowed, it was actually pretty expanded, from the 
standpoint of how we looked at what we were going to do in 
Afghanistan. If you looked at all the metrics that General 
Jones presented in September, I mean, it was an all-out effort 
throughout the country.
    I know Secretary Gates mentioned, last week, he realized 
that this was becoming a full-out nation-building effort, for 
lack of a better description. And now that's been narrowed 
some. And so, we hear sort of a partial effort taking place as 
it relates to the country itself, and sort of our leaving a 
country that's a little different than the type of country 
we're trying to leave in Iraq. And I guess what would be good 
for me, clarificationwise, would be to understand what you see 
Afghanistan being when we begin to drawdown troops, whenever 
that is, and its ability to actually maintain itself 
successfully. I know we're talking about pulling back away from 
rural areas into population centers. And what I see is a 
country that's, candidly, not unlike I guess what we're 
discussing in Pakistan, where you've got a lot of areas out 
there that are not administered, not really governed, if you 
will. So, if you could describe fully what you see us having 
there, what the world would have there, when we begin 
withdrawing, that--I think that would be very helpful. Because 
I think it has been confusing as to what we're actually doing 
there.
    General Petraeus. Thanks, Senator. And thanks, as always, 
for looking after the great 101st Airborne Division.
    Senator Corker. Yes, sir.
    General Petraeus. Sir, I think it would be worth reviewing 
the objectives of the policy, because they were, indeed, 
sharpened as a result of the deliberations that took place with 
President Obama and the national security team. And they're 
pretty straightforward. They are to reverse the Taliban 
momentum; to deny the Taliban access to, and control of, 
population centers and lines of communication; disrupt the 
Taliban outside the secured areas, and prevent al-Qaeda from 
regaining sanctuaries in Afghanistan; degrade the Taliban to 
levels manageable by the Afghan security forces; increase the 
size and capability of those security forces and other local 
forces to begin transitioning security responsibility to the 
government within 18 months; and selectively build capacity of 
the Afghan Government, particularly in key ministries.
    What this produces, I think, is a country that can 
basically secure itself and see to the needs of its citizens, 
using traditional local organizing structures at local levels, 
and then tying in to a central government that is seen 
increasingly as serving the people rather than preying on them.
    As those conditions begin to appear in different areas, we 
can then thin out our forces. Again, I want to be very clear 
that Afghanistan is not Iraq; it's also, by the way, not 
Vietnam; it's not a lot of other places. It's Afghanistan, and 
it has plenty of its own challenges. But, we have to look at 
that.
    But, the fact is, the way we thinned out in Iraq, as we 
were able to get Iraqi security forces and Iraqi officials 
capable of taking over local responsibilities, is somewhat 
similar to what it is that we want to do in Afghanistan. And 
you keep certain capabilities there longer than others--again, 
as in Iraq. What we are doing in Iraq right now, for example, 
is working to enable the Iraqi security forces, with a variety 
of assets that they just don't have, so that they can keep the 
heat on al-Qaeda and reduce at least the frequency of the kinds 
of horrific attacks that we saw yesterday. And prior to that, 
as you probably know, the month of November, for example, saw 
the lowest level of security incidents and the lowest number of 
violent civilian deaths in Iraq since we got good data, post-
liberation.
    So, that would be the concept, I think. That's sort of the 
vision of how this would go.
    Senator Corker. I know we have a briefing later today, in a 
secure setting----
    General Petraeus. Right.
    Senator Corker [continuing]. With McChrystal, and I will 
talk through a lot of that at that time, but--and I know our 
time's very short today. I think the--and none of us like being 
where we are. And I know all of this is complex, and we, I 
think, are all glad that we have people of your caliber, each 
of you, doing what you're doing. But, as we look at this whole 
issue of the Taliban, and maybe it becoming almost a sort of a 
brand of--type of activity that's occurring around the world 
when people are unhappy with what's happening within the 
country. I think that's a concern that you've expressed. I know 
that's been a--you know, expressed at the State Department. I 
think that the difficulty that we have is envisioning that, in 
each of the countries that have these issues, we end up with a 
sort of all-out building of a country, because these countries 
are poor, and there's no economic development, and it's easy to 
pay somebody to take up weaponry against a government. Looking 
into the future--not Afghanistan, but in future efforts--are we 
developing different types of strategies that don't end up 
being nation-building?
    General Petraeus. I think it would be accurate to say we 
are developing strategies that are appropriate to the countries 
we're trying to help, and they involve greater or lesser 
amounts of nation-building, depending on the problems that 
afflict those countries.
    But, I think you've raised a very important point, and that 
is trying to figure out how we can, without, again, conducting 
complete all-out nation-building levels of assistance, keep 
countries from becoming failed states and perhaps being 
sanctuaries for transnational extremist groups. And Central 
Command has a couple of candidates for that, as you know, 
within its area of responsibility, and we are working in those 
other areas, as well.
    Senator Corker. Thank you, Mr. Chairman. Thank you.
    The Chairman. Thank you very much.
    Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman.
    Secretary Lew and General Petraeus, Ambassador Eikenberry, 
thank you all for being here today, and for your selfless 
service to our Nation. We are all indebted to each of you.
    And I'd like to ask a question of General Petraeus first. 
Special Envoy Holbrooke and Admiral Mullen have both 
acknowledged in testimony before this committee that there is a 
danger that sending additional troops to Afghanistan could push 
militants into Pakistan and further destabilize that nuclear-
armed nation. Do you agree that there is a risk that sending 
more troops could just push militants over the border?
    General Petraeus. There is, indeed, a risk that our 
operations could lead some of these elements to seek sanctuary 
in Afghanistan, particularly, frankly, the leaders, those that 
have the resources to do that.
    Senator Feingold. In Pakistan.
    General Petraeus. I'm sorry, in Pakistan. And that is why 
we're working very hard to coordinate our operations more 
effectively with our Pakistani partners, so that they know what 
our operational campaign plan is and can anticipate and be 
there with a catcher's mitt or an anvil, whatever it may be, to 
greet these individuals. We have actually conducted some 
operations of medium scale in Regional Command East, where that 
kind of coordination was conducted. And before we launched the 
operations with the Marines in Helmand province, we also 
briefed our Pakistani partners. So, that effort--and we have, 
in fact, begun, just recently--literally in the last several 
weeks--an effort to lay out, in real detail, our operational 
campaign plan, and then to coordinate that with the actions of 
the Pakistani----
    Senator Feingold. Well, I----
    General Petraeus [continuing]. Elements.
    Senator Feingold [continuing]. Appreciate, General, your 
description of what we're doing and what we're laying out to 
the Pakistanis, but isn't the case that they're going to have 
to move against all of the militants in that area if this is 
really going to work?
    General Petraeus. Well, they're going to have to move 
against enough of them so that, obviously, their capability is 
sufficiently degraded. Again, I don't see any of these kinds of 
efforts as, you know, unconditional surrender, planting the 
flag on a hilltop, and going home to a victory parade. These 
are long, tough slogs, if you will. But, what we need to do is 
beat them down to a level to where they don't threaten. And 
that was the point about degrading the Taliban, for example, to 
levels manageable by the Afghan security forces.
    Senator Feingold. I understand that. But, I guess my only 
point would be, not so much that we can get rid of every 
militant in Pakistan, but that they do move against all the 
different pockets that exist----
    General Petraeus. Over time, no question that they have to, 
again, deal with these, because, of course, they present an 
internal extremist threat to Pakistan----
    Senator Feingold. And, in particular----
    General Petraeus [continuing]. As well.
    Senator Feingold [continuing]. Not necessarily ``over 
time,'' but now, because we are going to be pushing now----
    General Petraeus. We----
    Senator Feingold [continuing]. And we're going to be 
potentially pushing these militants into Pakistan.
    General Petraeus. As we----
    Senator Feingold. So, they need to be able to do this now.
    General Petraeus. As we conduct operations, Senator--again, 
we've got to coordinate what we're going to do with them, so 
that they're not surprised by what is happening. I should note, 
though, that they're--we need to also be realistic that there's 
a limit--you know, they're--they'll say--you can only stick so 
many short sticks into so many hornets' nests at one time. And 
they have a very impressive military and an increasingly 
impressive Frontier Corps. But, again, there are limits on 
their capacity. And that's the challenge that they're working 
with. And, by the way, that's why the Pakistani 
Counterinsurgency Capability Fund that you've provided for us, 
and the Foreign Military Financing, has been so important, to 
help them with that.
    Senator Feingold. Thank you, General.
    Ambassador Eikenberry, there's a myth that the Pakistanis 
fear that we will ``abandon'' them, and that we must send more 
troops to persuade them otherwise. However, the Pakistani's do 
not support military escalation, have expressed concern that it 
will further destabilize the situation on both sides of the 
border. If we were to reduce our troop levels in Afghanistan, 
but maintain an ability to carry out counterterrorism 
operations in the region while continuing to provide the 
Pakistanis' robust financial support, wouldn't that communicate 
our commitment to Pakistan and actually be more responsive to 
their concerns about the instability caused by our massive 
military presence in Afghanistan?
    Ambassador Eikenberry. Senator, I'm not--again, I'm not the 
Ambassador to Pakistan, but I will comment on this, from my 
long time in the region. And with a reduction of U.S. military 
support at this juncture inside of Afghanistan, the security 
situation in Afghanistan would decline. I think it would 
decline, over time, with the lack of U.S. commitment--
dramatically. Insecurity in Afghanistan will breed insecurity 
within Pakistan.
    Senator Feingold. General, there's no doubt that al-Qaeda 
has found safe haven among militant groups in the region, but 
is it fair to say that there are continuing differences between 
the Afghan Taliban and al-Qaeda over their strategic goals that 
intermittently provoke tensions between the two groups?
    General Petraeus. There are, indeed, periodic tensions, and 
then there are, indeed, periodic reconciliations, if you will. 
Again, as Secretary Gates explained, I thought, quite 
effectively, in his testimony last week, some of which I 
summarized today, there is this symbiotic relationship, really, 
between all of these groups. And sometimes the Taliban are up 
and the al-Qaeda is not quite as much in the forefront; and 
other times, it's reversed.
    Senator Feingold. Well, I understand that, but the 
description of it as ``symbiotic'' is a little surprising to 
me. General McChrystal, in his nomination process, told the 
Senate Armed Services Committee that, ``continuing differences 
over strategic goals could persist and intermittently provoke 
tensions between the two groups.'' So, maybe it's just 
semantics, but it strikes me that it may not really be at a 
level of symbiosis.
    But, I thank you all.
    The Chairman. Thank you very much, Senator.
    Senator Isakson.
    Senator Isakson. Thank you, Mr. Chairman.
    And best of the holiday season to all of you. We'll enjoy 
it with our families while you and your men and women will be 
deployed all over the world, keeping us safe, and we appreciate 
that very much.
    The Chairman. We hope to enjoy it with our families.
    Senator Isakson. We hope to enjoy. I wasn't going to throw 
that in there. I'll let you do that, Mr. Chairman. We'll get 
there.
    Ambassador Eikenberry, you, with a twinkle in your eye, I 
might add, acknowledged that we were encouraged by President 
Karzai's statement about reducing corruption, improving the 
government, et cetera, but you also said, in your nonprinted 
remarks, that you were very impressed that finally all elements 
of our national power are deployed, and our biggest challenge 
is the lack of credibility of the Afghan Government. You 
followed that with a statement, ``We should work with the 
ministries and work to help improve the ministries and the 
confidence level of the Afghan people.'' Do we have to work 
around President Karzai to improve the ministries of the Afghan 
Government? Are we impressed, but not yet certain, that his 
words of corruption reduction and things like that are just a 
statement, or is he committed to it.
    Ambassador Eikenberry. Senator, we work in partnership with 
the Government of Afghanistan, and President Karzai is the duly 
elected, legitimate President of the country; he is our 
partner. We have four areas, Senator, that we need to 
concentrate in partnership with the Afghans. The first is in 
the area of law enforcement. We're making progress in that 
area. Second, it's going to be essential that we improve the 
financial accountability, which you've referred to, working 
with competent ministries. We have a good program, that's been 
underway now for over a year, of ministry certification, taking 
the essential ministries of Afghanistan, working with them to 
improve their procedures in which they reach a level, then, of 
competency. We put funds directly in through them. We have a 
more expansive program, this year, planned, working with the 
international community, more effort in trying to train civil 
administration. Understandably, after three decades of 
conflict, low literacy rates, and a disrupted society, we don't 
have it. We did not, in 2002, begin with a strong base. We're 
making progress in that area. And fourth, in the way that we 
deliver our aid programs.
    In fairness to the Government of Afghanistan, currently, 
for the international community, 80 percent of aid funds don't 
go through the Government of Afghanistan. The United States 
Government is really the leading element right now in trying to 
change that. So, when we talk about the accountability of the 
Government of Afghanistan, it really does require a partnered 
approach.
    Behind all of that, though, Senator, as you're asking in 
your question, leadership at the top, and commitment, is 
absolutely vital. We are encouraged by President Karzai's 
inaugural address, and what he has said will be his plan of 
action, but it will wait deeds over the next year.
    Senator Isakson. You mentioned the High Office of 
Oversight. Is that an office set up by President Karzai?
    Ambassador Eikenberry. It's an office set up by the 
Government of Afghanistan. It was set up 1 year ago, Senator, 
to deal with corruption. There is my understanding that there 
was a press conference today in Kabul. I'll have to check on 
that. But I know that President Karzai's administration intent 
is to try to give that High Office of Oversight, which is now 
an administrative organization, trying to give it more teeth.
    Senator Isakson. So, their legislative branch created that, 
not President Karzai? Or----
    Ambassador Eikenberry. This was--I'll have to go back and--
for the record.
    But, the High Office of Oversight, at least the manning of 
the High Office of Oversight, comes from the executive branch, 
Senator. I don't know what the legislative base of it is, 
though. But, our intent is, if President Karzai decides to put 
more emphasis in that, we're prepared to work in partnership 
and offer support.
    Senator Isakson. Well, from everything I have seen when 
I've been to Afghanistan, as well as what some Georgia soldiers 
have told me who have been deployed and come back, if we 
reverse the Taliban, if we disrupt the Taliban, and we degrade 
the Taliban, we still won't be successful if we don't improve 
the government and the image of the government with the people, 
in addition to improving the security situation in Afghanistan. 
Is that right?
    Ambassador Eikenberry. That's absolutely correct, Senator. 
We have the two efforts. At the national level, we're working--
I already articulated what some of those programs are. They're 
more comprehensive. But really the lynchpin of this is going to 
be at the district level, at the local level. We're working 
closely with our military, we're working closely with the 
Government of Afghanistan to innovate and try to figure out the 
best combinations of the delivery of very basic government, 
security, justice, and those essential services, like health 
and education, in rural areas, in areas where, right now, our 
troops are operating, where the insurgency is, in the south and 
the east, in order to achieve that end that you've articulated, 
the need for governance to follow in behind combat operations.
    Senator Isakson. Well, the success of the surge in Iraq, 
and the example that's been set by Iraq's Prime Minister Nouri 
al-Maliki and the government there, to be able to take over 
responsibilities once the insurgency was reversed, is evidence 
of the same thing we have to accomplish in Afghanistan, 
although in a much different way, because of the history and 
the nature of that country. And I commend you all on what your 
effort is. I'll pledge to give you all the support I personally 
can to accomplish that goal.
    The Chairman. Thank you, Senator Isakson.
    Ambassador Eikenberry. Senator, if I could, just a 
clarification on the High Office of Oversight, it was 
established by Presidential decree, so it doesn't have a 
legislative base.
    Senator Isakson. Thank you.
    The Chairman. Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Let me thank you all for your service, and, through you, 
the people who serve underneath you and make very significant 
sacrifices. And, particularly, General Petraeus, I am one of 
those who understand that never have so few been asked to bear 
so much of the sacrifice, and it's because of that that I ask 
the questions that I do.
    And I want to start with you, General. Let me get this 
straight. From everybody's testimony here, when we had the 
Secretary of State and Defense, the essence of what I get is 
that we have defined our national security, in the context of 
Afghanistan, as having stability and security in Afghanistan in 
our own national interests, is that correct?
    General Petraeus. Well, our overriding objective, of 
course, is to ensure that al-Qaeda and other transnational 
extremists don't reestablish a sanctuary in Afghanistan such 
as----
    Senator Menendez. And as such----
    General Petraeus [continuing]. What they had----
    Senator Menendez [continuing]. We want to have----
    General Petraeus [continuing]. Prior to 9/11, and----
    Senator Menendez [continuing]. We want to have safety and 
security there so that they don't have the ability to----
    General Petraeus. And the way to ensure that overriding 
interest is to have a country that is not a failed state and 
allows that to happen.
    Senator Menendez. So, if that is the case, and if we accept 
that as our national security interest, then what follows is 
that, while we are aspirational as to whether President Karzai 
will meet the standards of eliminating the corruption and what 
goes on right now in Afghanistan, whether or not he succeeds in 
our aspirations--and I understand, Ambassador Eikenberry, that 
you may have written sections of what we now praise as his 
commitment--we will still be in the same national security 
paradigm. If he fails to have the good governance we want, if 
he fails to support the creation of the level of Afghan troops 
and police, and the quality of them, to carry out missions, we 
will still be in the position that it will be our national 
security interest to have security and stability in Afghanistan 
because we don't want it to be a safe haven for
al-Qaeda. Is that fair to say?
    General Petraeus. Yes; it is.
    Senator Menendez. So, therefore, the problem seems to me 
that--part of the question here is that that dictates that we 
have a long-term obligation to Afghanistan, because, you know, 
we hope that Karzai will do everything that's right, but, you 
know, again--and we may prod and poke and, you know, maybe try 
to direct money in different ways, but, at the end of the day, 
this depends upon an Afghan Government that can ultimately 
sustain itself. And my view of that, therefore, is skepticism 
on that goal, based on what I've seen.
    So, let me ask you, then, Do we agree with the comments 
made by President Karzai, that it may be as much as 5 years 
before his troops can take on insurgents, and 2024 before the 
Afghans will be able to pay for their own security? Is his 
statement a fair one?
    General Petraeus. Well, Senator, I think, again, it's not a 
light switch that takes place in a situation like this.
    Senator Menendez. But, is that a reasonable timeframe?
    General Petraeus. I can't talk about the long-term 
timeframe. Again, that depends on how rapidly, obviously, they 
can generate much greater revenue, and that depends, to a 
degree, on security and infrastructure and so forth. But, 
certainly it is going to be years before they can handle the 
bulk of the security tasks and allow the bulk of our troopers 
to redeploy. What our goal is, of course, is to get that 
process going, to create the conditions where they can handle 
the security situation because of the capability they have and 
because of the degradation of the Taliban in those particular 
areas.
    Senator Menendez. Well, if I factor out your previous 
answer to ``assuming that the Afghans got to certain levels of 
both police and troop strength, and what it would cost,'' and 
if it's true that his statement that it'd be 2024 before they'd 
be able to handle the bill on themselves, we're talking about 
$150 billion just on the security side before we get to the 
development side. So, you know, at some point we need to get 
the pricetag, here, to be part of the equation so we understand 
what we're spending in our security context.
    And that brings me to the questions of, you know--Secretary 
Lew, I think we've spent $13 billion in development assistance 
to date in Afghanistan. Is that correct?
    Mr. Lew. Roughly, correct.
    Senator Menendez. Roughly, OK. But, all the testimony I 
hear leads me to believe that after $13 billion, we are 
basically starting from scratch as it relates to development 
efforts, which is pretty alarming. So, you know, I want to get 
a sense of how we are going to, you know, go from, right now, a 
clearly overwhelmingly military context to all of the 
statements that we need a government that can sustain itself 
and operate, and then, do that, $13 billion later, without 
virtually any success, and think about--you're going to triple, 
you say, your civilian corps, which--to 900-some-odd--which 
means we only have 300-some-odd. And I'm looking at all of this 
in the timeframe and the money that has been spent, and we 
haven't quantified what we're going to be looking, on the 
civilian side, and, you know, I get rather anxious.
    Mr. Lew. Well, Senator, first, I think it's not correct to 
say that there's nothing to show for the past development 
program.
    Senator Menendez. Tell me what we----
    Mr. Lew. I think that----
    Senator Menendez [continuing]. Show for the $13 billion.
    Mr. Lew [continuing]. Before the development assistance 
that you're describing, there was virtually no access to health 
care in Afghanistan. There's very substantial access to health 
care in Afghanistan, in the 80-percent range. There were 
virtually no girls enrolled in schools, there are now a lot of 
girls enrolled in schools, and more every week, every month. I 
think that it's fair to say that we have an awful lot of work 
ahead of us, that the institution-building, particularly, at 
the governmental level, and outside of Kabul, at the 
subnational level, is a substantial challenge.
    I don't think it's quite the same as starting from scratch. 
I think if you look at the government that President Karzai 
has, with all the problems that we spend a lot of time 
discussing, there are a lot of ministries and ministers who 
have been doing quite a good job. If you look at their 
agriculture program, and where we're coming in to support their 
agriculture program--there's an Agriculture Minister who has a 
5-year plan that's a good plan. He is relying on the 
international community, and, in our case, USAID and USDA, to 
be supporting their plan. That's not to say that it's easy, but 
the work is building on a foundation that is an Afghan-driven 
agriculture plan. That's true in other ministries, as well. 
It's not true in every ministry.
    In terms of the level of U.S. civilian presence, when we 
started, at the beginning of the year, there were roughly 300, 
320 civilians on the ground. By the end of January, we're going 
to be close to 1,000. That's a very big difference, in terms of 
the amount of programming that we have going on, not just in 
Kabul, but in all of the provincial areas, the district areas, 
where we'll be teaming on a day-to-day basis. And I think that 
you're going to see very substantial change in the progress 
made, and it's all tightly coordinated in a civilian-military 
plan, where the civilians are going in right when the military 
is--created the space for them to work.
    The Chairman. Senator Wicker.
    Senator Wicker. Thank you very much.
    Gentlemen, Senator Isakson was just pursuing a line of 
questioning with regard to corruption. Let me follow along.
    President Karzai was expected, yesterday, to release his 
list of 25 Cabinet members. I understand, now, that decision 
has been postponed until Saturday. This issue has a lot to do 
with corruption. The President's under pressure to exclude 
corrupt ministers from his government. At the same time, it's 
reported that some powerful Afghans, who feel that they were 
instrumental in bringing about a tainted election victory, feel 
that they should participate in this government. And other 
Members of Parliament see this list as Karzai's first step to 
clean up his government. In other news reports, I hear that, 
with regard to some Afghans, heavyhanded though the Taliban may 
be, and violent and repressive as they may be, some Afghans 
prefer to see their form of order and certainty in 
decisionmaking over the endless process of having to grease the 
palms of official Afghan governmental bureaucrats.
    General Petraeus, do you--do your people in the field see 
this? And, Mr. Ambassador, would you comment about this? We 
have reports of Afghan Mines Minister Mohammad Ibrahim Adel, 
receiving a $30 million bribe from the Chinese for making 
decisions favorable to the Chinese.
    Mr. Ambassador, would you comment as to the credence of 
that as part of your answer. And then, of course, we know the 
allegations about the first Vice-President-elect, Mohammad 
Fahim, reportedly being involved in the Afghan narcotics trade.
    I view the corruption issue as a major factor in 
determining whether the Afghan people are going to come around 
to supporting the government and getting rid of a regime--a 
Taliban regime, which, admittedly, has every reason to be 
unpopular on the surface.
    So, Mr. Ambassador, and then, General, if you'd like to 
follow up.
    Ambassador Eikenberry. Great, thanks, Senator.
    The report about the naming of the Cabinet, yes, we had 
anticipated it was going to be announced on Tuesday, and now we 
understand it's been postponed several days. I've heard that 
President Karzai is working with the Parliament to make a 
decision whether or not the entire package of ministers should 
be named in one setting, or should part be named and then the 
Parliament will go on recess and the rest will be named 
afterward. They do need parliamentary confirmation.
    I'd emphasize what--following on what Secretary Lew had 
said--the quality of the Afghan ministries and the leadership 
of the ministries--indeed, it's--Senator, it's very impressive 
in many areas. The Ministers of Education, Health, Agriculture, 
Rural Reconstruction and Development, Commerce, Finance, 
Interior, Defense, the Director of the National Security--
Director of Intelligence--these are world-class ministers who 
could do well in Europe or North America. They're challenged 
within their ministries, as, of course, they would be after 
three decades of war, such low literacy rates in the country, 
the absolute destruction of bureaucracy and organizations over 
the course of three decades. These are difficult tasks, to try 
to run these ministries. But, I have confidence, at the 
national level--I don't want to prejudge what ministers will be 
named, but I think, in the main, we'll see a reinforcement of 
what's a pretty good list. Improvements have to be made, 
though.
    Second point, about Taliban justice, you're absolutely 
correct. In areas where there is absolute corruption in the 
countryside, there is no legitimate Government of Afghanistan, 
Taliban can deliver a very predictable justice. But, it's a 
feudal, brutal justice that includes the chopping off of heads 
and the hanging of the so-called ``defenders'' in the market 
squares. That is not a brand of justice that the Afghan people 
aspire to see return to their country. Every poll that's been 
taken, still, since 2002, when Afghanistan was liberated by 
United States military forces and our allies--every poll still 
shows the Taliban to be deeply unpopular. But, when you reach a 
point in parts of Afghanistan, where the alternative is an 
absolutely rapacious or brutal government alternative, then, of 
course, the Taliban will find an opening.
    So, our challenge--and, indeed, the Government of 
Afghanistan's challenge--is to construct legitimate 
alternatives to what is a very brutal Taliban way of life and 
governance.
    Senator Wicker. All right. Let me ask you, then--General, I 
think I'll ask you to take my question for the record, and let 
me see if I can squeeze in one more.
    Of the 7,000 additional allied troops that have been 
promised, my understanding is that approximately 2,000 of them 
are already there; they were there to help with the elections. 
We're really only talking about an additional 5,000 troops. 
It's been well documented that restrictions placed by many 
countries on their troops in Afghanistan will impact their 
mission there. So, I'd like to ask you to comment about that. 
Will they be primarily trainers? Will they primarily serve in 
support functions? Or will they be combat troops? And if a 
large portion of our allied--of the additional 7,000 allied 
troops are restricted in their military activities, how will 
that impact their ability to provide assistance to our mission 
and to ensure victory in this effort?
    General Petraeus. First of all, Senator, the additional 
7,000 or so really are additional, because the election forces 
were supposed to go home. And if a country, obviously, commits 
to extend them or to replace them, obviously that is in 
addition to their projection.
    They really are a mix, across the board, of combat forces, 
trainers--in some cases, PRT element support, the so-called 
OMLTs, the military transition teams, and so forth. And 
certainly some of those will be restricted by caveats, there's 
no question. This is not something new to Afghanistan, though, 
candidly. When I was in Bosnia as the chief of operations, I 
had a matrix on my desk that had all the countries down the 
left, a list of tasks across the top, and an X mark that filled 
the block as to whether that country could do that task in a 
certain location. I had the same thing----
    Senator Wicker. Some of them?
    General Petraeus [continuing]. Same thing in Iraq. And 
again, we had to--you know, so General McChrystal's challenge, 
as was the challenge for the commander in Iraq, is to 
understand who can do what, employ them to the fullest extent 
possible, and then figure out how to complement what it is that 
they can contribute with the actions of other forces that can 
truly do everything, everywhere----
    Senator Wicker. What do you mean by ``some''----
    The Chairman. Senator, I've got to interrupt----
    Senator Wicker. I know. I just wondered if the----
    The Chairman [continuing]. Out of fairness to the other 
colleagues.
    Senator Wicker [continuing]. If the General could clarify 
whether ``some'' means a majority or----
    The Chairman. Well, he could clarify it, but it would mean 
you have about 3 minutes more than anybody else. So, maybe you 
could clarify for the record or in the course of another 
answer.
    General Petraeus. I'd be happy to do that, sir.
    [The written information referred to follows:]

    Approximately 3,043 of the 7,000 troops will be restricted by 
caveats. To keep the response unclassified, caveats affiliated with 
specific countries must be excluded. Some examples of caveats and 
associated number of troops affected are:
    (1) 700 troops are restricted to operations within their assigned 
Regional Commands. Any operations outside these areas must be approved 
by that country's higher authority. An exception exists for ``in 
extremis'' operations declared by COMISAF and are considered on a case-
by-case basis.
    (2) 330 troops are forbidden from undertaking direct military 
action against narcotics producers.
    (3) 250 troops may not operate outside Afghanistan, and require 
higher authority approval to participate in counternarcotics activity.
    (4) 232 troops can only operate outside their assigned AOR after 
consultation with higher authority.
    (5) 202 troops are not allowed to operate outside their assigned 
AOR.
    (6) 175 troops are restricted from military actions that do not 
threaten ISAF and could inflict collateral damage to the civilian 
population.

Examples of other generic caveats include:
    (1) Forces may not be used to destroy bridges, tunnels, dams, dikes 
and infrastructure of specific significance to the region.
    (2) Forces may not be used in a territory where there is a 
possibility for the presence of nuclear, biological or chemical agents.
    (3) Forces may not be used to conduct operations in religious 
facilities, museums or cultural and/or archaeological heritage.
    (4) Forces will not be used to conduct riot control operations.
    (5) Forces will not be used to execute an order, the execution of 
which represents a criminal act according to national legislation or 
conflicts with international conventions on human rights protection or 
the laws on armed conflict.

    Voice. Yes, thanks.
    The Chairman. I just need--I want to try--because we can do 
another round; there's no problem in that. I just want to be 
fair to everybody here, if we can.
    Senator Cardin.
    Senator Cardin. Mr. Chairman, thank you very much.
    First, let me thank Deputy Secretary Lew and Ambassador 
Eikenberry and General Petraeus for your service. You are 
providing extraordinary talent to our Nation, and we thank you 
very much.
    General Petraeus, I want to concur in your assessment of 
our military. The men and women who are serving under extremely 
difficult circumstances are the best in the history of America, 
and I appreciate the leadership. Just to give you one example, 
I had a chance to talk to a Maryland serviceman who is in 
Afghanistan, and he gave testimony to your assessments. It was 
a wonderful opportunity to see the spirit and the commitment 
and the difference that our servicepeople are making.
    So, during the holiday time, particularly, we can never 
express our appreciation enough. Sacrifices are tough any time 
of the year, but during the holidays, they're even more 
remarkable. I just really want to express that at this hearing.
    It's amazing how many of our Senators have talked about the 
Karzai government and corruption. And it has to do with all 
three of the objectives. If we're going to be able to achieve 
security in Afghanistan, if we're going to be able to have 
governance in Afghanistan, if we're going to be able to have 
economic progress in Afghanistan, it all depends upon having a 
partner that can work with us. We've got to transition the 
security, we've got to have a government in the country that 
respects the rights of its people, and we have to deal with 
economic development. If there are moneys being taken through 
corruption, it's going to cost the American taxpayer and the 
international community and Afghans themselves more than it 
should.
    So, Deputy Secretary Lew, I just really want to challenge a 
statement you made. First you said, ``We're going to have a 
policy against corruption, and we're going to hold the Afghan 
Government accountable.'' How do you hold them accountable? 
What do you do if you find corruption? Do you pull our soldiers 
out? Do you cut off the money? How do you hold them 
accountable?
    Mr. Lew. Well, I think, as Secretary Clinton testified last 
week, it's going to be a long-term challenge to end corruption 
in Afghanistan, and we have to have realistic expectations. And 
I think--when we talk about holding them accountable, it means 
that we have to see where our money is going, and, if it's not 
going to the right place, we move our money and put it through 
other channels. It means we have to have our auditors come in 
and--not after we're done, but while we're implementing the 
program, be there, side by side, so we can catch things early. 
It means that when the----
    Senator Cardin. That may work for particular projects, and 
I think that plan needs to be implemented. But, if you find 
corruption at the highest levels that is not being dealt with, 
how do you hold the government accountable?
    Mr. Lew. I think that the conversations prior to the 
inaugural, and the statements that were made and the actions 
taken after President Karzai's inaugural, reflect the kind of 
influence----
    Senator Cardin. But, if there's backtracking, if it doesn't 
work----
    Mr. Lew. Well, I think we have to maintain the pressure. 
You know, we clearly have an interest in Afghanistan that can't 
be achieved if we don't--if progress is not made on this 
corruption issue. The--you know, we've seen promising signs, 
though there's more progress to be made.
    Holding them accountable does not mean that, a year from 
now or 5 years from now, there'll be zero corruption in 
Afghanistan.
    Senator Cardin. There's not zero corruption in any country.
    Mr. Lew. Right.
    Senator Cardin. But, we know that at the highest levels 
there is major reason for concern, that's compromising our 
ability to get our mission done. And I guess what concerns me 
is that I agree with your statements. I just don't know how you 
hold President Karzai and his top officials accountable if, 
after all the efforts we make, we still find that there is 
corruption encouraged at the highest levels.
    Mr. Lew. To the extent that there are investigations--and, 
ultimately, indictments--at the highest level, it will do a lot 
to change----
    Senator Cardin. But, if they don't happen.
    Mr. Lew [continuing]. What has been a culture of impunity. 
We have to work with them, and we have to make--``hold them 
accountable'' means driving it toward having it happen, not 
having it not happen.
    Senator Cardin. General Petraeus, you, in response to 
Senator Corker, talked about the objectives that we're trying 
to achieve. I appreciate the way that you listed that. Then you 
talked about having a matrix, as far as other countries' help. 
Do we have a matrix? Do we have specific objectives, 
benchmarks, whatever you want to call them, that we will be 
using to determine where we are next summer, as to whether we 
are prepared to withdraw, and how many soldiers are able to be 
redeployed? Do we have specific expectations that are at least 
well known between the Afghans and the Americans and our 
allies?
    General Petraeus. We don't have specifics, Senator, in 
terms of, ``We want to do this number of troops by this time,'' 
or something like that. Again, the President was quite clear 
that this is conditions-based, and so, as we get closer, 
obviously----
    Senator Cardin. Oh, I know that, but do we have----
    General Petraeus [continuing]. To that time----
    Senator Cardin [continuing]. Specifics as to what we're 
trying to achieve, and what triggers the ability to reduce our 
numbers.
    General Petraeus. We have specifics in what we're trying to 
achieve. We have an operational campaign plan, to give you 
one--one measure will be the increase of security, something 
that we'll track by district, not just by province. And there 
is an operational campaign plan, and we can track that. And you 
should ask, certainly General McChrystal--in the closed session 
today, I think, would be a great opportunity to get a layout of 
what it is--how he's thinking through the operational piece of 
that.
    Senator Cardin. Well, I'll tell----
    General Petraeus. And the----
    Senator Cardin [continuing]. General McChrystal that you 
told him it's OK for him to give us the specifics.
    General Petraeus. And tell him I--class--actually, I didn't 
classmate him, because he's a couple of years behind me. 
[Laughter.]
    I buddied him.
    He--then, also, of course, we will have specific goals for 
the Afghan National Security Force growth over time. Again, 
that is yet another metric.
    And there are a number of other metrics that will enable us 
to have a sense as to whether we can transition as we approach 
that time. And again, these will be somewhat similar to the 
kinds of analysis that we did in Iraq, where you look at a host 
of different factors in a district's area, including local 
governance, including the economic situation, political 
situation, in addition to the security situation, because 
they're all, of course, related. As you know, you're either 
spiraling upward or you're spiraling downward. And the spiral 
is not just all security factors, it's also local markets 
coming back to life; it might be the traditional less-extreme 
tribal leader returns and is more solidified, and that kind of 
thing.
    Senator Cardin. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Cardin.
    Senator Risch.
    Senator Risch. Thank you.
    And I make this comment--any one of the three of you can 
comment on it, but I've been rather hoping, after the President 
thought about this for some time, that we would have a clearer 
picture than what we have. And with all due respect, I'm just 
not getting a clear picture. I listened to the President very 
carefully, and he told us we were going to start leaving in 
July 2011. Then I asked Gates about it the next day, and he 
said it was a target. I don't know where we are. You know, are 
we in or are we out? And then they talk about reviewing at this 
time or another time.
    Then, the thing that really bothered me was, I listened to 
Karzai yesterday, and he was standing alongside Gates, and he 
starts talking about 15 years. Now, I don't know whether he 
wasn't listening to the President, or what. The President said, 
``Well, we're not going to give an open-ended commitment 
there.'' Well, probably, to Karzai, 15 years isn't an open-
ended commitment, but, I've got to tell you, to the people of 
the United States, 15 years is an open-ended commitment. I 
don't know whose job it is to sit down with him and look him in 
the eye and say, ``Look, you're dreaming, this is not going to 
happen,'' but we just need a lot more clarity than what we're 
getting. And I don't--I have every confidence that our United 
States military, if given a mission, they will go in, they will 
accomplish that mission, but our--unfortunately, it seems like, 
always, the military mission gets mixed with what our overall 
goals are there. And I'm just not happy about what's come out 
of the last--about what's come out of the last week. And I was 
sincerely hoping that we would get there.
    So, have at it, whoever wants to comment on it.
    Mr. Lew. Why don't I start, Senator, and--just to talk 
about the difference between, you know, July 2011 and the 
nature of our long-term commitment to Afghanistan.
    The President did not say that, in July 2011, our 
relationship with Afghanistan would end; it would be the 
beginning of Afghanistan taking over areas, it would give the 
military--our military the ability to begin to drawdown.
    I think that all of us see a long-term relationship with 
Afghanistan, particularly on the civilian side, that's going to 
have to go on for many years. The questions that have been 
raised about the magnitude of the commitments, those are very 
serious questions. We take them very seriously. We're not in 
this alone; it's an international effort, where we have to work 
with international partners to take this responsibility, not 
just on the United States.
    I think that the signal that we're sending is very clear, 
that the buildup of troops is headed toward a crescendo and 
then will start to come down. There will be other parts--if you 
look at Iraq, we're building up certain civilian capacities in 
Iraq right now, as our military withdraws. You know, so we're 
taking over certain responsibilities. I think we have to look 
at the different parts of it separately, and they're not--they 
shouldn't be a source of confusion. It's progress when the 
military is able to leave and civilian programs can step in and 
have a more normal relationship.
    Senator Risch. Well, I couldn't agree with you more. The 
difficulty is, I really question whether you're going to have 
the same security situation in Afghanistan that you have in 
Iraq right now, looking forward to July 2011. I hope I'm wrong.
    Mr. Lew. Well----
    Senator Risch. But, in addition to that, the financial 
commitment to stand up their army and police, particularly over 
the period of time that Karzai's talking about it, I don't 
think the American people are going to accept that.
    Ambassador Eikenberry. Senator, if I could just augment 
what Secretary Lew had said, our goal is--we all agree, is on, 
as rapidly as possible, have an Afghan Government that can 
provide for their security of their own people and deny 
sanctuary for al-Qaeda. The July 2011 date is very important in 
one regard. The Afghan people, they're a very insecure people, 
given their history, given the neighborhood that they live in. 
But, at the same time, 8 years after our arrival, there's a 
growing sense among the Afghans, they want to take charge, they 
want to take control of their sovereignty. There is a desire 
among the Afghans to lead with security, to develop their 
police and their army. President Karzai, in his inaugural 
address, was very clear when he said a goal--5 years from now, 
he wants Afghanistan security forces to be in charge throughout 
the country. That's a good goal, that we should be reinforcing.
    This July 2011 date is, in a sense, a good forcing function 
for the Afghans, now in partnership with us, to stand up and 
accelerate the development of their army and police so, at that 
point in time, they're ready to transition, start taking lead 
for security in certain parts of the country.
    The final point I'd make here, Senator, longer term--What 
does this all mean? And we saw President Karzai's remark. 
What--we don't know how long and what type of security 
assistance program we're going to need in Afghanistan. We know 
it's going to have to be a long-term program; we don't know the 
level. As time moves on, we'll have a better understanding of 
what is their exact requirements. But, what we also know, as 
well, is that, for every one U.S. Army soldier or marine that's 
deployed to Afghanistan right now, the cost ratio of that 
versus Afghan police and army on the ground, it must be on the 
order of 20, 30, or 40 to 1, so a pretty good investment.
    Senator Risch. But, again, I come back to--the President 
talked about July 2011. Karzai's talking about 5 years before 
they're ready to take it over. Who's going to take it over 
between July 2011 and the 5 years that President Karzai's 
talking about?
    Ambassador Eikenberry. Well, I don't want to--I think 
President Karzai's inaugural address had said ``security 
throughout the country,'' a very comprehensive control of the 
security throughout their country----
    The Chairman. General Petraeus----
    Ambassador Eikenberry [continuing]. The army, police----
    The Chairman [continuing]. You wanted to add to that, I 
think.
    General Petraeus. Well, I was really going to state the 
same thing, Senator, again, that what's envisioned in July 2011 
is the beginning of transition. What President Karzai is 
talking about is something that's much more comprehensive.
    And if I could also just say, Senator, again, I hope that 
you'll be able to attend the session with General McChrystal 
this afternoon, because I think you'll----
    Senator Risch. I intend to.
    General Petraeus [continuing]. Get some--out of that some 
clarity. We know what the operational campaign plan is, and we 
also know what the plan is to work with our civilian partners, 
from Ambassador Eikenberry's Embassy, in carrying that out.
    The Chairman. Senator Casey.
    Senator Casey. Thank you, Mr. Chairman.
    I want to thank you first, General Petraeus, for your 
extraordinary service and sacrifice. And I know you must be a 
proud father, as well as of your son's commission. We're 
grateful to know about that.
    And, Secretary Lew, we appreciate your service and your 
availability. I know we tend to call a lot from over here. 
We're grateful for that.
    And, Ambassador Eikenberry, I want to thank you for your 
service and also the way you make time for us when we travel to 
Afghanistan. You work us pretty hard when we're there, as well, 
so I want people to know that.
    I was going to ask a series of questions about President 
Karzai and governance, because we try to think about this 
challenge in three ways: security, governance, and development. 
And I know that's helpful to us, to keep our focus on three 
major challenges to get this strategy, and implement it 
correctly. But, I'll leave that for another day and will submit 
questions about concerns I have about the way he's conducted 
himself.
    And we talked about this when I was in Afghanistan in 
August.
    But, I wanted to focus on two areas. One is the buildup of 
the Afghan police and the local tribal militias.
    In particular, with regard to the police--and I know this 
may be a question for one of you, or all three of you--but in 
Washington, numbers get attached to issues, and we keep hearing 
over and over again--and now I doubt the accuracy of this 
number; that's why I bring it up--92,000 Afghan police as a 
number--and General McChrystal, hopefully, can get that to 
160,000--that we have been hearing a lot about lately. We are 
hearing that the 92 being way, way off, in terms of the police 
that are ready to train now. By one estimate, only 24,000 have 
completed formal training, and the attrition rate is 25 
percent. If either of those statements are true, it creates all 
kinds of challenges and big problems.
    General, I'd ask you or Ambassador Eikenberry, what can you 
tell us about the accuracy of those numbers, No. 1. And, No. 2, 
what's the plan--and I guess if General McChrystal has a--or, 
if General Petraeus has a couple of moments, if he can tell us 
anything that we learned in Iraq about training police or law 
enforcement in Iraq that can be applied here, or not. Maybe 
it's a different challenge.
    Ambassador Eikenberry. Yes, just, Senator, two points, and 
then I'll turn to General Petraeus. I know that General 
McChrystal will have clarity on those numbers when he talks to 
you this afternoon. But, attrition is a problem with the 
police. There are problems of discipline with the police. We 
don't want to understate the challenges that we have ahead of 
us right now.
    Against that, though, General McChrystal does have a very 
aggressive program for partnering with the police. One of the 
keys we've seen with the police, as we've seen with the army, 
wherever you provide good mentors or partners on the ground, 
good things start to happen. But, they have to sustain that 
presence. It doesn't happen over a 24-hour period. And I have a 
lot of confidence in the plan that he's laid out, where he's 
going to, wherever possible, expand out the amount of partners 
that we've got out there with the police forces. We'll 
certainly welcome a lot of help from our NATO allies to expand 
that kind of capability.
    General Petraeus. Senator, I agree with everything that 
Ambassador said. Beyond that, we're actually conducting a 100-
percent personnel asset inventory, and getting biometric data 
and everything. We're trying to nail this down so that we can 
tell you, tell ourselves, tell our Afghan partners, what ground 
truth really is.
    Beyond that, Central Command also, at General McChrystal's 
request, hired a team from RAND to look at, in fact, the 
overall effort of Afghan security forces, and hired some 
individuals that have had some very good experience in this.
    Speaking of that, I mean, the lessons--a couple of lessons 
from Iraq. One is--and I don't want to, you know, sound sort of 
flippant here, but it's a lot easier when you're winning than 
when you're losing. The fact is, in Iraq, that, during that 
escalation of sectarian violence that took place in 2006, 
particularly after the bombing of the Askari Shrine in Samarra, 
there were whole units that were hijacked by sectarian 
militias, for example, because the situation got so bad--and, 
in fact, the police are the most vulnerable, and so we have to 
be very careful--another lesson is that you have to get the 
organizational construct right; you cannot train police and put 
them into an area that is an active area with the insurgency, 
and expect them to survive, because they're--not only are they 
vulnerable, but their families are vulnerable, they live in the 
neighborhood, their kids have to go to school--get kidnapped, 
and all the rest of that. So, we have to get that construct 
right, actually, intellectually. And then, beyond that, the 
partnering piece really is hugely important.
    So, if you can get the construct right, get the right 
forces in--and that may mean that you end up using more--in 
Afghanistan, they're called the Civil Order Police, which are 
actual units, as a--they're really a paramilitary force, rather 
than just a local police force, but that's a much more 
appropriate construct for real conflict zones than are local 
police. At some point, you have to bring in the army. In Iraq, 
we had areas where there were no security forces left at all, 
and we literally had to bring in our forces and then Iraqi army 
forces, then to get back to the point that you could get to 
local police going again.
    Senator Casey. I'll either ask in the next round or submit 
for the record on the local travel militias. We'll get to that.
    Thank you.
    General Petraeus. It's a very important element of this, by 
the way. And, first of all, making sure the warlords don't come 
back, as this--we don't enable warlords, but do enable and 
empower, actually, local security forces in what's called the 
Community Defense Initiative. We won't have something akin to 
the Anbar Awakening of all of--you know, tribal linking as this 
reaches critical mass and takes off in rejecting, in this case, 
the Taliban, but what we can do is help--it's a village-by-
village, valley-by-valley effort, and we are using some of our 
best Special Forces teams--right now really to experiment with 
this, but we think it is something that has good potential.
    Senator Casey. Thank you.
    The Chairman. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    And thank you, to each of you, for your commitment and for 
being here today.
    Thank you, Ambassador Eikenberry, for your hospitality when 
I visited Afghanistan with a number of other Senators, and--you 
were very new there; we appreciated very much your hospitality 
and your direction.
    A lot of the discussion this morning has focused on what's 
happening on the governance and development side, as well as 
what's happening with security. There has been discussion about 
a civilian coordinator for Afghanistan, a civilian counterpart 
to General McChrystal. Can you give us your assessment of how 
important you think that position and person might be, and then 
where we are in the attempt to find someone to fill that 
position?
    Ambassador Eikenberry. Well, coordination, Senator, at 
the--international coordination at the United Nations level, 
that's essential to our success, and, as well, within NATO/
ISAF. Within that command, the civil-military coordination 
aspects are also fundamental, in terms of just trying to 
rationalize our developmental assistance and ensure that we're 
making the most of our resources.
    Some ideas have been now developed, both for UNAMA, trying 
to improve the efficiency there, and within NATO/ISAF itself. 
And those are being looked at.
    Senator Shaheen. Given the urgency of that position, do you 
have any sense of what the timeline will be for having somebody 
in that role?
    Ambassador Eikenberry. I know that Secretary Clinton, at 
the recent Foreign Ministers meeting at NATO headquarters in 
Brussels, she discussed this with her fellow Foreign Ministers, 
and I believe it's going to be on their agenda for the month of 
January.
    Senator Shaheen. Mr. Lew, can you give us any more insight 
on that?
    Mr. Lew. I would just make two points. First, there is some 
natural turnover at UNAMA, and it's part of the discussion 
there, as well, in terms of choosing a new head of the U.N. 
mission. And a point that Secretary Clinton made last week 
which is important to remember is that, while ISAF is a very 
useful and critical coordinating mechanism at the military 
level, at the civilian level we have many non-NATO countries 
that are making significant contributions, and we have to make 
sure that, in getting civilian coordination, we don't 
coordinate out some major partners. So, just a little bit more 
complicated, and that's the kinds of conversations that are 
going on right now.
    Senator Shaheen. Certainly recognizing the sensitivity of 
that person, and who might fill it, I would urge, given what 
everyone is testified to about the importance of the civilian 
efforts, that we move as fast as possible in that direction.
    General Petraeus, I want to follow up a little bit on 
Senator Casey's questions about what's happening with the local 
militia and efforts at reconciliation with some of the Taliban.
    I think I understood you to say that some of those 
discussions have begun and--or negotiations, I guess is a 
better way to put it. I think that's the first time I've heard 
that from anyone. And so, I just wanted to clarify that that is 
what you said. And how do you envision that, going forward? 
Who's going to do those negotiations? What--if you could 
explain that a little more.
    General Petraeus. There's--I was actually talking more 
about the Community Defense Initiative, which is----
    Senator Shaheen. Ah, OK.
    General Petraeus [continuing]. Again, a local--but I'd be 
happy to talk about reintegration----
    Senator Shaheen. Please.
    General Petraeus [continuing]. Because it's used--and the 
term is ``reintegration of''----
    Senator Shaheen. OK.
    General Petraeus [continuing]. ``Reconcilables'' in 
Afghanistan, as----
    Senator Shaheen. Thank you.
    General Petraeus [continuing]. General McChrystal and 
others remind me all the time.
    But, recognizing that, again, you can't kill or capture 
every bad guy out there, you need to take as many of them as 
you can, as we did in Iraq, and take them from either actively 
or tacitly supporting the insurgency and, in our view right 
now, at low and mid-level, try to break them away. And that 
involves, again, isolating them, securing them from the 
irreconcilables, separating the irreconcilables who, make no 
mistake about it, do have to be----
    Senator Shaheen. Right.
    General Petraeus [continuing]. Killed, captured, or run 
out--and then, helping to reestablish local structures, many of 
them tribally based--the Maliks, the tribal elders, local 
imams, and so forth.
    And there is an element that has now been formed--in fact, 
it--the--one of the individuals helping General McChrystal to 
do this is an individual that General McChrystal and I knew 
very, very well from Iraq. He helped us do the reconciliation 
piece there. He was my deputy, the first British deputy that I 
had as a Multinational Force Iraq commander, General (Retired) 
Sir Graham Lamb. He is a special adviser to General McChrystal. 
They have now established an organization called the Force 
Reintegration Cell. It has a two-star British officer. There's 
some diplomatic component to it now, as we had in Iraq. We 
still haven't fleshed it out as fully as we need to; that is 
ongoing, as is the development of the kind of robust 
intelligence element that we learned in Iraq you have to have 
dedicated on nothing but figuring out, again--because this is a 
pretty big question, you know, Is this individual----
    Senator Shaheen. Right.
    General Petraeus [continuing]. Reconcilable or not? And if 
not, again, they have to be killed, captured, or run off. But, 
if they can be, then, of course, you can make them part of the 
solution instead of part of the problem.
    And then there have to be certain incentives. And there 
are--you all gave us the authority, with CERP, to use some of 
that for reintegration purposes. Obviously, we can also do 
local projects. NAID is tied into this again, as well, and 
especially now, as we have more closely knit the civilian 
components together with the military.
    Just one quick note, for example, an AI---great AID 
official, named Dawn Liberi, is literally the equivalent of the 
division commander of the great 82d Airborne Division, Regional 
Command East, and they are partners. And we've tried to 
establish what is not necessarily a civilian chain of command, 
if you will, but there's at least a--What do you call it?--it's 
a line, anyway, of civilians.
    Ambassador Eikenberry. Oh, the ``unity of civilian 
effort.''
    General Petraeus. That's it. And that helps to achieve 
unity of overall effort. So--but, that's the effort in the 
reintegration arena. And then, separate from that is this 
Community Defense Initiative, where we're putting small Special 
Forces units literally in the villages, and then helping to 
develop conditions that enable the local individuals to defend 
themselves and be linked to a district of subdistrict quick-
reaction force, and then on up the line.
    The Chairman. Senator----
    Senator Shaheen. Thank you----
    The Chairman [continuing]. Kaufman.
    Senator Shaheen [continuing]. Very much.
    The Chairman. Senator Kaufman.
    Senator Kaufman. Thank you, Mr. Chairman.
    I want to echo everybody else's comments about thanking you 
for your service. And I've been to Iraq and Afghanistan twice 
this year, and I am totally inarticulate to express the 
courage, the intelligence, and the motivation of the troops 
over there. I wish everybody in America could have an 
opportunity--I really mean this--I wish everybody in America 
could go over there and drop in randomly anywhere in Iraq, 
Afghanistan. They would be so proud of our forces over there.
    And I also think that--we had Petraeus and Crocker in Iraq, 
we're going to have Eikenberry and McChrystal in Afghanistan, 
and I think you can fill those big shoes.
    Mr. Ambassador, can you talk about what's happened--how the 
18-month deadline has helped motivate the Afghan Government, 
both on the area of training troops and also in dealing with 
corruption?
    Ambassador Eikenberry. Yes. Let me speak on the first one, 
Senator.
    We know that, after the announcement that President Obama 
made about the importance of July 2011, that the Ministry of 
the Interior, the Ministry of Defense, with us, together, sat 
down and rolled up their sleeves and said, ``OK, what does this 
mean? How can we get behind this?'' So, I think it will have a 
very good galvanizing effect, but that will be in full 
partnership and with support of us.
    And I know that Secretary Gates had very positive talks 
with President Karzai, just yesterday in Kabul. This was one of 
the items of discussion, President Karzai showing his 
commitment, as he has publicly, for this date, and getting 
behind his role as Commander in Chief, which will be important, 
his support for this being, of course, important in the 
development of the army and the police forces.
    Our efforts that we have against trying to improve 
government accountability, these are long-going efforts, 
Senator, as we talked about when you visited me in Kabul. 
President Karzai's inaugural address, as I said earlier, we 
found helpful, we found encouraging. We do have programs that 
have been underway for several years.
    I'll give you one example of the progress that we're making 
in this area. They have something called the Major Crimes Task 
Force of Afghanistan, just announced several months ago, but a 
lot of preliminary work had been put into it. This is going to 
be, hopefully the Afghan FBI. And we have 10 FBI agents on the 
ground right now, DEA agents on the ground. We have military 
partners with us. We have the British working this element. I 
could go on. We've got a lot of different initiatives that are 
out there. They aren't seen right now, they're not visible. We 
tend to spend all of our time talking about one individual or 
one particular case, but, at the end of the day, it's the 
spadework that's going out there steadily, training of civil 
servants, training of law enforcement agencies, things as 
simple as trying to improve procedures.
    The Minister of Finance recently told Secretary Clinton at 
a dinner, very proudly, that he had overseen an effort in Kabul 
to reduce the steps required to get a license for a car from 54 
steps in 1 month to three steps in a couple of hours. That's 
not a headline story in the New York Times, but that probably 
has more to--that will give us bigger results in a fight 
against corruption than one middle-level criminal put behind 
bars.
    So, just steady work.
    Senator Kaufman. General Petraeus, just help me through 
this. We've talked in the past, and Secretary Gates, when he 
was here, talked about how the Taliban reconstituted themselves 
in ungoverned areas. In the strategy we're talking about, we're 
going to be mainly in the populous areas, leaving large swaths 
of Afghanistan without any real involvement. What----
    General Petraeus. But----
    Senator Kaufman. Do we have a----
    General Petraeus. But, the difference is that, of course--
--
    Senator Kaufman. Yes.
    General Petraeus [continuing]. In Afghanistan, we can go 
into those areas. We----
    Senator Kaufman. No, no, I understand. So, is the----
    General Petraeus. We can't keep them disrupted. And, in 
fact, the Taliban really reconstituted as much in remote areas 
of Pakistan as they did actually in Afghanistan. There was a 
great article, by the way, in Newsweek, I think about a month 
about, cover story, that talked about how the Taliban came 
back. And I commend that to you, if your folks haven't shown it 
to you.
    Senator Kaufman. So, the idea would be, concentrate on the 
populated areas, but having forces available to go into the 
less populated areas to dismantle and----
    General Petraeus. That's correct, sir. In fact, we actually 
will be increasing our counterterrorist component of the 
overall strategy, as well. And General McChrystal may want to 
talk to you a little bit about that during the closed session, 
as well.
    But, there's no question, you've got to--again, you've got 
to kill or capture those bad guys that are not reconcilable, 
and we are intending to do that, and we will have additional 
national mission force elements to do that when the spring 
rolls around.
    Senator Kaufman. I ask you and Ambassador Eikenberry, have 
you guys thought about a Strategic Forces Agreement with 
Afghanistan?
    Ambassador Eikenberry. We have an agreement, which covers 
the status of our forces, not formally, called the Status of 
Forces Agreement. And, at this time, Senator, we're comfortable 
with the arrangements that we have.
    Senator Kaufman. Secretary Lew, 388 civilians outside of 
Kabul by the end of the year. I know you talk about a 10 to 1 
ratio, but is that enough, considering the number of forces--
military forces we have, to really implement a COIN strategy?
    Mr. Lew. The people--the civilians that are out there are 
being deployed in a civilian-military plan where--if you look 
at the map, there's two dots at each spot; there's a military 
assignment and there's a civilian assignment. The numbers are 
very different. You put one agricultural specialist in a town 
surrounded by the appropriate Afghan, you know, support, that's 
a program. You don't need a battalion of U.S. agricultural 
experts in a town.
    I think that, with the increased coverage that we will get 
with the additional troops, there will likely be an increase in 
the number of civilians that we need. That's why we're 
referring to--the number is likely to go up in the order of 20 
to 30 percent.
    The goal is to fully resource the civilian requirement so 
that, as we go through the civ-mil plan, we have the right 
number of civilians.
    Ambassador Eikenberry. Senator, if I could add to that, 
just quickly, to give you orders of magnitude, right now in 
part of southern Afghanistan we have five U.S. agricultural 
experts. They, in turn, are creating a network of some 500 
Afghans, who, in turn, are administering an agricultural 
program that, over time, will reach out to tens of thousands of 
farmers. So, it's not necessarily how many, it's how are they 
employed? What effects are they getting? But, as Secretary Lew 
said, I'm certain that, over the next several months, as we 
work with General McChrystal and better analyze the 
implications of his campaign, that we will have to come back 
with a request for additional U.S. civilians to be deployed.
    Senator Kaufman. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Kaufman.
    We thank all of you. We're going to leave the record open 
for--just until the end of the week, in case there are some 
additional questions.
    Senator Wicker did have that last-minute question. Do you 
want to put that on the record now, just so we can honor his 
question and--do you recall it? I thought I saw you writing 
notes at the time.
    Voice. Was it on militias?
    General Petraeus. The question on the militias?
    Voice. Yes.
    General Petraeus. And--I'm not sure if it was the national 
caveats or the militias, actually.
    Ambassador Eikenberry. I thought he had one question----
    General Petraeus. I thought I actually answered that one 
right before he----
    The Chairman. Yes.
    General Petraeus. I thought I answered that when I----
    The Chairman. We're fine. We're fine.
    General Petraeus. Yes, sir.
    The Chairman. And, Senator Kaufman asked the last question. 
I wanted to ask you, Secretary Lew--needless to say, we 
scratched the surface of a lot of these questions, and there 
are a lot remain outstanding. We look forward to meeting with 
General McChrystal, and we'll have a chance to be able to 
follow up on the military side, so I appreciate that.
    And I know, Secretary Lew, you're always available to us, 
so we appreciate it.
    Yes, Ambassador.
    Ambassador Eikenberry. Chairman, I wonder if I could also 
say one--make one other point, here, if we're getting ready to 
close out.
    The Chairman. Please, yes.
    Ambassador Eikenberry. Earlier in the hearing, you said 
there were concerns raised about bureaucracy within the 
Embassy. And I'd be the first to say that we operate in an 
environment right now with our challenges on the ground, with 
the Government of Afghanistan, our allies, the friction of 
bureaucracy that goes with working with our own headquarters. 
We have a surfeit of bureaucracy.
    I would say, though, within the Embassy, that we don't 
create additional impediments out there, in terms of 
bureaucracy. I'd highlight that, over the last 12 months, our 
Embassy strength has increased threefold, sixfold out in the 
field. During the months of August and September, we had a 100-
percent turnover of our Embassy personnel. As General Petraeus 
has said, we have reorganized, not only ourselves out in the 
field, but we had a significant reorganization within the 
Embassy, which brings the interagency teams together 
efficiently and works with our partners in the military in a 
very comprehensive, indeed unprecedented, way.
    I want to emphasize, Chairman, that the leadership that 
we've got in the United States Embassy, starting with the--
starting with my deputy, it's an absolutely superb leadership, 
the very best in the world. It goes down to sections, down to 
the last staff person. So, if there are concerns about 
bureaucracy, I'd welcome the opportunity, of course offline, to 
talk to anybody that has those concerns.
    The Chairman. Well, that's fair. And I'm sure--there, I 
think, are some concerns, but I think it's an important thing 
to work through.
    The key here, needless to say, is going to be the ability 
of these folks out in the hinterland to do their jobs, and 
that's going to depend on the local security, local leadership, 
politically partnering, so to speak. It's a tall task, which, 
again, I repeat, will be so positively impacted by getting 
something going in the western part of Pakistan. That'll make 
the job so much easier.
    So, that said, we are very, very grateful to you. Thank 
you, again, each of you, for your service, which is exemplary. 
And we look forward to seeing you along the trail here.
    We stand adjourned.
    [Whereupon, at 12:38 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


       Responses of GEN David Petraeus to Questions Submitted by
                         Senator John F. Kerry

    Question. While the President committed an additional 30,000 troops 
to Afghanistan, his West Point speech noticeably did not mention the 
word ``counterinsurgency'' once. The closest the speech came to 
mentioning COIN was a statement that additional troops will ``target 
the insurgency and secure key population centers,'' although the brief 
timeframe of the surge stands in direct contrast to standard COIN 
doctrine which deploys troops for years, not months. While the 
administration appears to have backtracked away from a COIN approach, 
General McChrystal is still describing the strategy in those terms.

  <bullet> Are we still pursuing a COIN strategy in Afghanistan?

    Answer. The situation in Afghanistan is complex and requires a 
comprehensive strategy. A COIN strategy is an element of our strategy 
in Afghanistan, but since the population is the key objective, more 
than COIN is required. This comprehensive strategy includes protecting 
the population from insurgents while expanding government services 
throughout the country, building infrastructure that aids the 
Afghanistan population, and expanding and training the Afghanistan 
National Security Force and Afghanistan National Police.

    Question. The key question isn't the number of troops, it's how 
they're used: It's one thing to reinforce our current forces in order 
to fulfill promises we've already made--but it's quite another thing to 
escalate the conflict by making new commitments that will require years 
of followthrough. Shortly after returning from Kabul in October, I 
suggested that any deployment of troops to clear an area we don't 
currently control should be premised on three conditions that we have a 
sufficient number of reliable ANSF, we can partner with local leaders, 
and the civilian side can move in to build.

  <bullet> Will we proceed with a geographic expansion of our footprint 
        before such conditions are met? Where will the new troops be 
        deployed? What will their mission be?

    Answer. U.S. and coalition forces continue to pursue a clear, hold, 
build, and transfer strategy in Afghanistan. As forces become available 
in theatre, we will expand our geographic footprint while 
simultaneously partnering with Afghanistan National Security Force 
units, local leaders, and the civilian population. In order to build, 
we must be able to provide security for the population and to the 
forces conducting the build. New troops will be deployed to all areas 
of Afghanistan in accordance with this strategy. Their mission will be 
to protect the population from insurgents, partner with Afghan units, 
and conduct counterinsurgency operations.

    Question. Last week, Secretary Gates said the administration would 
evaluate conditions in December 2010 in deciding how to drawdown troops 
starting in July 2011.

  <bullet> What benchmarks will the administration use to evaluate the 
        success of the strategy? How will we know the tide has turned?

    Answer. In December 2010, success will be judged, in part, on 
demonstrating progress in: (1) expanding security to 30-36 percent of 
the population in key areas through effective COIN operations; (2) 
building an increasingly capable and self-sufficient ANSF, on track to 
a total strength of approximately 305K by 31 October 2011 with a 
majority of fielded forces capable of planning and executing 
independent or partnered operations; and (3) instituting Afghan 
Government capacity to provide for basic services, rule of law, and 
economic opportunity to an expanding percent of the population in key 
areas. Key indicators that will inform when the ``tide has turned'' are 
the decrease in violence, kinetic activity and number of civilian 
casualties. Correspondingly, we will see an increase in the number of 
districts with favorably rated governance, development, and security 
conditions outnumbering those rated poorly; the ANSF will have a 
permanent and effective presence in the designated key areas and major 
population centers; effective and enduring government control and 
services will be established in key areas and major population centers; 
and the majority of Afghan people will recognize GIRoA as a culturally 
and ideological acceptable government.

    Question. Our efforts to train the Afghan National Security Forces 
over the past 8 years have had mixed results at best. About a third of 
the army battalions are judged capable of operating independently and 
the figure is far lower for the police.

  <bullet> Given the very real challenges of training the Afghans, and 
        some of the structural weaknesses in their command structures, 
        can you please outline the concrete steps that will be taken to 
        stand up credible Afghan forces over the next 18 months?
  <bullet> What is a realistic goal for how many Afghan soldiers we can 
        train in a year? What are the barriers to reaching those goals? 
        How many Afghan brigades are now capable of operating on their 
        own and taking control of a real fight? The police lag far 
        behind in training. Is it realistic to include them in the 
        equation?

    Answer. For Afghan National Army, the capacity to train and mentor 
soldiers has been expanded to increase the force to 134K soldiers for 
October 2010 and 171.6K soldiers for October 2011. We are less than 
40,000 from the goal for 2010. We currently have the training capacity 
to train 73K soldiers annually in basic warrior training skills. We are 
making some progress in holding the Afghan leadership accountable. 
Coalition units are partnering and mentoring with their ANSF 
counterparts to ensure continuous training. Afghan soldiers are 
participating in missions with coalition forces all over Afghanistan. 
There are currently 29 Afghan National Army Battalions capable of 
conducting operations on their own. There has been significant progress 
in assisting the Afghans developing personnel management systems and 
they have begun moving toward merit-based selections and promotions. 
This is evidenced by the first central selection board for senior 
noncommissioned officers. To reach the Army goals, we need to work on 
getting the right leaders in the right place; filling the requirements 
for Afghan trainers; moving both the personnel and logistic system 
forward. Finally, the Afghans must continue to make recruiting numbers, 
during the spring and summer time periods, which have historically been 
a difficult recruiting period.
    For Afghan National Police, the capacity to train and mentor police 
is being expanded to increase the force to 109K police for October 2010 
and 134K police for October 2011. The Minister of Interior and NTM-A/
CSTC-A are working now to create two very important units: the Afghan 
National Police Training Command and the Afghan National Police 
Recruiting Command. These two organizations will directly increase the 
training level of the Afghan National Police (ANP). The Police Training 
sites have capacity to train 28,700 students in 2010. Only the Afghan 
National Civil Order Police (ANCOP) is task organized in Brigades. All 
four ANCOP Brigades are fully trained and fielded. The Afghan Uniformed 
Police (AUP) is organized into Districts and in some cases Precincts. 
The ANP is fully engaged in fighting the insurgency. Current operations 
involving coalition forces could not happen without ANP support. NTM-A/
CSTC-A fully includes the ANP as a critical force in planning the 
future development and growth of the Afghan National Security Forces.
                                 ______
                                 

     Responses of Ambassador Karl Eikenberry to Questions Submitted
                  for the Record by Senator John Kerry

    Question. A key feature that enabled the success of the ``surge'' 
in Iraq was near-seamless civil-military cooperation under Ambassador 
Crocker and General Petraeus. Their unusually close personal 
collaboration was backed by a joint civil-military campaign plan that 
enumerated the roles and responsibilities of the military and civilian 
efforts there. In Afghanistan, 8 years into the war effort, civilian 
efforts to improve governance and stimulate the Afghan economy are not 
fully coordinated or resourced.

  <bullet> Does the administration support an international civilian 
        coordinator for Afghanistan? Why or why not?
  <bullet> Does the United Nations in Afghanistan (UNAMA) have the 
        capacity and credibility to exercise sufficient leadership over 
        international donors?
  <bullet> In November, the United Nations temporarily relocated about 
        600 of its 1,100 international staff for security reasons. How 
        is this affecting our civilian operations?

    Answer. To date, UNAMA has suffered from insufficient staff and 
resources, which have prevented it from fulfilling its mandate as the 
international lead for civilian assistance coordination. There is broad 
consensus in the international community on the need to improve 
civilian assistance coordination. This requires strengthening UNAMA's 
ability to perform this task. To that end, the administration supports 
UNAMA continuing in its international civilian assistance coordination 
role, with a clear mandate and a strong Special Representative of the 
Secretary General (SRSG). We intend to support the request from the 
SRSG that the international community supply his office with experts in 
priority areas to help ensure the SRSG has a secretariat capable of 
following up on coordination efforts. By strengthening UNAMA centrally 
and in the provinces, coordination of civilian assistance should 
improve at the national and subnational levels, between the 
international donors, and between the donors and the Afghan Government.
    UNAMA's ability to fulfill its mandate will be determined in part 
by the security situation in Afghanistan. We support ongoing efforts by 
the U.N. to improve the security of UNAMA personnel in the wake of the 
October 2009 guesthouse attack. We also support an expanded UNAMA 
presence in the provinces. Eight regional and 12 provincial UNAMA 
offices are currently operational, and three additional provincial 
offices are expected to open soon. We understand that UNAMA is 
considering adding new civilian positions in the near future--many of 
them in the provinces. This will greatly enhance UNAMA's ability to 
observe and coordinate civilian assistance in the field.
    We continue to work closely with UNAMA officials. Our civilian 
assistance efforts have been largely unaffected by the U.N.'s decision 
to temporarily relocate UNAMA personnel.

    Question. Director of National Intelligence Dennis Blair warned in 
congressional testimony on March 10, 2009, that growing challenges to 
Central Asia's stability ultimately ``could threaten the security of 
critical U.S. and NATO lines of communication to Afghanistan through 
Central Asia.'' He stated that the ``highly personalized politics, weak 
institutions, and growing inequalities'' in the Central Asian countries 
make them ``ill-equipped to deal with the challenges posed by Islamic 
violent extremism, poor economic development, and problems associated 
with energy, water, and food distribution.''
    Please describe the level of coordination and cooperation between 
Embassy Kabul and our U.S. Embassies in Central Asia. Who in Embassy 
Kabul is responsible for coordination with our Central Asian Embassies 
on Afghanistan policy? What are Embassy Kabul's biggest priorities in 
northern Afghanistan, and how does the Embassy view cooperation from 
the Central Asian states?

    Answer. Cooperation and coordination between our Embassies in the 
region happens routinely, at working and senior levels. The contacts 
facilitate cooperation between Afghanistan and its neighbors on 
security issues, political dialogue, and economic cooperation. Inter-
Embassy coordination and cooperation occurs primarily between our 
Political and Economic Sections, and INL; in addition, our Political-
Military Sections maintain close contact.
    In northern Afghanistan, we are focused on working with the 
Government of Afghanistan and other partners to improve security, 
foster national unity, and expand economic opportunities, especially in 
agriculture and related activities. The opening in 2010 of the new U.S. 
Consulate in Mazar-e-Sharif sends a powerful signal of our enduring 
commitment to Afghanistan. Officers working out of our consulate will 
facilitate coordination of a comprehensive approach to the North and 
drive resources to key areas, conduct outreach, and partner with Afghan 
ministries.
    We are grateful to all the Central Asian states for contributing to 
coalition efforts in Afghanistan. Their significant assistance ranges 
from supplying much-needed electricity to Kabul, to providing food and 
medicine, to building schools and hospitals. We also rely on all our 
Central Asian partners to move coalition military supplies through the 
region into Afghanistan. There is great potential for the expansion of 
the existing Northern Distribution Network to improve transportation 
infrastructure and stimulate trade routes connecting Central to South 
Asia, which will have a lasting, beneficial economic impact for the 
region. This will also reduce our reliance on the more risky Pakistani 
ground line of communication where convoys are attacked by militants.
                                 ______
                                 

   Responses of Deputy Secretary James Lew to Questions Submitted by
                         Senator John F. Kerry

    Question. Success in Afghanistan depends largely on what happens in 
Pakistan, particularly in the west. At West Point, the President said, 
``In the past, we too often defined our relationship with Pakistan 
narrowly. Those days are over.'' Presumably, he was referring to a 
transactional relationship dominated by military aid: for that reason, 
Congress has authorized $7.5 billion in nonmilitary aid over the next 5 
years. During her testimony before the Senate Foreign Relations 
Committee on December 3, 2009, Secretary Clinton said the 
administration fully supported S. 1707, the Kerry-Lugar-Berman bill on 
Pakistan and would seek full funding.

  <bullet> Please explain why the administration requested less than 
        $1.5 billion for FY 2010 for civilian assistance for Pakistan 
        as authorized by S. 1707, the Enhanced Partnership with 
        Pakistan Act. Why did the administration not seek a budget 
        amendment increasing its FY 2010 request for civilian 
        assistance for Pakistan to levels set forth in S. 1707? Will 
        the administration seek further funding for civilian assistance 
        for Pakistan--excluding Foreign Military Financing (FMF) and 
        International Military Education and Training (IMET) in a 
        supplemental bill, and if so, how much?
  <bullet> How will the administration leverage the Kerry-Lugar-Berman 
        bill to build greater trust with Pakistanis, especially if 
        funding levels for civilian assistance (excluding security 
        assistance) are lower than the authorized levels of $1.5 
        billion per fiscal year?

    Answer. The President's request for foreign assistance in the FY 
2010 budget included $1.3 billion for nonmilitary assistance to 
Pakistan, of which Congress appropriated $1.2 billion. With available 
funds from FY 2009 and the FY 2010 appropriation, we are on the path 
toward funding our foreign assistance programs in Pakistan at Kerry-
Lugar-Berman levels. We will continue a conversation within the 
administration and with Congress concerning FY 2010 funding as we work 
closely with the Government of Pakistan to expand existing programs, 
work more closely with Pakistani partners to implement programs, help 
the government provide basic services to the Pakistani people, 
particularly in vulnerable areas, and identify high impact, high 
visibility projects.
    As outlined in the December 14 report to Congress on the 
administration's strategy for civilian assistance to Pakistan, U.S. 
assistance will be used to establish greater trust with Pakistan in 
several ways.

  <bullet> First, U.S. assistance will fund investments in Pakistan's 
        economic infrastructure, particularly in energy and 
        agriculture, to reinforce Pakistan's efforts to address chronic 
        energy and water shortfalls, improve the daily lives of the 
        Pakistani people, and increase opportunities for economic 
        growth. These high impact, high visibility programs will be 
        tied to a strong communications strategy to demonstrate to the 
        Pakistani people that the United States has a long-term 
        commitment to help bring stability and prosperity to Pakistan.
  <bullet> Second, U.S. assistance will continue to help the Government 
        of Pakistan improve services to poor and vulnerable 
        communities, which extremists often target for recruitment and 
        to build popular support for their causes. This effort will 
        help achieve U.S. and Pakistani mutual interests of building 
        Pakistani stability by increasing access to health, education, 
        infrastructure and rule of law for Pakistanis, and building the 
        Pakistani people's trust in their government.
  <bullet> Third, the United States, together with other donors, will 
        invest more heavily in technical assistance to the Pakistani 
        executive, legislative, and judicial branches to strengthen the 
        Pakistani Government's capacity to achieve economic and 
        political reforms that will bolster Pakistan's future 
        stability.
  <bullet> Finally, by providing more U.S. assistance through 
        accountable Pakistani institutions at the national, provincial, 
        and local levels to implement Pakistani-identified priority 
        programs, U.S. assistance will enhance Pakistanis' stake in the 
        long-term sustainability of programs funded by international 
        assistance. Through this effort, the United States, and other 
        donors will help Pakistan develop accountable and transparent 
        resource management structures that will lead to greater trust 
        between Pakistan and the United States.

    Question. Since 2001, the United States has spent over $20 billion 
dollars on development and humanitarian aid to Afghanistan. Today, only 
a fraction of that money--roughly 10 percent--goes directly to the 
Afghan Government, even though we have identified some competent line 
ministries and decent governors at the federal and provincial levels. 
While corruption and limited capacity within the Afghan Government are 
huge problems, the international community is hardly free of blame. 
Many Afghans see Western consultants drawing hefty salaries and riding 
around in SUVs, and they draw the conclusion that too much of the 
development aid is geared toward the development industry itself.
    By directly funding capable Afghan ministries or governors (in 
those cases where they can be found), we could help build the basic 
capacity of the government to function and thereby empower it. We could 
also create powerful incentives for competent Afghans to work with us 
because they can see the rewards.

  <bullet> Do we have a specific, concrete plan to transfer a larger 
        percentage of U.S. funding to the capable Afghan Government 
        entities as a way to better leverage U.S. assistance, build the 
        basic capacity of the government, and create incentives to 
        partner with us?

    Answer. We are committed to transferring a larger percentage of 
assistance and responsibility to capable Afghan Government entities. 
The effort emphasizes Afghan leadership and Afghan skill-building 
efforts at all levels. Direct assistance enables the Afghan Government 
to deliver services and to build the trust of its people. As part of 
our effort to support the Afghan Government's ability to deliver 
services for the Afghan people, USAID is reviewing the financial, 
management, procurement and expenditure systems of key ministries 
regarding their capacity to accept U.S. direct assistance. Assessments 
(financial and procurement) are conducted for ministries that USAID 
intends to fund with direct assistance. If the assessments determine 
that the management, procurement, financial, and expenditure systems 
can be certified as accountable, the USAID mission in Afghanistan will 
certify the ministry as having the capacity to accept direct funding. 
If the assessments determine that additional specific technical 
assistance is required, USAID will provide it. As of December 2009, the 
Ministries of Public Health; Communications and Information Technology; 
and Finance have been assessed and certified to directly accept U.S. 
Government funds. USAID is planning to conduct assessments on the 
Ministries of Education; Agriculture, Irrigation and Livestock; and 
Rural Rehabilitation and Development.
    The USG is implementing a three-pronged approach to channel more 
funds directly through the Afghan Government: (1) Afghanistan 
Reconstruction Trust Fund (ARTF); (2) Host Country Contracts; and (3) 
Direct Budget Support in partnership with the Afghan Government and the 
international community. The goal is to move from 12 percent provided 
through direct assistance in FY 2009 to around 40 percent in FY 2011, 
more than tripling the percentage of direct assistance in 3 years, 
while concurrently putting into place mechanisms for countering 
corruption and increasing accountability.

    Question. Can you please provide specific staffing and resource 
figures related to the increase in civilians in support of the 
administration's Afghanistan strategy? In particular:

  <bullet> a. Ambassador Holbrooke and the State Department have 
        announced that the number of civilians in Afghanistan would be 
        at 974 by the end of the year. As of October 2009 it was 
        reported that 575 civilians were on the ground. Is the USG on 
        track to reach 974 civilians in Afghanistan by the end of the 
        year? If not, by what date?
  <bullet> b. How many civilians are currently operating in 
        Afghanistan? Please provide a breakdown by department and 
        agency of the number of staff from each department and agency 
        currently deployed as part of the civilian effort in 
        Afghanistan.
  <bullet> c. What number of civilians beyond the 974-person level is 
        the administration planning to send to Afghanistan in support 
        of the broader strategy in 2010? What is the timeframe for this 
        increase?
  <bullet> d. From which departments and agencies does the 
        administration anticipate the additional staff will come from?
  <bullet> e. Where will State and USAID find additional staff to 
        support the further civilian increase? What programs or 
        activities in other countries will have to be minimized or 
        reduced in order to allow for the increase in civilians?
  <bullet> f. Of the posts in Afghanistan that were originally intended 
        to be staffed by civilians, are any actually being staffed by 
        military Reservists instead?

    Answer.

    a. We started with less than 320 civilians on the ground in January 
2009. We will have 920 civilians on the ground by the end of January. 
Those not already there have fixed start dates, and we have identified 
individuals who are in final clearance or training for all but a small 
handful of the remaining positions.

    b. Our Government civilian presence in Afghanistan is being staffed 
by 8 different agencies: State, USAID, USDA, DHS, Justice, Treasury, 
Transportation, and HHS. In July 2009, the Deputies' Committee approved 
the target of 974 direct hire positions which break down as follows: 
State--423; USAID--333; USDA--64; DHS--11; Justice--128; Treasury--8; 
Transportation--2; HHS--2. By the end of February, we will have 920 
civilians on the ground, with the remainder of the 974 to follow soon 
thereafter.

    c. Following decisions taken in the strategic review, we anticipate 
moving toward a larger civilian force of well over 1,000 during the 
course of 2010--timely funding permitting. We are working with post now 
to elaborate timing and positions needed. As we deploy our personnel to 
the field, we are focusing on ensuring that they have the mobility and 
security that they need to be effective, on our military platforms and 
coalition PRTs.

    d. We anticipate that the additional staffing request will be 
largely for field positions and will be primarily staffed by State, 
USAID, and USDA.

    e. We do not anticipate minimizing or reducing programs or 
activities in other countries to staff the additional increase. Many of 
the field positions will be filled with temporary direct hire employees 
(3,161 employees for State and Foreign Service Limited and Personal 
Service Contract employees for USAID).

    f. We have not yet deployed any military Reservists to fill 
civilian positions in Afghanistan.
                                 ______
                                 

  Response of Deputy Secretary of State James Lew and Ambassador Karl 
       Eikenberry to Question Submitted by Senator John F. Kerry

    Question. Secretary Lew's written testimony states that the 
administration intends to triple the number of civilians to 974 by 
early next year.

  <bullet> Even with this surge, we'd still have fewer than U.S. 1,000 
        civilians compared with American 100,000 troops. Is that ratio 
        1 civilian per 100 troops--truly sufficient when both General 
        Petraeus and General McChrystal assert that a civilian pillar 
        is of equal importance to the military pillar for any 
        successful strategy?
  <bullet> The number of civilians actually deployed on the ground, 
        outside the Embassy compound, will certainly be far fewer than 
        1,000. Ambassador Eikenberry testified that fewer than 400 will 
        be posted outside of Kabul early next year. What sort of impact 
        can 400 U.S. civilians make in changing the governance of a 
        nation of 30 million?

    Answer. Although the absolute number of civilians deployed is much 
lower than the number of troops, we have found that on average each 
civilian leverages 10 partners, ranging from locally employed staff to 
experts with U.S.-funded NGOs to military staff. We also expect that as 
our troop levels increase and our civilian presence expands into the 
provinces and districts, we will need to increase our civilian 
personnel as well, perhaps by another 20 to 30 percent.
    Civilian experts come from a range of U.S. Government departments 
and agencies and bring specific expertise. They contribute to the 
mission in Kabul and increasingly out in the field--at the beginning of 
2009, there were only 67 U.S. Government civilian personnel deployed in 
the field working on development and governance issues. As of January 
5, 311 civilians are working beyond Kabul, including civilians from the 
State Department, USAID, USDA, DEA, FBI, DHS, and DOJ. We are 
concentrating our efforts in the East and South, where a majority of 
U.S. combat forces are operating and many of the additional 30,000 
forces announced by President Obama will deploy. Our civilians are 
partnering with Afghans to enhance the capacity of key government 
institutions at the national and subnational levels, and are helping 
rehabilitate Afghanistan's key economic sectors.
    As you know, since announcing our strategy in March 2009, we have 
embarked on an extensive transformation of U.S. civilian assistance 
activities in Afghanistan. The result is a more focused and effective 
effort increasingly implemented and overseen by Afghans, more tightly 
bound to our civilian-military strategy in Afghanistan, and with the 
dual-benefit of helping the Afghan people while also directly 
contributing to achieving our core goal of defeating al-Qaeda.
    One example of this is our new approach to agriculture in 
Afghanistan. Our agricultural assistance strategy brings greater 
coherency to the U.S. efforts through a whole-of-government approach 
that supports Afghanistan in the redevelopment of its agricultural 
sector. A key guiding principle of this strategy and its implementation 
is that it supports the plans and objectives of the Ministry of 
Agriculture, especially in achieving effects felt at the district 
level. Our agriculture assistance strategy, developed with the 
Ministry, will serve as the chief tool in helping us identify where 
resources are needed and how they might be best applied.
    We are continuing to enlist top-quality people to assist Afghans in 
developing and securing their country. Alongside our diplomats and 
military servicemembers, there are lawyers, agriculture specialists, 
economists, law enforcement officers, and others serving in 
Afghanistan.
                                 ______
                                 

       Responses of GEN David Petraeus to Questions Submitted by
                        Senator Richard G. Lugar

                         coordination with dod
    Question. DOD has increasingly taken on expanded development roles 
in Afghanistan, including in agriculture and business development, 
police training, and capacity-building within main ministries. Is DOD 
acting in coordination with the Embassy country team on matters 
relating to diplomacy, development and capacity building? When was the 
Embassy informed of the assignment of several DOD civilian mentors to 
Afghan ministries? What authorities and resources will improve civilian 
agency capacity to maintain effective engagement with DOD in the 
dynamic counterinsurgency realm? If U.S. military forces will begin 
departing the country in as soon as 18 months, and many 
responsibilities are assumed by DOD, who will manage the programs and 
sectors that DOD has been managing upon their departure? How will USG 
ensure an effective transition plan is developed and implemented?

    Answer. This question is best answered by Ambassador Eikenberry.
                security sector reform--police training
    Question. There have been challenges in training and mentoring the 
Afghan National Police that have survived three distinct Security 
Sector Reform organizations and now confront the latest reorganization 
of our training effort entitled ``NATO Training Mission-Afghanistan'' 
(NTM-A). What are the primary changes in the training to be 
incorporated in the Afghan National Police curriculum that will 
distinguish it from the past 3 reorganizations? Why is the 
International Narcotics and Law Enforcement (INL) Bureau at State being 
removed from its important role as a partner with DOD in police 
training? What agency will be responsible for Afghan National Police 
training? How will the U.S. monitor and evaluate NATO multilateral 
police training? What are the education standards for police officer 
recruitment? What goals have been established to achieve basic literacy 
among recruits?

    Answer. Afghan National Police curriculum changes include 
incorporation of practical lessons learned and embedded performance 
standards measured by practical testing. In addition, NTM-A, working 
with the Minister of Interior, will add more leader training, improved 
``Train the Trainer'' courses, and senior leadership courses. In 
addition, the instructor/candidate ratio will be increased with the 
addition of international police trainers (Carabinieri, French 
Gendarmerie and European Gendarmerie Force) with a wide range of 
skills. INL Bureau will remain a partner, specifically controlling and 
delivering Justice Sector Support Program and Corrections System 
Support Program. Commander Training Assistance Group-Police, for NTM-A, 
will coordinate the entire police training initiative from a 
multinational perspective and thereby be better positioned to influence 
the variety of bilateral and international contributions throughout the 
Afghan police training environment. The Minister of Interior, with NTM-
A assistance, will be responsible for Afghan police training. NTM-A 
will provide advisors, mentors, and trainers to support this effort. 
NTM-A will maintain constant contact with all training agencies. The 
training will be monitored and evaluated by NTM-A's Combined Training 
Advisory Group-Police. Frequent visits and assessments will be the 
primary mechanism to collect metrics. The education standard is being 
literate in one of the Afghan languages. Recruits not meeting minimum 
standards are enrolled in training to bring them up to minimum 
standards. Recruits are enrolled in training to teach them the basic 
skills they will need to perform their duties. If recruits do not show 
improvement after a period of training, they are replaced with a new 
recruit.
                                 ______
                                 

   Responses of Ambassador Karl Eikenberry to Questions Submitted by 
                         Senator Richard Lugar

    Question. The position of the Senior Civilian Representative 
colocated with the Regional Command military headquarters is a new 
construct in Afghanistan. There are also additional civilian 
representatives assigned to smaller units such as PRTs and DRTs within 
each region.

  <bullet> What is the structure and what is the timeline for 
        establishing these elements within each RC?
  <bullet> What resources and authorities are available to the Senior 
        Civilian Representatives assigned to the Regional Commands?
  <bullet> How is this structure intended to coordinate with the 
        Embassy, the military, the local and regional Afghan 
        authorities, Afghan civil society, and NGO/Contractor partners?
  <bullet> What role will USAID play at all levels of the Regional 
        Commands?
  <bullet> How will the Office of Transition Initiatives efforts be 
        coordinated and leveraged within the Regional Command 
        structure?

    Answer. Senior Civilian Representatives (SCRs) are in place at all 
Regional Commands.
    The SCRs report directly to the Embassy's Interagency Sub-National 
Program Coordinator, and through him to Ambassador Tony Wayne, the 
Coordinating Director of Development Assistance and Economic Affairs. 
The SCR positions are at the Minister Counselor level, and they 
coordinate and direct the work of all U.S. Government civilians under 
Chief of Mission authority within their area of responsibility. They 
ensure coherence of political direction and developmental efforts, and 
execute U.S. policy and guidance. The SCR also serves as the U.S. 
civilian counterpart to the military commander in the Regional Command, 
to senior coalition civilians, and to senior local Afghan Government 
officials. The SCRs also oversee subnational civilian staff engagement 
in USG planning, assessment, program execution and evaluation, direct 
analytical reporting and activities in the RC across all lines of 
effort, engage with Afghan Government officials, international partners 
and PRT-contributing countries to improve collaboration at all levels, 
and contribute input to USAID priorities implemented through the USAID 
Regional Program Platform. The SCR also provides foreign policy 
guidance and advice about the region to the military commander, and 
receive security advice from the commander.
    Each SCR is supported at the Regional Command level by a team of 
roughly
10-30 personnel under Chief of Mission authority, including policy, 
development, and administrative support from several agencies, 
including USAID, USDA, U.S. law enforcement and other agencies. The 
USAID Regional Program Platforms, comprised of technical experts from 
each of USAID's sectoral offices, will be led by a USAID Senior Foreign 
Service officer, who serves as the Senior Development officer and 
supports the SCR. In RC-South, personnel supporting the SCR include a 
sub-set of officers assigned to the RC-S Civilian-Military Integration 
Cell and the Counternarcotics Joint Interagency Task Force (CJIATF), to 
connect these multinational structures working for the RC-S Commander 
to Embassy senior leadership. In RC-E, civilian staff participate in 
relevant planning boards and fusion cells to enhance our integrated 
civilian-military effort.
    The creation of the SCR positions has enabled civilian agencies to 
devolve more decisionmaking authority to the field, and enabled 
civilians to more quickly tailor programs to the counterinsurgency 
challenges of each specific environment. The SCR leads the interagency 
team to define and set priorities, and supervises team efforts to 
monitor and report program effects. The SCR can elicit and provide 
feedback into the development programs through the Senior Development 
officer. The Senior Development officer is authorized to manage the 
USAID program portfolio through the USAID Automated Directives System 
(ADS).
    Outside the RCs, lead U.S. Government civilian representatives are 
identified for each operational level in the field, down to the 
District Support Team level, to promote increased responsiveness and 
accountability for U.S. policy implementation. The selection of a State 
Department, USAID, or other agency lead depends on the relative 
experience of the agency representatives and on the operating 
environment in each specific location.
    USAID's Office of Transition Initiatives (OTI) has embedded OTI 
Deputy Country Representatives, Monitoring and Information Officers, 
and regionally based response/surge staff at the RC-East and RC-South 
headquarters to coordinate efforts throughout the chain of command. OTI 
staff are part of the SCR's team in each regional platform. OTI has 
devolved authority to Deputy Country Representatives to design 
regionally/context-specific approaches to stability programming. In 
this way, OTI activities are better integrated into short-term military 
planning, and can be changed quickly to respond to new priorities as 
they arise. Additionally, lessons learned from the field regarding 
stability programming are coordinated through the Regional Commands to 
higher level headquarters. The OTI representatives at
the regional platforms work within integrated CIV-MIL teams responsible 
for making sure stabilization activities are coordinated and aligned 
with USG strategic guidance.
    At the district level, OTI field representatives are primarily 
embedded with maneuver units on Forward Operating Bases and Combat 
Outposts, where they work collaboratively and in strict coordination 
with the other USG agencies active in the district.
    All OTI activities are coordinated up the chain through the lead 
Civilian Representatives at each operational level, from the District 
Support Teams on up to the Provincial Reconstruction Teams, and 
ultimately to the Task Force and Regional Command Headquarters levels.

    Question. The President's strategy in Afghanistan calls for both 
military and civilian activities to stabilize and rebuild the country's 
economy. A formal Civilian-Military Campaign Plan was created to direct 
U.S. efforts and has had a positive effect on the coordination of 
normally stove-piped efforts of USG agencies.

  <bullet> How is the Civil Military Campaign Plan organized for review 
        and, if necessary, amended?
  <bullet> Who will serve as the arbiter on contentious interagency 
        issues, including military issues?
  <bullet> With regard to the coordination of civilian and military 
        development activities, what is the chain of command among the 
        numerous agencies engaged in some aspect of development?
  <bullet> How are DOD reconstruction activities, such as those of the 
        Agribusiness Development Teams, integrated with those of 
        civilian agencies?
  <bullet> What is the role of Ambassador Tony Wayne with regard to DOD 
        development activities?

    Answer. The USG assesses progress on its operations in Afghanistan 
via a quarterly interagency metrics review conducted by the Embassy, 
ISAF and USFOR-A and submitted to the NSC. The assessment has two 
purposes: (1) To provide decisionmakers in Afghanistan with the 
necessary information to prioritize and direct allocation of resources 
within the framework of the Civilian-Military Plan, and (2) to inform 
Washington decisionmaking through integrated reporting. Quarterly 
stakeholder meetings identify where progress has been made or setbacks 
have been encountered, where opportunities and obstacles exist, and how 
policy, activities, planning and resourcing should be adjusted.
    The 14 National-Level Working Groups that were created under the 
Integrated Civ-Mil Campaign Plan (ICMCP) and work to address various 
aspects of Afghanistan's reconstruction all fall under the 
responsibility of Ambassador Wayne and report through him to Ambassador 
Eikenberry. Each of these working groups includes representatives from 
the military and civilian elements engaged in the particular issues, 
such as infrastructure development, agriculture, or rule of law. Some 
working groups have only USG civilian and military representatives, but 
others--such as the Border Issues Working Group--have numerous 
representatives from the donor community and involve Afghan Government 
officials, while the U.K. cochairs the Counter Narcotics Working Group 
because of their important contributions in that area. Civ-mil teams in 
the ISAF regional commands have also been coordinating their strategies 
and activities via similar mechanisms.
    Ambassador Wayne maintains oversight over and close engagement with 
the working groups and the leadership of the agencies that are part of 
those groups. As the Embassy cochair, with ISAF Brigadier General 
McKenzie of the Executive Working Group (EWG), Ambassador Wayne takes 
strong interest in their activities to strengthen coordination and 
ensure progress. He and Brigadier General McKenzie conducted a review 
of the activities of the 14 civ-mil groups at the NLWG Shura in 
November 2009. The EWG also feeds information and issues into the 
agenda for weekly meetings between Ambassador Eikenberry and General 
McChrystal. Ambassador Wayne and Brigadier General McKenzie collaborate 
closely to resolve interagency differences and, as appropriate, raise 
them with Ambassador Eikenberry and General McChrystal for joint 
resolution.
    The U.S. Army National Guard Agribusiness Development Teams (ADTs) 
in Afghanistan have been active in generating agricultural activity in 
RC-East, particularly in areas of small-scale agricultural production. 
ADTs are stand-alone operations that are not physically linked to the 
neighboring Provincial Reconstruction Teams (PRT). When an ADT and a 
PRT are operating in the same vicinity, the ADT tends to replace the 
need for agricultural advisors at the local PRT, while the PRT tends to 
focus on nonagricultural aspects of subnational engagement. With the 
recent increase of agricultural advisors, however, civilian 
agricultural experts from USDA have been working closely with ADTs in 
an effort to increase civ-mil collaboration in agricultural projects in 
the field. Civilian agricultural experts continue to be placed at PRTs 
around the country where ADTs do not already have a presence.
    Embassy Kabul and CENTCOM have been examining how to migrate the 
agricultural development activities of the ADTs to the civilian PRTs as 
the Army National Guard ADT units decrease over the next 24 to 30 
months. A workshop in Kabul in late January with strategic planners 
from CENTCOM, and representatives from USDA, USAID, ISAF, and the Army 
National Guard laid out the road ahead for the transition from military 
to civilian agricultural program implementation in the field.
    As far as DOD development activities are concerned, the Commanders 
Emergency Response Program (CERP) remains an important tool for 
advancing U.S. counterinsurgency strategy and development goals in 
Afghanistan. USFOR-A and USAID coordinate all CERP infrastructure 
(usually transport) projects. Proposed projects undergo a vetting 
process that includes buy-in at the local and community/ministry level. 
Civil-military collaboration occurs at the Regional Platform, PRT, 
District Support Team (DST) or Forward Operating Base (FOB) level, 
depending on the location and size of the potential undertaking. A 
USAID representative is a voting member of the USFOR-A CERP Board in 
Kabul. This ensures a civilian/development perspective and that CERP 
activities complement those of USAID. National Level Working Groups 
occasionally discuss larger CERP projects where Chief of Mission and 
USFOR-A interests converge. Projects exceeding $1 million must be 
authorized by CENTCOM.

    Question. DOD has increasingly taken on expanded development roles 
in Afghanistan, including in agriculture and business development, 
police training, and capacity-building within main ministries.

  <bullet> Is DOD acting in coordination with the Embassy country team 
        on matters relating to diplomacy, development, and capacity-
        building?

    Answer. Civil-military cooperation and coordination is a key 
priority for me--a priority also shared by General McChrystal. We meet 
formally and informally throughout the week to ensure that our 
organizations are aligned and in synch. The Embassy country team 
coordinates with DOD and NATO's International Security Assistance Force 
(ISAF) through a variety of mechanisms. The Embassy and ISAF 
established structures and processes this past year designed around 
civ-mil integration and based on the Integrated Civil-Military Campaign 
Plan I signed with General McChrystal this summer. National-level 
working groups have been formed around our most important lines of 
effort. These groups are cochaired by Embassy and coalition military 
personnel and report to an interagency Executive Working Group. The 
Embassy has placed a liaison officer at ISAF Joint Command (IJC) to 
better synchronize our efforts in the field. A U.S. Forces-Afghanistan 
liaison office represents the military in the Embassy and is involved 
in all aspects of the Embassy's operations and activities. This liaison 
office is headed by a USAF brigadier general who has direct access to 
me and the Embassy leadership. Individual DOD personnel are assigned to 
key Embassy sections to further enhance civ-mil integration and 
cooperation. In matters of diplomacy, the Embassy has the lead with 
respect to the U.S. Government in Afghanistan--a role fully 
acknowledged and accepted by General McChrystal.

    Question. When was the Embassy informed of the assignment of 
several DOD civilian mentors to Afghan ministries?

    Answer. For quite some time there have been U.S. military advisors 
in the security-related ministries. We recently learned of plans by our 
military colleagues also to place some advisors, either military or 
civilian, in service delivery ministries. We are working with those 
colleagues to coordinate those plans with our own ongoing initiative to 
make advisors available to those ministries as part of our effort to 
implement the President's call for extending government services at the 
subnational level.

    Question. What authorities and resources will improve civilian 
agency capacity to maintain effective engagement with DOD in the 
dynamic counterinsurgency realm?

    Answer. The civilian agencies have the authorities needed to 
maintain effective engagement with DOD. Special hiring authorities are 
enabling the State Department and USAID to place highly skilled 
civilian experts in the field with military operational units--enabling 
us to establish critical linkages at the Provincial and District 
levels. Existing authorities and the civilian uplift give us the tools 
to implement the administration's plan for Afghanistan in cooperation 
with our DOD and ISAF partners. The challenges we face here in 
Afghanistan will require the support of Congress and the American 
public for some time to come. It is important that we continue to 
receive the program funding requested to build capacity and develop 
institutions here in Afghanistan.

    Question. If U.S. military forces will begin departing the country 
in as soon as 18 months, and many responsibilities are assumed by DOD, 
who will manage the programs and sectors that DOD has been managing 
upon their departure?

    Answer. General McChrystal and I share a commitment to a joint civ-
mil mission, and we understand the need to support each other in our 
different responsibilities. The Embassy's efforts are aligned around 
building capacity within Afghanistan's national, provincial, and 
district governments. DOD and ISAF forces will depart as the Afghan 
National Security Forces are built and trained to assume primary 
security responsibilities over more and more of Afghanistan. 
Ultimately, the U.S. Embassy represents U.S. Government priorities and 
interests in any foreign country, including Afghanistan. The mission is 
postured to accept growing responsibilities for oversight of the many 
programs and activities initiated by the military. Civilian agencies 
are quickly increasing the numbers of personnel in the field, which 
will allow us to expand our activities. For instance, the U.S. 
Department of Agriculture is expanding its presence and role in 
Afghanistan and is organizing a much more robust Agriculture team and 
the Department of Homeland Security is preparing to establish an 
attache office. USAID is reorganizing to place more responsibilities in 
the field to ensure that development officials have the tools necessary 
to rapidly respond at the local level. The law enforcement community 
and justice sector will continue to play vital roles--particularly in 
developing rule of law institutions. These initiatives will increase 
the impact of civilian activities to build capacity in the justice 
sector and display the U.S. Government's long-term commitment to the 
Afghan people. Core DOD missions will continue for some time to come--
including the development of the Afghan National Security Forces and 
the Ministries of Defense and Interior--even while the role of combat 
forces evolves from one of direct participation in stability operations 
to that of supporting the Afghan National Security Forces.

    Question. How will the USG ensure an effective transition plan is 
developed and implemented?

    Answer. Our ultimate goal is to transition security 
responsibilities to the Afghans while continuing to support them in 
critical areas such as logistics, training, and intelligence. The 
Embassy and DOD will continue to closely coordinate all activities 
through a variety of coordination mechanisms in Kabul, and at the 
regional and district levels. My staff and I will continue to meet 
regularly with General McChrystal and his staff to ensure our 
structures and mechanisms are evolving to reflect the changing 
environment and our evolving roles. The national level working groups 
and the Executive Working Group coordinating team will be the primary 
vehicles for ensuring continuing cooperation. The Senior Civilian 
Representatives at the Regional Command level will continue to be in a 
position to coordinate resources and priorities and ensure a proper 
balance of military and civilian activities. We continue to be 
proactive in identifying areas where additional coordination and 
cooperation are required. We have established new working groups and 
mechanisms as necessary to ensure that we are working as effectively as 
possible and have begun incorporating Afghan participation as their 
capacity improves. Eventually, our Afghan partners will lead the 
efforts in transitioning activities and programs under the control of 
their own agencies and organizations.

    Question. There have been challenges in training and mentoring the 
Afghan National Police that have survived three distinct Security 
Sector Reform organizations and now confront the latest reorganization 
of our training effort entitled--NATO Training Mission-Afghanistan 
(NTM-A).

  <bullet> What are the primary changes in the training to be 
        incorporated in the Afghan National Police curriculum that will 
        distinguish it from the past 3 reorganizations?

    Answer. The primary changes in the Afghan National Police 
curriculum will be: additional leadership training for supervisors, 
including senior leadership; and improved ``Train-the-Trainer'' 
courses. In addition, the instructor/student ratio will be improved 
with the addition of international police trainers (Italian 
Carabinieri, French Gendarmerie, and the European Gendarmerie Force) 
with a wide range of skills. For further information, I would refer you 
to the Combined Security Training Command-Afghanistan (CSTC-A) and NTM-
A, which has had the lead on curriculum development.

    Question. Why is the INL Bureau at State being removed from its 
important role as a partner with DOD in police training?

    Answer. Real improvements have been made to the Afghan National 
Police (ANP) through the Afghanistan Civilian Advisor Support (ACAS) 
program that the INL Bureau has administered. However, due to the ANP's 
significant needs and role in Afghanistan's security environment, 
combined with the need to accelerate the pace of police training, the 
State Department (including Embassy Kabul) and the Department of 
Defense agreed that those challenges could most effectively be met by 
unifying the police training effort at CSTC-A/NTM-A. The State 
Department will continue to have a policy oversight role, while INL 
will continue to provide support to the training effort, including 
dedicated representation within the CSTC-A/NTM-A organization.

    Question. What agency will be responsible for Afghan National 
Police training?

    Answer. The Defense Department, through CSTC-A/NTM-A, will have the 
lead responsibility for Afghan National Police training. The State 
Department will continue to provide policy oversight, and the INL 
Bureau will continue to provide training support.

    Question. How will the United States monitor and evaluate NATO 
multilateral police training?

    Answer. NTM-A will monitor all NATO training, using personnel from 
its Combined Training Advisory Group-Police (CTAG-P). Metrics to be 
used for evaluation will be collected during frequent site visits and 
assessments. For further information, I would refer you to the Combined 
Security Training Command-Afghanistan (CSTC-A) and NTM-A, which will 
have the lead on evaluation of police training.

    Question. What are the education standards for police officer 
recruitment?

    Answer. Officers, noncommissioned officers, and members of the 
Afghan National Civil Order Police (ANCOP) must have had at least 6 
years education. Basic recruits do not have minimum education 
requirement for recruitment. For further information, I would refer you 
to the Combined Security Training Command-Afghanistan (CSTC-A) and NTM-
A, which will have the lead on police development.

    Question. What goals have been established to achieve basic 
literacy among recruits?

    Answer. A literacy training program has been incorporated into all 
basic police training courses, incorporating 2 hours of classroom time 
into each working day. In addition, a nationwide voluntary ANP literacy 
program has been established at more than 160 sites around the country. 
For further information, I would refer you to the Combined Security 
Training Command-Afghanistan (CSTC-A) and NTM-A.

    Question. The long effort to create an effective justice sector has 
been dedicated for the most part to the high crimes of counternarcotics 
trafficking in Afghanistan.

  <bullet> Would you describe how that has evolved and what lessons 
        will be applied to the Major Crimes Task Force that will now 
        deal directly with other significant crimes such as corruption 
        and kidnapping?

    Answer. One of the strongest justice sector initiatives the United 
States has launched in Afghanistan is the Criminal Justice Task Force, 
or CJTF, dedicated to the prosecution of high-value narcotics cases. 
Located in Kabul, the CJTF is completely self-contained, with a 
detention center for the accused, a court where the accused are tried, 
and facilities for investigators, prosecutors, and guards. Department 
of Justice Assistant U.S. Attorney mentors funded by the Department of 
State/INL work with Afghan investigators, prosecutors, and judges; in 
addition, State/INL provides sustainment funds for the facility and 
mentors the corrections staff through its corrections program. Many of 
the CJTF cases originate in cases developed by the specialized units of 
the Counternarcotics Police of Afghanistan that the U.S. DEA has 
developed and continues to mentor. The CJTF is a success with over 400 
counternarcotics arrests and acquittals over the past year. Morale is 
high there, andits director makes a strong case that Afghans can carry 
cases all the way through the legal system. This capability has been 
developed through the intense, continuous, one-on-one training and 
mentoring of the investigators, prosecutors, and judges by experienced 
federal prosecutors, who have been serving in this role since 2005. 
Advisory support and facility sustaintment are currently provided by 
State/INL and the Government of Afghanistan has agreed to take over 
some of these responsibilities in one year. The natural questions that 
follow are, can it be sustained, and whether the Afghans, with 
assistance, can replicate it elsewhere.
    DEA actively synchronizes the National Interdiction Unit (NIU) and 
Sensitive Investigative Unit (SIU) operations with the U.S. military, 
ISAF and other interagency partners. State/INL provides significant 
financial support to these units, including operations and sustainment 
costs for vehicles and facilities. DEA coordinates intelligence, 
resources, targets, operations, and priorities with the U.S. military 
to further stability, advance the rule of law in order to disrupt 
material support for the insurgency and break the nexus between 
narcotics and corruption. As a result, narcotics, and the insurgent 
financing it represents, as well as insurgent leaders and fighters have 
been removed from the battlefield.
    The success of the SIU and NIU depends on an effective judicial 
component to adjudicate cases in a fair and impartial application of 
justice. Consequently, all cases are brought to the Criminal Justice 
Task Force, or in some instances, to U.S. Federal District Court.
    The Major Crimes Task Force, or MCTF, is a small, vetted 
investigatory unit focused on general corruption and kidnapping cases. 
The MCTF builds on the success of the CJTF and aims to create a more 
sustainable model for effectively investigating, prosecuting, and 
convicting criminals in an Afghan court. The FBI has been working 
closely with the MCTF to train and mentor its staff, in the hopes of 
developing the MCTF into one of the premier independent law enforcement 
entities in Afghanistan. Additional support has been provided by the 
United Kingdom's Serious Organized Crime Agency (SOCA), DOD's Combined 
Security Transition Command-Afghanistan (CSTC-A) and State/INL, among 
others.

    Question. In the context of a counternarcotics strategy in 
Afghanistan, what are the respective roles of State/INL, USAID, USDEA 
and DOD?

    Answer. The U.S. counternarcotics strategy in Afghanistan is a true 
interagency effort, with a number of different agencies drawing on 
their own strengths and resources to both reduce the cultivation and 
trafficking of narcotics in Afghanistan and also to build lasting 
Afghan capacity to continue these efforts in the future. State provides 
the overall policy guidance, and INL--a Bureau of State--implements 
programs to build the capacity of the Ministry of Counternarcotics; 
carry out counternarcotics public information and messaging; enhance 
provincial-level capacity and commitment to combating the drug trade; 
expand drug addiction prevention and treatment capacity; and support 
provincial-level supply reduction through Governor-Led Eradication and 
the Good Performer's Initiative. INL also engages with multilateral 
partners such as the U.N. Office of Drugs and Crime to consolidate 
regional commitment to combating the flow of Afghan opiates and to 
diversify the base of international support for enhanced CN, law 
enforcement, and rule of law cooperation between Afghanistan and its 
neighbors. Through its assistance programs, USAID plays an important 
role in promoting and supporting alternative livelihood programs for 
farmers, rule-of-law programs, and capacity-building programs that 
enhance subnational governance. The DEA has played a vital role in 
mentoring specialized units of the Afghan Counternarcotics Police, 
which has led to increasing success in interdiction and law enforcement 
operations. DOD has also helped build the capacity of Afghanistan's 
National Security Forces, and has been involved in interdiction 
operations and the seizure of opium stashes, weapons caches, and the 
shutting down of heroin and bomb factories. Working closely with our 
National Guard Agribusiness Development Teams and our USDA 
representatives in the field, our colleagues from the aforementioned 
agencies and our military have also helped Afghan farmers to transition 
to licit livelihoods and improve their situations growing crops and 
produce for markets inside and outside Afghanistan. Additionally, the 
Department of Justice has provided experienced federal prosecutors to 
provide one-on-one training and mentoring to the Counternarcotics 
Judicial Task Force and the prosecutors assigned to the Anti-Corruption 
Tribunal.
    Our counternarcotics strategy reflects a civilian-military and 
whole-of-government approach to assisting the Afghan Government in 
waging a counterinsurgency. Capacity-building is key: Our civilian and 
military agencies understand that in order to achieve lasting success, 
we must help get the Afghans to a position where they play a more 
effective leadership role in the fight against narcotics, drawing on 
the support of the United States and other international partners.

    Question. How are each agency's activities integrated into a 
coherent strategy?

    Answer. The administration has worked hard through 2009 to fuse our 
interagency counternarcotics efforts in Afghanistan into a coherent 
strategy. Our counternarcotics strategy provides the overall direction 
to guide interagency activities. There is also an interagency 
counternarcotics working group, chaired by State, that meets at least 
once a month. This working group serves as a forum for discussing and 
coordinating positions on narcotics issues, and on reviewing 
performance measures and other counternarcotics matters. It also played 
a lead role in drafting the counternarcotics strategy. This interagency 
structure is mirrored in Kabul, where an ambassador at U.S. Embassy in 
Kabul also chairs a counternarcotics working group that brings together 
all the agencies involved in counternarcotics (as well as ISAF and 
other partners) and meets at least once a month to review and 
coordinate policy priorities (with subgroups meeting on an ad hoc 
basis). The strategy and these working groups ensure that the 
respective agencies' activities are well coordinated.

    Question. A significant increase in resources and responsibilities 
has been allocated to the communications strategy for Afghanistan.

  <bullet> How have you organized the Embassy to effectively employ a 
        broad and innovative public diplomacy strategy?
  <bullet> How will the civilian and military responsibilities in 
        public diplomacy and strategic communications be divided?
  <bullet> What are the advantages that civilian agencies and DOD bring 
        to this mission?
  <bullet> How will this strategy extend across the border regions that 
        incorporate much of the Pashtun belt? Is there coordination 
        with Embassy Islamabad?

    Answer. Our Afghanistan Communication Plan is a comprehensive 
strategy that demonstrates America's long-term commitment to 
Afghanistan, supports President Obama's agenda, strengthens Afghan 
institutions and moderate voices, counters insurgent messaging, and 
enhances America's enduring partnership with the people of Afghanistan. 
This plan aims to reduce the ability of al-Qaeda, the Taliban, and 
other extremists to influence public perceptions and attitudes; 
supports Afghanistan's people and government as they establish a more 
secure, moderate, just, and lasting state; demonstrates the American 
commitment to Afghanistan, and strengthens the partnership between 
Afghanistan and the United States. Our communication plan is explicitly 
designed to complement our integrated civilian-military campaign plan.
    Though different agencies and departments have different mandates 
and different funding when it comes to communication, there is very 
active cooperation and coordination between Embassy Kabul's Public 
Affairs section, ISAF Communication Offices, our Regional Command and 
PRT Public Affairs sections, and other government agencies through 
regular coordination meetings and planning sessions in country. This 
collaboration is not only conducted by the Embassy's Public Affairs 
team, but with members from all Embassy sections--Economic, Political, 
USAID, Treasury, USDA, to name a few. ISAF liaison officers work with 
the Embassy team on a daily basis and help ensure close coordination.
    Because it is impossible to completely separate roles and 
responsibilities in information arena, we integrate and coordinate 
constantly, and we follow common principles. Some of the principles 
that guide all of our work, be it State or Defense, are adaptability 
(fast response; targeted messages for distinct audiences); clearly 
providing facts (refuting of terrorist lies); projecting strength 
(showing our commitment to helping Afghans build a better future); 
showing respect (fostering dialogue; building Afghan Government 
institutions); and stressing the shared goals of the Afghan people and 
the international community.
    Our new civilian strategy is under consolidated leadership at the 
Embassy and follows four key avenues: Focusing and Expanding Media 
Outreach, Building Afghan Communications Capacity, Countering Extremist 
Messaging, and Strengthening People-to-People Ties. ISAF has also 
revamped its efforts through an integrated communication team with 
increased resources. Information operations and psychological 
operations run by ISAF are also now better coordinated, including with 
civilian partners, under a joint civil-military campaign plan. To 
ensure all of our efforts are mutually supportive, the Embassy 
interacts daily with all ISAF communication sections, from ISAF Public 
Affairs to their Information Operations Task Force. This is true in 
Kabul and in the field where senior civilian communication experts work 
with Regional Commands, PRTs and Task Force commanders and their staffs 
to ensure our public messaging and our information and psychological 
operations all support our overall effort in Afghanistan. Finally, we 
work closely with our Afghan partners at every level on both the 
civilian and military side.
    Additionally, we have begun to implement a comprehensive 
communication strategy for countering terrorist messaging and improving 
relations with the people of Pakistan. Given the nature of the shared 
challenges we face in Afghanistan and Pakistan, our communication 
strategies for both countries share many commonalities. But because the 
United States has a very different footprint in each country in terms 
of personnel and resources and because of the more developed 
communications infrastructure in Pakistan, our approaches differ on 
many levels between Pakistan and Afghanistan. Nonetheless, we ensure 
cooperation on our approach to communications along the Afghan-
Pakistani border through close interagency coordination in Washington 
and with U.S. personnel in both countries.

    Question. S/CRS has provided a number of personnel for discreet 
tasks within the Embassy and country team operations, including most 
recently, a 6-person tiger team to rapidly capitalize on the mission 
requirements of the Public Diplomacy strategy, as well as laying the 
initial groundwork for important civil-military coordination through 
the ICMAG, and providing support to the elections. How would you 
characterize the value and importance of the role of the office of the 
Coordinator for Reconstruction and Stabilization to date?

    Answer. S/CRS has been assisting Embassy Kabul since 2007 with 
specialized staff and missions. Over that time, S/CRS has deployed 65 
people from core staff, the Civilian Response Corps and interagency 
partners in support of Embassy Kabul and ISAF. Currently, S/CRS has 18 
staff deployed in specialized roles in Kabul, Bagram, and Kandahar and 
preparing several additional personnel for newly requested positions.
    The value of S/CRS has been rapid provision of specially trained 
staff and teams who have been able to fill focused needs of the mission 
in that unique environment. These staff have supported the Embassy at 
critical moments in the recent mission restructuring and expansion, 
elections period, and strategy revision.
    Roles requested by the Embassy have included: developing an 
integrated civ-mil planning and assessment system at the national level 
which resulted in the Embassy's first Integrated Civil-Military (Civ-
Mil) Campaign Plan as well as regional and provincial plans/
assessments; support to the design and standup of the new civ-mil 
decisionmaking structure; providing civilian experts to pilot civ-mil 
teams at the regional and provincial levels; representing the Embassy 
in the Regional Command-South Civ-Mil cell--the first multinational 
integrated planning cell of its kind; forming an Interagency Elections 
Support team to reinforce the Embassy's effort to assist the Afghan-led 
elections process and to develop and put mechanisms in place to 
identify fraud and enhance security coordination; supporting current 
work on reviewing rule of law and detentions; and assisting the 
Government of Afghanistan to design and execute the next phase of the 
Afghanistan National Development Strategy.
    S/CRS has been able to draw on a wide range of skills and expertise 
from other agencies as well as from within the State Department 
including rule of law and detention experts from DOJ and the NSC, 
economic advisors from OPIC, public affairs officers from USAID, and 
planners from DOD. Many of these individuals have served in difficult 
and dangerous environments, piloting the concepts underpinning the 
civilian uplift while supporting the senior civilian representatives in 
east and south with their specialized stabilization expertise.

    Question. How can S/CRS respond more effectively to Embassy 
requirements across any number of sectors?

    Answer. S/CRS regularly responds to Embassy requests for assistance 
with CRC and S/CRS staff to the maximum extent resources allow. As this 
collaboration continues it will become faster and more regularized, 
allowing for ``just in time'' deployments as needed. S/CRS is working 
with S/SRAP and the Embassy to determine future needs from the CRC and 
S/CRS core staff.

    Question. In October of this year, the Broadcasting Board of 
Governors briefed the committee on its operations worldwide, including 
our programming for the Afghanistan/Pakistan border region. The BBG 
noted in a followup written response that, in spite of working with the 
Afghan Government since the fall of 2005, ``The Ministry of Information 
continues to block the contract for the operation of the Khost 
facilities . . . Minister of Information Khurram continues to block 
efforts to resolve this issue . . . '' The Voice of America later 
reported that, also in October, the Pakistani Government reversed its 
decision to allow VOA transmission from Peshawar into the border region 
after only a month of operations.

  <bullet> What if any progress has been made since October?
  <bullet> Are these host country decisions isolated or are they 
        indicative of a lack of cooperation more broadly in this sector 
        and from this ministry?

    Answer. The Department of State has worked closely with the 
Broadcasting Board of Governors to resolve the impasse with the 
Government of Afghanistan over the commissioning of the Khost 
transmitter site.
    On January 5, the Broadcasting Board of Governors received from the 
Director of Radio Television Afghanistan a signed amendment to the BBG-
RTA agreement as it had been presented by BBG to the Afghan side in 
August. This clears the way for BBG broadcasts using the Khost Tower to 
begin. As of January 10, BBG was conducting technical tests. We expect 
the broadcasts to begin soon.
                                 ______
                                 

       Responses of GEN David Petraeus to Questions Submitted by 
                         Senator Barbara Boxer

    Question. I am concerned that there is an alarming disconnect 
between the more targeted vision President Obama articulated in his 
speech regarding U.S. strategy in Afghanistan, and statements made by 
General McChrystal about how he intends to move forward.
    The word ``counterinsurgency'' was notably absent from the 
President's speech last Tuesday. He stated that he ``rejected goals 
that were beyond what can be achieved at a reasonable cost and what we 
need to achieve to secure our interests.''
    But according to media reports, General McChrystal gave a number of 
statements the very next day in Afghanistan in which he repeatedly used 
the word ``counterinsurgency.'' He even announced that he had created a 
counterinsurgency advising team.
    The Washington Post summed up McChrystal's comments by saying 
``McChrystal has left little doubt that counterinsurgency is what he 
intends to do.''
    In your counterinsurgency manual, you clearly state that ``20 
counterinsurgents per 1,000 residents is often considered the minimum 
troop density for effective'' counterinsurgency operations. Or in other 
words, we need 20 security forces for every 1,000 Afghans.
    So it appears as though we would need roughly 570,000 security 
forces to conduct effective counterinsurgency operations in 
Afghanistan.
    But as you know, our troop levels will not come close to this 
target figure. According to my calculations, we would have roughly 
330,000 forces--including U.S., NATO/ISAF and Afghan security forces 
once the 30,000 additional Americans are deployed.
    And even if we are able to train additional Afghan security forces, 
we would only have a total of 370,000 forces by the end of October 
2010.
    This is clearly hundreds of thousands of forces short of the 
minimum articulated in your manual.
    This is the kind of discrepancy that leads me to question whether 
increasing U.S. troop levels by 30,000 will only lead to our forces 
getting bogged down in an increasing cycle of violence.

  <bullet> Is there a disconnect between the President and General 
        McChrystal? Why did President Obama omit the use of the word 
        ``counterinsurgency'' while General McChrystal continues to use 
        it?
  <bullet> How can you reconcile the fact that the United States may be 
        conducting a counterinsurgency campaign in Afghanistan with 
        330,000 troops when your counterinsurgency manual recommends 
        hundreds of thousands of additional forces for a country the 
        size of Afghanistan?

    Answer. The situation in Afghanistan is complex and requires a 
comprehensive strategy. The objective in Afghanistan is the population. 
The population must be protected from intimidation and coercion by the 
insurgents while creating conditions for the Government of Islamic 
Republic of Afghanistan to be seen as an enduring government that can 
provide basic government services. Using a strategy of clear, hold, 
build, and transfer, the United States and coalition forces will 
provide protection and will transfer the security mission to Afghan 
forces when they are ready. This strategy will combat the insurgency 
while allowing the Government of Islamic Republic of Afghanistan the 
time it needs to be able to provide basic services throughout 
Afghanistan. It also allows for an expanding footprint using the 
authorized troop limits set by the President and our coalition 
partners. As for the word ``counterinsurgency,'' the President was 
speaking to the U.S. population about a troop increase and our goals in 
Afghanistan, while General McChrystal was talking about how to use the 
troop increase in order to provide security from the insurgents.

    Question. Last month, the Washington Post reported that Ambassador 
Eikenberry sent two classified cables to President Obama expressing his 
reservations about sending additional U.S. forces to Afghanistan.
    The Post cited senior U.S. officials who said that the cables 
conveyed the Ambassador's ``deep concerns about sending more U.S. 
troops to Afghanistan until President Hamid Karzai's government 
demonstrates that it is willing to tackle the corruption and 
mismanagement that has fueled the Taliban's rise.''
    I take this very seriously, particularly in light of Ambassador 
Eikenberry's outstanding credentials, including 40 years of service in 
the Army and two tours of duty in Afghanistan.
    However, it is clear that Ambassador Eikenberry is not alone in his 
skepticism of President Karzai's approach to governance.
    In a 2007 survey conducted by Integrity Watch Afghanistan (IWA), 60 
percent of Afghans said that the Karzai government was the most corrupt 
in 40 years, compared with 10 percent for the Taliban.
    One tribal leader was even quoted by the Washington Post as saying 
``When I see what this government is doing, it makes me want to join 
the Taliban.''

  <bullet> After 8 years of rampant corruption and inefficiency, what 
        has changed in the past month since Ambassador Eikenberry sent 
        his cables that make you confident in the Karzai government's 
        ability to root out these problems?
  <bullet> Can you assure us that President Karzai will dramatically 
        change his approach to governance and make the reforms 
        necessary to be a credible partner?

    Answer. The Department of Defense (DOD) is in full support of the 
Embassy's and State Department's efforts to improve the Afghan National 
Government, and supports their efforts to root out corruption. I will 
support Ambassador Holbrooke's diplomatic efforts with President Karzai 
to provide a legitimate government. I will lend further support to its 
people by conducting counterinsurgency operations to secure the 
populace and train the Afghan National Security Forces (ANSF) to 
counter internal and external threats to the Afghan people.
    The Afghanistan National Government will require time and continued 
support from the U.S. and partner nations in order to become a 
legitimate authority that can effectively lead its people and be 
trusted by the international community.

    Question. It appears as though the strategy proposed by General 
McChrystal in August is moving forward.
    There is one part of General McChrystal's report that makes me 
particularly worried about the safety of our troops.
    In his report, General McChrystal indicates that abandoning 
important protective measures--such as the use of armored vehicles--in 
the near term will save lives in the longer term.
    For example, in the report he states that the use of armored 
vehicles in secure areas of the country conveys ``a sense of high risk 
and fear to the [Afghan] population.''
    He goes on to recommend giving leaders the ability to accept ``some 
risk'' and use less protective equipment, such as armored vehicles and 
body armor, in order to better relate to the population.
    But, he concludes that doing so ``could expose military personnel 
and civilians to greater risk in the near term.''
    This concerns me because the weapon of choice for our adversaries 
in Afghanistan is the improvised explosive device, or IED, which allows 
the enemy to target us from a distance.
    These bombs have become more sophisticated, and their impact more 
deadly.
    The former director of the Pentagon agency established to deal with 
IEDs recently said that they cause between 70 and 80 percent of all 
casualties in Afghanistan.

  <bullet> Are you comfortable with this element of General 
        McChrystal's strategy? Are we asking our forces to assume an 
        unacceptable risk?

    Answer. The strategy laid out by General McChrystal is prudent and 
does not place our forces at unacceptable risk. In secure areas, the 
threat from IEDs is greatly diminished and this strategy will give 
commanders the flexibility to use protective measures based on the 
prevalent threats in that area. Based on the mission, commanders will 
have the latitude they need to determine the methods they will use to 
achieve the desired results.

    Question. It has become apparent over the past week that the 
President's Afghanistan strategy is largely dependent on the ability of 
Afghan security forces to step up in the near term and assume 
responsibility for the security of their country.
    But everything suggests that building credible security forces will 
take a very long time.
    The following description of the state of the Afghan forces by 
Dexter Filkins recently appeared in the New York Times: ``While many 
Afghans have demonstrated an eagerness to fight the Taliban, the Afghan 
army and police have shown themselves unable to maintain themselves in 
the field, to purge their ranks of corruption, to mount operations at 
night or to operate any weapon more complicated than a rifle.''
    He goes on to say that ``the bureaucratic skills and literacy 
levels necessary to administer a large force have not materialized, 
even after years of mentoring.'' Mr. Filkins adds that ``American 
trainers often spend large amounts of time verifying that Afghan 
rosters are accurate--that they are not padded with `ghosts' being 
`paid' by Afghan commanders who quietly collect the bogus wages.''
    The Associated Press also reported earlier this week that Afghan 
President Hamid Karzai said that it may be 5 years before the Afghan 
army is ready to take on insurgents and that it will be at least 15 
years before the Afghan Government can ``bankroll a security force 
strong enough to protect the country from the threat of insurgency.''

  <bullet> Do you disagree with Mr. Filkins' assessment?
  <bullet> Are you concerned by President Karzai's statements?
  <bullet> What happens in July 2011 if the Afghan security forces 
        aren't ready to step up?

    Answer. Mr. Filkins' statement was based on the situation and the 
training methods that were used at the time he assessed the situation 
with the Afghan security forces. The training of the security forces is 
a dynamic process, with changes and solutions occurring rapidly to 
correct the issues that he mentioned. Since President Karzai made his 
statements, the increased forces being sent to Afghanistan will have 
the mission to partner and mentor with Afghan security forces. The 
additional forces will ensure sufficient numbers of trainers are 
available to train every unit in the Afghan security forces. This 
increased focused training effort will accelerate the existing plan to 
bring Afghan units up to readiness levels that will allow us to 
transfer the security mission to them in time to meet the deadline 
established by the President. The transfer process will be a gradual 
process, as units and areas achieve readiness, they will assume 
responsibility for their own security. In areas where Afghan units are 
not ready, coalition forces will continue to provide security until 
that responsibility is transferred to Afghan security forces.
                                 ______
                                 

     Responses of Ambassador Karl Eikenberry to Questions Submitted
                for the Record by Senator Barbara Boxer

    It has become apparent over the past week that the President's 
Afghanistan strategy is largely dependent on the ability of Afghan 
security forces to step up in the near term and assume responsibility 
for the security of their country.
    But everything suggests that building credible security forces will 
take a very long time.
    The following description of the state of the Afghan forces by 
Dexter Filkins recently appeared in the New York Times: ``While many 
Afghans have demonstrated an eagerness to fight the Taliban, the Afghan 
Army and police have shown themselves unable to maintain themselves in 
the field, to purge their ranks of corruption, to mount operations at 
night or to operate any weapon more complicated than a rifle.'' He goes 
on to say that ``the bureaucratic skills and literacy levels necessary 
to administer a large force have not materialized, even after years of 
mentoring.'' Mr. Filkins adds that ``American trainers often spend 
large amounts of time verifying that Afghan rosters are accurate--that 
they are not padded with `ghosts' being `paid' by Afghan commanders who 
quietly collect the bogus wages.''
    The Associated Press also reported earlier this week that Afghan 
President Hamid Karzai said that it may be 5 years before the Afghan 
Army is ready to take on insurgents and that it will be at least 15 
years before the Afghan Government can ``bankroll a security force 
strong enough to protect the country from the threat of insurgency.''

    Question. Do you disagree with Mr. Filkins' assessment?

    Answer. Parts of Mr. Filkins' assessment generalize deficiencies 
which exist in parts but may not be endemic throughout the Afghan 
National Security Forces. There are units which operate independently 
with little or no oversight from ISAF units. The ongoing Afghan 
National Police Personnel Asset Inventory, a program asked for by the 
Ministry of Interior with ISAF assistance, is addressing personnel and 
weapon accountability and scientifically identifying the scale of the 
drug problem in order to provide the best data possible for future 
reform rather than relying upon anecdotal evidence.
    Over the past year, several changes in the command and control 
structure within ISAF have improved our ability to remedy some of the 
deficiencies noted by Mr. Filkins. The creation of the ISAF 
Intermediate Joint Command has freed General McChrystal's staff to more 
fully partner with the Ministries of Defense and Interior. 
Additionally, NATO Training Mission-Afghanistan, established in 
November 2009, will provide additional capacity to partner and mentor 
Afghan ministries, as well as provide needed training and oversight at 
the ministry level down to police district and Afghan National Army 
battalion level. Finally, the civilian uplift from the State Department 
and other civilian agencies, including the Drug Enforcement 
Administration and Federal Bureau of Investigation, will also increase 
the number of experts in Kabul and throughout the country who will also 
play a key role in capacity-building, particularly with the Ministry of 
Interior.

    Question. Are you concerned by President Karzai's statements?

    Answer. The President has repeatedly stated that it is in the long-
term interest of the United States and the international community to 
support the Government of Afghanistan until it is capable of supporting 
itself. This is a shared responsibility in partnership with the Afghan 
Government. It is important to note that the international community 
materially and financially shares this burden with the United States. 
Key to reducing this burden over time is the development of the Afghan 
economy and improving revenue collection so that the Afghan Government 
can increasingly pay for its own needs.

    Question. What happens in July 2011 if the Afghan security forces 
aren't ready to step up?

    Answer. The Afghans are already in the lead in several areas, 
including Regional Command-Capital. Our military forces seek to conduct 
all operations by, with, and through the Afghan National Security 
Forces and conduct planning and leadership of these operations in the 
closest partnership possible. Over time, we will assess the progress of 
the Afghan National Security Forces and adjust the nature of our 
mission accordingly. Areas which are secure enough, are relatively 
stable, and with Afghan National Security Forces at or near requisite 
levels could be transitioned when ready. More insecure areas will 
obviously take longer. While conditions on the ground will dictate the 
rate at which we transfer responsibility, we are committed to beginning 
the transfer of areas which are ready, starting in July 2011 or sooner.
                                 ______
                                 

       Responses of GEN David Petraeus to Questions Submitted by
                        Senator Roger F. Wicker

    Question. What percentage of the 7,000 new NATO/International 
Security Assistance Force (ISAF) military personnel assigned to 
Afghanistan will be restricted by caveats? How does the administration 
plan to engage countries with prohibitively restrictive national 
caveats?

    Answer. Approximately 43 percent of the planned foreign troop surge 
(3,043 out of 7,000) will have at least one restriction or caveat 
placed on their forces. Caveats that limit the geographic and 
operational flexibility of ISAF forces remain a challenge in 
Afghanistan. Despite this challenge, the trend over the last year has 
been positive with several nations dropping specific caveats and a 
majority of ISAF troop contingents now caveat free. Four countries 
became caveat free in 2009. We continue to impress upon our allies and 
partners the importance of providing the commanders on the ground the 
maximum possible flexibility in the employment of ISAF forces.

    Question. How confident are you that President Karzai's selection 
of Cabinet ministers will result in a Cabinet comprised of honest 
ministers? To what extent will domestic political considerations 
require President Karzai to appoint less than credible ministers?

    Answer. This question is best answered by Ambassador Eikenberry.
                                 ______
                                 

       Responses of GEN David Petraeus to Questions Submitted by
                     Senator Kirsten E. Gillibrand

    Question. You have come to speak to us about one of the most 
challenging decisions facing the President, you as one of his advisors, 
the Congress and the Nation. I commend President Obama and you all for 
your careful deliberation. While I am reluctant to send another 30,000 
troops into Afghanistan and spend billions at a time when we have so 
many domestic priorities, I recognize that U.S. national security is at 
stake and the President pledged to keep our military intervention 
limited in time. I have a few questions to help me better understand 
our military strategy. I understand from the President's speech and the 
testimony we have heard from Secretary Gates and others that our goal 
is to begin to pull American troops out in the summer of 2011.

  <bullet> How does that match up with the classic COIN 
        (counterinsurgency) guidance, which you published based on your 
        Iraq experience? Is that sufficient time to achieve the goal of 
        an Afghan security force buildup?

    Answer. The COIN guidance of clear, hold, build, and transfer will 
support the goal of pulling troops out in the summer of 2011. The troop 
increase will accelerate our progress in all areas of Afghanistan's 
development. Additional troops will allow for a larger footprint in 
Afghanistan, which will protect more of the population, allow the 
Government of the Republic of Afghanistan the ability to provide basic 
services to more of the population, and allow the Afghan army and 
police forces to grow and train so we can transfer security duties to 
them. Coalition forces are setting the conditions under which Afghan 
forces can be recruited and trained in order to expand their operations 
throughout all areas of Afghanistan. The current pace of development 
and operations will provide sufficient time to build up Afghan security 
forces before summer 2011. More troops will also allow for every Afghan 
army unit to be mentored and partnered with U.S. and coalition units, 
enhancing their training and operations capabilities before U.S. forces 
begin redeployment in summer 2011.

    Question. President Karzai has said that 5 years are needed for the 
security buildup.

  <bullet> Is there a discrepancy between our visions, or are we and 
        the Afghan Government talking about different measures?

    Answer. Our vision of providing protection to the Afghan population 
from the insurgency is the same as President Karzai's. The 30,000 
increase in U.S. troops and the international non-U.S./ISAF troops will 
allow for accelerating the growth and training of the Afghan security 
forces. By partnering and mentoring with Afghan security force units, 
we will be able to begin transferring security duties in time to 
support a U.S. drawdown in 2011.

    Question. Since the increased number of U.S. troops arrived earlier 
this year, what successes have we seen that can be attributed to the 
earlier troop surge?

    Answer. The earlier force expansion provided greater security for 
the population in more areas across Afghanistan. This accelerated the 
Government of Islamic Republic of Afghanistan's ability to provide 
basic governmental services throughout Afghanistan, allowed for 
partnering and training additional Afghan National Security Forces and 
Afghan National Police units, and provided security for additional 
infrastructure improvements at an accelerated pace.

    Question. A major aspect of counterinsurgency (COIN) is to secure 
and serve the civilian population, which entails a change in tactics 
and may increase risk to our troops.

  <bullet> Are our International Security Assistance Force (ISAF) 
        allies, which have often put significant limits on their troop 
        operations, on board with COIN?

    Answer. Our ISAF allies are operating according to COIN and 
according to their national guidance. Due to the regional and tribal 
differences throughout Afghanistan, coalition forces have tailored 
their COIN operations to each region. What works in one region may not 
work in all regions. Each region commander has the flexibility to adapt 
COIN operations to enable coalition forces to be effective at meeting 
COIN objectives. Coalition forces are our partners in maintaining 
security for the Afghan population. They are also involved in building 
infrastructure, the expansion of the Afghanistan National Security 
Forces, and they allow for the Government of Islamic Republic of 
Afghanistan to provide basic government services. Our allies and U.S. 
troops conduct operations to counter the insurgency and protect the 
population from intimidation and coercion.
                                 ______
                                 

 Response of Deputy Secretary of State Jacob Lew to Question Submitted 
                     by Senator Kirsten Gillibrand

    Question. To what extent is the State Department's Civilian 
Response Corps being used in Afghanistan? How many S/CRC staff or 
stand-by personnel in country?

    Answer. S/CRS has been deploying personnel to Afghanistan since 
2007, with 65 core staff, Civilian Response Corps (CRC) members, and 
interagency partners having deployed to date in support of Embassy 
Kabul and ISAF. Currently, a total of 18 staff from S/CRS and the CRC 
are deployed in specialized roles in Kabul, Bagram, and Kandahar, with 
additional CRC members expected to deploy over the next year.
    In Afghanistan, S/CRS and CRC personnel have applied new tools 
developed by S/CRS and its interagency partners to more effectively 
plan, implement, and assess needs. These have included developing and 
executing an integrated civ-mil planning and assessment system 
including an innovative multinational cell in RC-South; piloting new 
approaches to civ-mil integration at combat taskforces, provincial 
teams and regional commands, which has evolved to the Senior Civilian 
Representative system and civilian platforms; supporting the elections 
process and increasing antifraud detection; and providing stabilization 
expertise to ISAF leadership, the Detentions and Corrections taskforce, 
the civilian uplift design process, implementation of a new 
communications strategy, and support to the next phase of the 
Afghanistan National Development Strategy (ANDS).
                                 ______
                                 

   Responses of Ambassador Karl Eikenberry to Questions Submitted by 
                       Senator Kirsten Gillibrand

    Question. This week the President spelled out the grave risk to 
United States national security if Afghanistan falls to Taliban 
control. After 8 years of insufficient resources and lack of focus, we 
risk providing a stronghold for al-Qaeda and threatening the stability 
of nuclear Pakistan. That is exactly the concern of experts in and 
outside our Government if the Taliban takes control in Afghanistan 
again.
    We and our international partners must implement a thoughtful 
civilian strategy that strengthens effective government services and 
builds a stable coalition that does not depend on corrupt officials, so 
that the Afghan people have a reason to support their government rather 
than Taliban rule. I have no illusions of a Western-style modern state, 
which has never existed in Afghanistan. What we must aim for is a 
stable state that provides sufficient security and services to its 
people, so that it is preferable to the Taliban alternative.

  <bullet> You have reportedly raised concerns about the surge strategy 
        because of reservations that you have about the Karzai 
        government. What about the strategy discussions has changed 
        your mind?

    Answer. The review process was extraordinarily thorough and the 
debate was frank and vibrant--exactly what you need to weigh decisions 
of this magnitude, in a situation this complex. I was pleased to take 
part and am fully supportive of the outcome. I provided my thoughts, by 
video conference, phone, in person and in cables, which are routine for 
ambassadors in the field. I never doubted the need for additional 
troops, and fully support General McChrystal's assessment.
    There are always risks and benefits of adding U.S. troops. I 
expressed my views. All the President's advisers raised questions about 
the various options.
    I fully support the refined mission focused on south and east, on 
helping build basic governance and on accelerating Afghan National 
Security Forces growth.
    In the end, the strategy review process was as it should be: 
comprehensive, open, and deliberative. It was appropriate given the 
stakes--U.S. vital national security interests and the commitment of 
troops and treasure. Getting it right was more important than doing it 
fast.

    Question. What do you think we need to see from the Afghan 
Government to make the President's strategy a success?

    Answer. Much of what we need to see from the Afghan Government in 
order to succeed was laid out by President Karzai himself in his 
inaugural speech last November. President Karzai's agenda aligns very 
closely with our priorities for the next 18 months. The Afghan National 
Security Forces must continue to develop so that they can continue 
taking over responsibility for security in their own country. President 
Karzai must stay true to his commitment to attack corruption so that 
the Afghan people can have faith in their government, demonstrating 
this by appointing competent officials at all levels of government, and 
removing those who are corrupt or unqualified. His approach to economic 
development should focus on key sectors such as agriculture, 
infrastructure and education that can provide jobs and a more capable 
workforce. He must present a plan for peace and stability through the 
reintegration of those former Taliban fighters who renounce terrorism 
and al-Qaeda, and agree to abide by the Afghan Constitution.
    And finally he should continue to pursue constructive diplomatic 
engagement with Afghanistan's neighbors. Progress in these areas will 
lessen our security role and provide the basis for stronger public 
support for the Afghan Government.

    Question. What leverage do you plan to use to achieve our goals?

    Answer. Our preferred course of action is to work jointly with the 
Afghan Government, set shared goals and objectives, and then work 
cooperatively to achieve them. As one of the lead contributors to 
international assistance designed to help the Afghan Government wage a 
counterinsurgency, we have leverage in terms of our assistance--both 
material and diplomatic. We also have excellent collaboration with 
other key donors and missions in Afghanistan, and can also apply 
leverage on a multilateral basis. Success in Afghanistan is in our 
national interest, and we will use all of our tools to pursue it.

    Question. You have testified about the tripling of the number of 
U.S. civilians in Afghanistan to 1,000. But that is still far lower 
than the number of military. How are you ensuring that our civilian 
program is as robust as our military and that cooperation is solid, 
given the difference in levels of personnel?

    Answer. The integration of civilian and military efforts has 
greatly improved over the last year, a process that will deepen as 
additional troops arrive and our civilian effort continues to expand. 
We have Senior Civilian Representatives (SCRs) counterparts to NATO-
ISAF commanders in each of the Regional Commands. These SCRs are senior 
professionals, experienced in conflict environments. They direct the 
work of all U.S. Government civilians under Chief of Mission authority 
within their regions, subject to my overall guidance. This structure 
has two important features: First, it ensures that our civilian efforts 
are fully integrated, both across the different civilian agencies and 
with the military units; second, it is decentralized, enabling quick 
response to local needs, which is essential to deal with the varying 
conditions in Afghanistan.
    In conjunction with the arrival of U.S. military units in key 
districts, we anticipate a further significant increase in our civilian 
staffing in 2010. In all, we expect staffing will grow by another 20-30 
percent above the 1,000 by the end of 2011. Aligning with the strategy, 
the majority of these new personnel will deploy to the east and south. 
We are concentrating experts in the field and at the key ministries 
which deliver vital services to the Afghan people. Our increased 
civilian presence has enabled us to more effectively and rapidly invest 
our assistance in agriculture, job creation, education, health care, 
and infrastructure. To maximize our impact in priority areas, we have 
created District Support Teams, which allow civilians in the field to 
collaborate with the military to build Afghan capacity in key 
districts.
    Although the number of civilians is considerably less than their 
military counterparts, each civilian works with numerous implementing 
partners, NGOs and Afghan counterparts, producing a multiplier effect 
estimated to be 10 to 1. Beyond pure numbers, we are ensuring that we 
have the right civilians, with the right skills and training, deployed 
to the right locations in order to achieve our objectives.

    Question. In outlining the U.S. strategy the President correctly 
focused on both Pakistan and Afghanistan. This administration is 
correctly analyzing the risk as a regional one, and crafting a strategy 
accordingly. Our ability to help bring security and stability to 
Afghanistan is key to the security of a nuclear Pakistan. The Taliban 
network stretches across the porous Durand Line between Pakistan and 
Afghanistan. So should a smart U.S. strategy. Are you and Ambassador 
Patterson in Islamabad consulting on a regular basis?

    Answer. Yes. Ambassador Anne Patterson and I, as well as the staff 
of our Embassies in Kabul and Islamabad, consult regularly and work 
together under Special Representative Richard Holbrooke's direction, to 
facilitate collaboration between Afghanistan and Pakistan on security 
issues, political dialogue, and economic cooperation. I speak 
frequently to Ambassador Patterson and officers of our two Embassies 
travel on a regular basis to work on shared programs. Both Embassies 
maintain Border Coordination offices that were established to enhance 
cooperation on key issues, including the movement of critical U.S. and 
NATO-ISAF supplies through Pakistan to support military operations in 
Afghanistan. We have placed particular focus on a transit-trade 
agreement between Afghanistan and Pakistan, which will facilitate the 
movement of goods across the border, and on improving customs 
procedures and facilities on both sides of the border, thereby enabling 
the expansion of lawful commercial activity led by the private business 
sectors of both countries.

    Question. I understand that there is a pilot project, the Afghan 
Public Protection Program (APPP), which supports local tribally 
recruited militias. I am concerned that by building local militias, we 
are repeating past mistakes and may leave behind military groups 
without sufficient civilian oversight. This could continue the human 
rights abuses of the past and destabilize the government after we 
leave. What are we doing to address that?

    Answer. The Afghan Public Protection Program (APPP or AP3) is an 
Afghan-led pilot project in Wardak province that is training a public 
security force. It is important to note that this is not a tribal 
militia but a community-based force that is part of the Ministry of 
Interior (MOI) under the Afghan National Police. The APPP is a 
uniformed service with members who serve a fixed term of enlistment and 
receive salary and benefits. The personnel in the APPP are drawn from 
the community and are generally representative of its different ethnic 
and tribal groups. Since it is a security force that is part of the 
Afghanistan National Police, it is not under control of warlords but 
under the command of the district police chiefs. Members sign an 
enlistment contract and swear an oath to the Government of Afghanistan. 
In addition to this oath, they are held accountable by local community 
councils of elders that help select individuals for this program.
    Overall, the APPP was developed out of experience with several 
other local forces, and is grounded in the belief that community 
support is essential to effective and comprehensive security. Recruits 
are vetted by local councils, closely tied to other improved local 
governance efforts, and are fully integrated into the MOI structure. 
Special Operations Forces, Police Mentor Teams, and the Battle Force 
Commander all provide oversight to the APPP during both training and 
deployment. As noted earlier, the APPP is a pilot program and we are 
still reviewing its performance.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
